<html>
<title> - ESCALATING VIOLENCE AGAINST COPTIC WOMEN AND GIRLS: WILL THE NEW EGYPT BE MORE DANGEROUS THAN THE OLD?</title>
<body><pre>[Joint House and Senate Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






                ESCALATING VIOLENCE AGAINST COPTIC WOMEN
                 AND GIRLS: WILL THE NEW EGYPT BE MORE
                        DANGEROUS THAN THE OLD?

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 18, 2012

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 112-2-9]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   Available via http://www.csce.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-217 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               

            HOUSE                                 SENATE

CHRISTOPHER H. SMITH, New Jersey,    BENJAMIN L. CARDIN, Maryland,
Chairman                             Co-Chairman
JOSEPH R. PITTS, Pennsylvania        SHELDON WHITEHOUSE, Rhode Island
ROBERT B. ADERHOLT, Alabama          TOM UDALL, New Mexico
PHIL GINGREY, Georgia                JEANNE SHAHEEN, New Hampshire
MICHAEL C. BURGESS, Texas            RICHARD BLUMENTHAL, Connecticut
ALCEE L. HASTINGS, Florida           ROGER F. WICKER, Mississippi
LOUISE McINTOSH SLAUGHTER,           SAXBY CHAMBLISS, Georgia
New York                             MARCO RUBIO, Florida
MIKE McINTYRE, North Carolina        KELLY AYOTTE, New Hampshire
STEVE COHEN, Tennessee
            

                     EXECUTIVE BRANCH COMMISSIONERS

                 MICHAEL H. POSNER, Department of State
              MICHAEL C. CAMUNNEZ, Department of Commerce
               ALEXANDER VERSHBOW, Department of Defense

                                  (ii)
















                   ESCALATING VIOLENCE AGAINST COPTIC
                 WOMEN AND GIRLS: WILL THE NEW EGYPT BE
                      MORE DANGEROUS THAN THE OLD?

                              ----------                              

                             July 18, 2012
                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Robert Aderholt, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    11

                               WITNESSES

Dr. Katrina Lantos Swett, Chair, United States Commission on 
  International Religious Freedom................................     3
Michele Clark, Adjunct Professor, Elliott School of International 
  Affairs, The George Washington University......................    13
Dr. Walid Phares, Co-Secretary General, The Transatlantic 
  Legislative Group on Counterterrorism..........................    19
``Anne,'' a Coptic Christian from Egypt and Attempted Kidnap 
  Victim.........................................................    23

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith, Chairman, 
  Commission on Security and Cooperation in Europe...............    35
Prepared statement of Dr. Katrina Lantos Swett...................    37
Prepared statement of Michele Clark..............................    53
Prepared statement of Dr. Walid Phares...........................    76

                                 (iii)

 
                   ESCALATING VIOLENCE AGAINST COPTIC
                  WOMEN AND GIRLS: WILL THE NEW EGYPT
                    BE MORE DANGEROUS THAN THE OLD?

                              ----------                              


                             July 18, 2012

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 2 p.m. in room 210, Cannon House 
Office Building, Washington, DC, Hon. Christopher H. Smith, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe, and Hon. 
Robert Aderholt, Commissioner, Commission on Security and 
Cooperation in Europe.
    Witnesses present: Dr. Katrina Lantos Swett, Chair, United 
States Commission on International Religious Freedom; Michele 
Clark, Adjunct Professor, Elliott School of International 
Affairs, The George Washington University; Dr. Walid Phares, 
Co-Secretary General, The Transatlantic Legislative Group on 
Counterterrorism; and ``Anne,'' a Coptic Christian from Egypt 
and Attempted Kidnap Victim.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. The Commission will come to order. And good 
afternoon and welcome to our hearing on the escalating violence 
facing Coptic women and girls in Egypt following the Arab 
Spring, including the outrageous crime of abduction, forced 
conversion and which the Egyptian government, both old and new, 
is doing all too little about, if anything at all. It has now 
been almost a year and a half since the revolution began in 
Egypt and Egypt is still in the foundry fires of transition, 
hopefully into a free and democratic state. The Egyptians have 
elected a parliament but the Supreme Council of the Armed 
Forces, or SCAF, dissolved it with the support of the 
constitutional court.
    As president, Mohamed Morsi of the Muslim Brotherhood was 
elected and installed but not before the SCAF, who seemed to be 
mostly secularists, curtailed presidential power over the 
military and given the military legislative powers. The 
constituent panel, which was drawn from the now-dissolved 
parliament and has been boycotted by the Coptic Christians, 
began drafting work on Egypt's new constitution. Yet it may be 
disbanded any day by a pending court decision. Order seems to 
hang by a thread and tensions run extremely high. Though Egypt 
has avoided civil war, the revolution and ongoing unrest and 
social conflict have already left many casualties in the Coptic 
community which makes up almost eight percent of Egypt's 
population. Sadly, there are groups that would use the ancient 
Christian Coptic community as a way to build unity around a 
common enemy.
    The SCAF was guilty of this on October 9th, 2011, when the 
military fired on a peaceful group of Coptic Christians in 
Maspero and ran them over with military vehicles while calling 
through the national news service for honorable citizens to 
defend the army against attack. That is, the SCAF openly 
invited violence against the Coptic community. Twenty-seven 
people were killed and more than 300 injured. Almost all of 
them were Copts. The military claimed that one soldier was 
killed but it refuses to release his name. Almost a year later, 
protestors are on trial for the incident and three soldiers 
have been charged with only misdemeanors.
    As we will hear today from Michele Clark and her new report 
on the disappearance, forced marriages and forced conversions 
of Coptic women, the vulnerability and abduction of Coptic 
Christians is not new. Going back to the 1970s, there were many 
accounts of Coptic women and girls being abducted by Muslims, 
forcibly conducted and forcibly married. There are many such 
reports, no doubt. Some of them were of women choosing to 
elope, marry across religious lines and cut off relations with 
their family. But the claim of the Egyptian government that 
this is the story of every one of the thousands of disappeared 
women and girls absolutely defies the evidence. The women and 
girls are found--who are found claim to have been drugged and 
kidnapped or kidnapped with violence. They often report human 
rights abuses including forced conversion, rape, forced 
marriages, beatings and domestic servitude.
    Alarmingly, since the revolution, cases of--since the 
revolution, cases of reported disappearance have increased 
while recovery of the women and girls have decreased. Those 
women who are found and returned to their families face many 
obstacles including government refusals to change their 
identity cards to reflect their return to their Christian 
faith, which seems to sanction forced conversions. Nor are we 
aware of any case before or after the revolution in which an 
abductor has been prosecuted.
    President Morsi in his first speech as president envisioned 
Egypt as being for Muslims and Christians. This must mean true 
justice for Copts. Copts must be given equal protection under 
the law. Secretary Clinton was in Egypt over the weekend facing 
protestors with signs that said, quote, ``Obama, don't send 
your dollars to jihadists.'' Congress sent the same message 
with the 2012 Consolidated Appropriations Act which required 
the secretary to certify that Egypt was making improvements in 
religious freedom before we released the $1.3 billion in aid.
    An unnamed senior State Department official reported to 
Reuters that on the basis of American national security 
interests, she--meaning Secretary Clinton--will waive the 
legislative conditions related to Egypt's democratic 
transition, allowing for the continued flow of foreign military 
financing to Egypt. ``The move reflects,'' the quote goes on to 
say from the unnamed official, ``the move reflects our 
overarching goal to maintain our strategic partnership with an 
Egypt made stronger and more stable by a successful transition 
to democracy.''
    This is democracy? My response is simply this. Unless 
Coptic women and girls are protected and free to live their 
lives without fear of abduction, forced conversion and other 
gross abuses of their human rights, Egypt will not be strong, 
will not be stable or a successful democracy.
    I'd like to begin now with our first witness. We have--and 
we thank her for being here today--Dr. Katrina Lantos Swett, 
who is an expert on human rights. She received a B.A. in 
political science from Yale, her J.D. from the University of 
California Hastings College of Law, and her Ph.D. in history 
from the University of Southern Denmark. She has worked 
extensively with the U.S. Congress to advocate for human 
rights, particularly while serving as deputy counsel to the 
criminal justice subcommittee.
    She teaches human rights and American foreign policy at 
Tufts University, serves as the president and CEO of the Lantos 
Foundation for Human Rights and Justice--named after her very 
distinguished father, who we all deeply miss--and was recently 
elected as chair of the U.S. Commission for International 
Religious Freedom. Dr. Lantos Swett, welcome, and please 
proceed as you would like.

 DR. KATRINA LANTOS SWETT, CHAIR, UNITED STATES COMMISSION ON 
                INTERNATIONAL RELIGIOUS FREEDOM

    Dr. Swett. Thank you so much, Mr. Chairman. And I want to 
say before I go into my prepared remarks that you are one of 
the colleagues my father admired most. Literally one can't 
number the times that the two of you were in the trenches side 
by side battling on behalf of human rights for people in every 
corner of the world.
    And my father would often cite you to me and to others as 
an example of the way in which people who might be in very 
different places on some political issues could come together 
and have really no daylight between them on the most 
fundamental issues of human dignity and human rights. And so 
it's a real privilege and an honor for me to be here before you 
today. And thank you for the excellent work that you're doing.
    My testimony is going to focus more broadly on the 
challenges and threats to the Coptic community in Egypt and I 
know subsequently you'll be getting some very powerful 
testimony more specifically on the issue of abduction.
    Thank you for the opportunity to testify today before the 
Helsinki Commission on the topic of ``Escalating Violence 
Against Coptic Women and Girls: Will the New Egypt Be More 
Dangerous Than the Old?'' I have been asked today to give an 
overview about the general status of, and conditions for, 
religious freedom in Egypt, especially for Coptic Christians, 
and I request that my statement be entered into the record.
    Mr. Smith. Without objection, so ordered.
    Dr. Swett. Since its inception nearly 15 years ago, USCIRF 
has been deeply engaged on Egypt and for good reason. For our 
entire existence, and indeed, prior to our creation, religious 
freedom conditions, including those of Egypt's Coptic 
population, have been extremely problematic. This situation 
continues into the present and with the election of Mohammed 
Morsi, the first freely elected president of Egypt, on June 
30th. The Egyptian transitional government continues to engage 
in and tolerate systematic, ongoing and egregious violations of 
freedom of religious freedom.
    Discriminatory and repressive laws and policies remain that 
restrict freedom of thought, conscience and religion or belief. 
Given these concerns, and for the second year in a row, USCIRF 
recommended in its 2012 annual report, which I have here, by 
the way, and I'd be delighted to leave with you for the 
Commission--USCIRF recommended that Egypt be designated a 
country of particular concern, or CPC, under the 1998 
International Religious Freedom Act. I also request that 
USCIRF's 2012 annual report chapter on Egypt be entered into 
the record.
    Mr. Smith. Without objection.
    Dr. Swett. Thank you. From the evidence we have seen, the 
biggest problem faced by the Copts, who comprise 10 to 15 
percent of Egypt's 80 million people, continues to be one of 
impunity. Simply stated, for decades, Egypt's government has 
fostered a climate conducive to acts of violence against Copts 
and members of other minority communities. It has done so in at 
least two ways. First, Cairo's long history of restrictive laws 
and policies--from blasphemy codes to an emergency law to 
across-the-board discrimination--has drawn unwelcome attention 
to religious minorities, further marginalizing them and leading 
to violent words and deeds launched by intolerant individuals 
as well as by radical religious groups.
    Second, the government's continued failure to protect 
innocent people from these attacks and to convict those 
responsible has served to encourage further assaults. For 
years, President Mubarak's government tolerated widespread 
discrimination against religious minorities and disfavored 
religious groups, from dissident Sunni and Shia Muslims to 
Baha'is, as well as Copts and other Christians, while allowing 
state-controlled media and state-funded mosques to deliver 
incendiary messages against them. The consequences of the 
climate of impunity are especially apparent in Upper Egypt.
    After Mubarak's departure, a breakdown in security and a 
rise in sectarian violence made 2011 one of the worst years for 
Copts and other minorities. Last year alone, violent sectarian 
attacks killed approximately 100 people, surpassing the death 
toll of the previous 10 years combined. As during the Mubarak 
regime, Copts were the primary target, and most of the 
perpetrators still have not been brought to justice. 
Perpetrators have not been convicted or alleged perpetrators 
have been detained for short periods, but eventually released 
without charge. While USCIRF's 2012 annual report chapter on 
Egypt includes a list of some of the most tragic acts of 
violence committed against the Coptic Orthodox community, I do 
want to note the following significant incident, which you also 
referred to.
    Last October, Egypt's state media falsely accused Copts of 
attacking the military when Muslim and Christian protestors 
marched toward the state television station. Following the 
state media's call on civilians to counter this imaginary 
threat, on October 9th, in downtown Cairo, armed men attacked 
peaceful demonstrators, killing at least 26 of them, most of 
them Copts, while injuring over 300 more.
    Responding to the violence, Egypt's military used live 
ammunition and also deployed armored vehicles that deliberately 
crushed and killed at least 12 protestors. In addition, reports 
in recent years support claims that there were cases of Muslim 
men forcing Coptic Christian women to convert to Islam. The 
State Department has asserted that such cases are often 
disputed and include, quote, ``inflammatory allegations and 
categorical denials of kidnapping and rape.'' For example, 
there were credible cases in which Coptic girls did voluntarily 
convert to Islam to marry Muslim men, and subsequently, when 
the relationship failed, sought to return to Christianity, as 
is their right under international law. Nevertheless, during 
the reporting period, experts and human rights groups have 
found that there were also credible cases where Coptic 
Christian women were lured deceptively into marriages with 
Muslim men and forced to convert to Islam. According to these 
reports, if a woman returns or escapes from the marriage and 
wants to convert back to Christianity, she faces the same legal 
hurdles in changing her religious affiliation on official 
identity documents as discussed.
    In recent years, in response to sectarian violence, 
Egyptian authorities have conducted, quote, ``reconciliation 
sessions'' between Muslims and Christians as a way of easing 
tensions and resolving disputes. In some cases, authorities 
compelled victims to abandon their claims to any legal remedy. 
USCIRF has stated that reconciliation efforts should not be 
used to undermine enforcing the law and punishing perpetrators 
for wrongdoing. In recent years, the State Department concluded 
that reconciliation sessions not only, quote, ``prevented the 
prosecution of perpetrators of crimes against Copts and 
precluded their recourse to the judicial system for 
restitution,'' but also ``contributed to a climate of impunity 
that encouraged further assaults,'' and how ironic it is that 
something so benignly termed as a reconciliation process should 
be used actually to strip people of their legal rights and a 
means of vindicating those rights.
    For all Christian groups, government permission is required 
to build a new church or repair an existing one, and the 
approval process for church construction is time-consuming and 
inflexible. Former President Mubarak had the authority to 
approve applications for new construction of churches. Although 
most of these applications were submitted more than five years 
ago, the majority have not received a response. Even some 
permits that have been approved cannot, in fact, be acted upon 
because of interference by the state security services at both 
the local and national levels.
    In 2005, former President Mubarak devolved authority to 
approve the renovation and reconstruction of churches from the 
president to the country's governors. Several years later, some 
churches continue to face delays in the issuance of permits. 
Even in cases where approval to build or maintain churches has 
been granted, many Christians complain that local security 
services have prevented construction or repair, in some cases 
for many years.
    In addition, local security services have been accused of 
being complicit in inciting violence against some churches 
undergoing routine maintenance or repair. In recent years, the 
government repeatedly has pledged, most recently in October of 
2011, to adopt a new law that would apply to all places of 
worship.
    In June, after consulting with religious leaders and other 
experts, the SCAF released publicly a draft version of the law. 
The draft was criticized widely by Muslims, Christians and 
Egyptian human rights groups. While a subsequent version has 
not been made public, some reports have indicated that the 
revised draft law covers only churches and not other places of 
worship.
    Now, this is not to say there has been no progress since 
the end of the Mubarak regime. To be sure, we have seen some 
hopeful developments. Last year, the Grand Sheikh at al-Azhar 
began several initiatives expressing support for some aspects 
of freedom of religion or belief. In May of last year, the 
government began to reopen more than 50 churches that had been 
closed, in some cases for years.
    Last July, the Supreme Administrative Court ruled that 
reconverts to Christianity could obtain new national identity 
documents indicating their Christianity but not their former 
Muslim faith. And following the October violence, the 
transitional government took steps to reduce discrimination in 
Egypt's penal code.
    Yet despite this progress, the bottom line is this: Copts 
need to be protected, Copts aren't being protected and Copts 
must be protected, along with every other member of Egyptian 
society, from attacks on their right to order their lives and 
practice their beliefs in dignity and peace.
    As long as Copts and other religious minorities aren't 
being sufficiently protected, USCIRF will continue to spotlight 
the problem and recommend that the U.S. government take strong 
action in support of religious freedom. Our recommendations to 
the United States government are as follows.
    First, the United States should press Egypt to improve 
religious freedom conditions, by repealing discriminatory 
decrees against religious minorities, removing religion from 
official identity documents, abolishing the blasphemy codes and 
passing a unified law for the construction and repair of places 
of worship.
    Second, the United States should urge Egypt's government to 
prosecute government-funded clerics, government officials or 
any other individuals who incite violence, while disciplining 
or dismissing government-funded clerics who preach intolerance 
and hatred.
    Third, the United States should increase pressure on Egypt 
to bring to justice those who have committed violence against 
fellow Egyptians on account of their religion.
    Fourth, the U.S. Congress should require the departments of 
State and Defense to report every 90 days on the Egyptian 
government's progress pertaining to religious freedom and 
related rights.
    Fifth, until genuine progress occurs, USCIRF renews its 
call for the United States to designate Egypt a country of 
particular concern as one of the world's most serious religious 
freedom abusers.
    Sixth, if Egypt demonstrates a commitment to progress on 
freedom of religion and related rights, the United States 
should ensure that a portion of its military aid to Egypt is 
used to help Egypt's police implement a plan to enhance 
protection for religious minorities, their places of worship 
and places where they congregate.
    And finally, Washington should press Cairo to ensure that a 
new constitution has robust protections for the right to 
freedom of religion or belief consistent with international 
human rights law, including recognizing the universal right to 
the freedom of thought, conscience and religion or belief for 
every individual and every religious or belief community. 
Recognizing that each person's freedom to hold and to manifest 
any religion or belief or to not hold any religious belief 
should not be limited aside from the narrow exceptions 
delineated in international law.
    Three, affirming that the right to freedom of religion or 
belief includes the right to have, adopt or change one's 
religion or belief without coercion and to manifest it publicly 
as well as to persuade others to change their beliefs or 
affiliations voluntarily.
    Ensuring that the rights and benefits of citizenship are 
not limited to individuals belonging to particular religious 
communities and ensuring that all persons are equal before the 
law and are entitled to the equal protection of law regardless 
of religion or belief and that guaranteeing all persons equal 
and effective protection against discrimination on religious 
grounds.
    Today, as Egypt confronts the rigors of democratic 
transition, will it uphold the rights of Copts and other 
religious minorities? The world is watching, the Helsinki 
Commission is watching and USCIRF is watching, too. Thank you 
again for this opportunity to testify.
    Mr. Smith. Dr. Lantos Swett, thank you so very much for 
your very eloquent testimony and the large number of 
recommendations, insights that you and the Commission have 
provided and have done so for since the inception of the 
Commission, so thank you for it, especially as its chair, for 
taking your tremendous leadership.
    I do want to note we've been joined by Robert Aderholt--
Commissioner Aderholt--and I think it's worth nothing and 
celebrating that at the most recent OSCE parliamentary 
assembly, Mr. Aderholt was elected vice president of the OSCE 
PA. So congratulations to you.
    Dr. Swett. Congratulations. Thank you so much.
    Mr. Smith. And if I could just ask a couple of quick 
questions?
    Dr. Swett. Yes, of course.
    Mr. Smith. I know you're on a tight--just briefly about 
the--one of your recommendations is that the--Egypt ought to be 
designated as a country of particular concern. By way of 
historical reminder, Congressman Frank Wolf's bill, the 
International Religious Freedom Act, which was vigorously 
opposed by the State Department--John Shattuck, who was then 
the assistant secretary for democracy, labor and human rights, 
testified before my committee repeatedly against the bill.
    But one of the geniuses of that legislation was that it 
established this independent voice to speak truth to power 
without worrying about the problems that are associated when 
you talk to dictatorships or authoritarian regimes which often 
muzzles our voice as a country, especially on human rights 
issues, and religious freedom being at the top of that list. 
You're kind of like the GAO of----
    Dr. Swett. Exactly.
    Mr. Smith. ----religious freedom.
    Dr. Swett. I like that description.
    Mr. Smith. And you do a wonderful job.
    Dr. Swett. But we don't go on wild trips to Las Vegas, I'm 
happy to say. [Chuckles.]
    Mr. Smith. But you know, with regards to CPC, if you could 
maybe elaborate a bit on the frustration that the Commission 
has had with getting the administration to so designate--it's a 
two-step--first designate based on what the record is and then 
decide what if, if any, of the 18 prescribed remedies or 
penalties that can be meted out to a country--in this case 
Egypt--might be used. China has been on that list.
    Unfortunately, we rarely use any of those sanctions that 
are included. But it's important to first get the designation 
and then take the second step.
    What do we do with that designation?
    Secondly, if I could ask you with regards to--you know, you 
talked about the reconciliation sessions in your testimony. And 
while they sound benign and look like, you know, there's 
something good and wholesome about it, they also carry with it 
a very dangerous aspect where people who have created heinous 
crimes under pressure of a reconciliation session might be 
allowed to get away with it, whether it be rape or assault. And 
so, what kind of actions are often brought to these 
reconciliation sessions.
    And thirdly, if you could, I mentioned in my opening about 
how hard we worked--Mr. Aderholt, Mr. Wolf, Trent Franks, Kay 
Granger, who was the key person as chairwoman of the foreign 
ops appropriations committee--to put very specific language 
into the foreign ops bill for this year on religious freedom. 
It was opposed by the administration. As a matter of fact, it 
was very vigorously opposed. And yet, now it's been waived, 
just shunted aside as if religious freedom doesn't matter.
    And when statements are made about strategic partnership 
with Egypt to make it stronger as a democracy, religious 
freedom is the first human right. It's at the core of it. If we 
won't insist upon it, who will? So if you can speak to that 
very briefly.
    And then finally, for years when President Mubarak would 
come here, I and others would meet with him and I would bring 
up two issues every time--the gross abuse of his media to 
attack Israel and use caricatures and very, very horrible 
statements about--that were anti-Semitic, and the second was 
the attack on the Coptic Christian community and church.
    But as you point out, there has been a breakdown in 
security and a rise of sectarian violence that makes 2011 one 
of the worst years for Copts and other minorities. What would 
you recommend we do because, you know, we would get a pushback 
from Mubarak. He would say, talk to Boutros-Ghali where, who 
was always with him when these issues would come up. And we 
would give names. We would raise specific instances of violence 
against Coptic Christians, burning of churches and the like. 
But he at least was responsive to some. What kind of response 
are we getting? What would be your recommendation as to with 
the SCAF especially and with the president? Are we insisting on 
it with this administration? Are they insisting on religious 
freedom and protection of Copts?
    Dr. Swett. Well, thank you for those excellent questions 
and I'll try to address each of them in turn. First, as it 
relates to the CPC designation, we share your frustration. It 
was a stroke of genius, I believe, that USCIRF was created as 
an independent body because we have, if you will, the luxury of 
being able to have a 
single-minded focus on our mission which is the advancement and 
promotion of international religious freedom.
    And as such, you know, frankly we believe that we see this 
issue with greater clarity. The State Department is always in 
the process of weighing various interests. And we understand 
that that's a necessity given the magnitude of the issues that 
they have to deal with. And yet, it is our firm conviction 
that, as you have said so often and so eloquently, religious 
freedom is a threshold issue.
    And the implications--the broader implications for a 
society that fails to provide an environment of robust 
protection for tolerance, pluralism and religious freedom are 
very grave. The evidence is now out there and it's overwhelming 
that the positive correlations for societies that do provide 
this kind of religious freedom protection are phenomenal. They 
are more stable. They are more prosperous.
    They have--the women in those societies have infinitely 
higher status, infinitely better circumstances. They are more 
democratic. And of course, they are more peaceful. And so, this 
is really not a sidebar issue. I would also say that, as you 
know, Mr. Chairman, the conduct of a country needs to be 
egregious and persistent in order to qualify for that CPC 
designation. And we approach our monitoring function at USCIRF 
always in a sort of strictly factual way. You know, it's 
nothing but the facts, ma'am.
    We go in there looking at what are the facts on the ground, 
what are the actual circumstances and then we make our 
recommendations based on that. And so, you know, all I can say 
is that we will continue to forcefully advocate with the State 
Department that they take that next step vis-aa-vis Egypt. The 
facts, we believe, warrant it. The circumstances warrant it. 
And I think the evidence is the country doesn't want to be 
designated as a CPC with good reason. And so, you know, when a 
country is obviously against their wishes given this badge of 
certainly concern, of particular concern, it can serve as a 
motivation for them to actually get serious about addressing 
the issues. And as you point out, CPC designation is not an 
automatic trigger for any particular set of consequences. So 
that issue can be viewed sort of as part of a separate 
discussion, what are the appropriate sanctions. But we strongly 
feel that the CPC designation is warranted.
    We feel that it is an important tool to hold up for the 
world to see what the practices are of a country and it can be 
a tool for, you know, finally forcing a country to get serious 
about addressing some of these issues. You brought up the issue 
of the reconciliation sessions.
    You know, we have had now over the last several decades 
societies in which a truth and reconciliation process has 
played an enormously valuable role in trying to help societies 
that were riven and torn apart in the most profound ways by 
war, by apartheid, by, you know, decades of sort of saturated 
abuse in the society to find a way to move beyond that. And so, 
there are obviously circumstances in which that kind of a 
process is very, very appropriate. The situation I think we 
have in Egypt that is of concern is that you are really sort of 
seeing these reconciliation processes in some instances used 
not to try and sort of heal the deep societal-wide wounds but 
to bully victims into abandoning their pursuit of justice for 
very specific ills done against them by very specific 
perpetrators.
    And that's clearly a perversion and an abuse of a process 
and sort of putting a very attractive and appealing name on a 
process which we feel feeds into the culture of impunity. As 
you know, in my remarks I address that that's sort of the 
overarching problem, if we want to put a big tag on what we 
feel lies at the heart of religious freedom in Egypt. It's this 
impunity, this culture of impunity created by government 
policies and by government lack of vindication of the rights of 
their citizens.
    And so in that context, this reconciliation process is 
another piece of that impunity problem. You know, you mention 
the specific language that you had battled so hard to get into 
the foreign operations bill. And I don't, you know, know that I 
have huge insight to bring to bear on that. I do know that it 
is important from the perspective of USCIRF that whether it's 
the president, whether it's the State Department, we want to 
see more than inconsequential lip service to the issues of 
religious freedom.
    You know, nobody is going to stand up and speak out against 
religious freedom. And we can all go to the record and find, 
you know, well-meaning and moving words spoken. But there needs 
to be more than that. And there needs to be a prioritization of 
religious freedom. I don't need to tell you, you know better 
than I do, that religious freedom is really implicated in some 
of our nation's greatest challenges right now, including some 
of the national security threats that we face.
    Again, societies where robust religious freedom is a 
reality tend not to be societies where the sort of violent 
religious extremism takes root that can then visit our shores 
in the form of terrorism and can implicate our national 
security interests around the globe. So it's not a minor issue. 
It's not a nice sidebar topic that makes us all feel good and 
we can kind of, you know, smile and say nice words. This goes 
to the heart not only of American values but of American 
security in the world. And so in that sense, you know, we would 
obviously be advocating for our State Department and this 
administration and the Congress to ensure that religious 
freedom is central to the way we approach our dealings with 
foreign countries.
    And finally, you know, it's interesting the last issue you 
brought up were your meetings with Mubarak and how you would 
bring up two issues--the treatment of the Copts and the use of 
official media to spew out, you know, vitriolic and vile anti-
Semitism and Holocaust denial.
    Just earlier today--and I'm now going to momentarily put on 
a different hat. As you mentioned, I'm the president of the 
Lantos Foundation for Human Rights and Justice. And one of our 
first acts after establishing the foundation following my 
father's passing was the creation of the Lantos Archives on 
Anti-Semitism and Holocaust Denial, a collaborative project 
that we do with the Middle East Media Research Institute.
    And that archive documents on an annual basis the degree to 
which so much of the media, the preaching, the teaching, the 
public discourse in much of the Arabic world, the Muslim world, 
the Farsi-speaking world is saturated with a degree of overt 
and vitriolic and hateful anti-Semitism that I really think 
would make most people's hair stand on end if they were to be 
exposed to it. and part of what we try to do through the 
archives is bridge the language gap because when these examples 
take place in a language not easily understood, you know, it's 
easy for it to pass under the radar screen.
    And so, one of the goals of the Lantos Archives is bridge 
that language gap, bring to the attention of policymakers like 
you, the media, educators, thought leaders what's really going 
on because we do believe that shining a bright light on that is 
at least one step that we can take. But again, the quality of a 
culture--what is the language that is accepted, that is put 
forward, that is out there, what are the sorts of slurs against 
religious communities, against the Copts, against the Jews that 
are accepted as just part of the normal discourse.
    Unless we change the fundamental nature of what is 
acceptable in these countries around the world, we cannot get 
at some of the deep, deep, intransigent problems that need to 
be solved for, you know, the peace and stability of the whole 
world. And so, I commend you for raising these issues. I think 
we need to be more vigilant as ever as we see Egypt and other 
countries attempting to make a transition to more democratic 
rule.
    Democracy can have a big hole in the heart if it is not 
accompanied by rigorous, vigorous, constitutional protections 
for the sorts of fundamental human rights that we take so for 
granted in this country. And in that regard, I'll also mention 
that another initiative that USCIRF has been involved with is a 
study of constitutional reform processes and trying to, you 
know, provide some help and some insight to many of the 
countries in the Middle East that are now in the process of 
drafting new constitutions.
    And we know that those constitutions won't look exactly 
like ours, although unlike some people in public life I think 
our Constitution is not a bad example to hold up around the 
world. It's done a pretty good job for this great country for 
more than 200 years. But democracy must be accompanied by 
strong and honored constitutional protections for fundamental 
rights. Otherwise, democracy can easily degenerate into the 
most dangerous sort of mobocracy.
    Mr. Smith. Dr. Lantos Swett, thank you so very much. I 
yield to the good friend and colleague, Commissioner Aderholt.

 HON. ROBERT B. ADERHOLT, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Aderholt. Thank you, Mr. Chairman. And I'm going to 
have to slip out shortly. But I do have some questions I'd like 
to submit. I'd like unanimous consent to submit those for the 
record. Thank you for being here. Thank you for your testimony.
    Dr. Swett. Thank you.
    Mr. Aderholt. This issue regarding Coptics has been an 
issue that I've followed for over a decade now. One thing that 
I do want to--I would like to get your opinion on and just your 
thoughts--when it comes to the severity of the issue that we're 
here discussing today, what do you think are some of the key 
issues or perceptions that--so many in the international 
community from understanding really what the problem really is 
and why they have not acted more strongly on the issue?
    Dr. Swett. Specifically on the issue of religious freedom 
or--
    Mr. Aderholt. Or--and minority women, but just in general.
    Dr. Swett. Well, you know, I think that for many years 
there was sort of this notion that that world of religious 
belief and religious freedom related to kind of an older period 
in human history and that as we move forward into the modern 
world, some of those old, old notions of what's important fall 
away. And I think if recent world events have shown us 
anything, they have shown us how untrue that is.
    Societies that protect these fundamental rights of belief 
and conscience--and sometimes those take the form of religious 
beliefs but not always--sometimes that takes the form of the 
freedom not to believe. Societies that are vigorous in 
protecting people's ability to express their transcendent 
views, their views about that which is transcendent in life, in 
fact are the societies that are the best equipped to deal with 
the many challenges that we face.
    But I do think that you're right. There has been a certain 
resistance to embracing the advocacy of these issues other than 
in sort of a sidebar rhetorical sense. But as I say, you know, 
I'm really very encouraged by some of the new, you know, very 
concrete research and social science evidence that is coming 
forward to show the correlation and the interrelation between 
protecting some of these most fundamental rights and building 
successful, prosperous, stable, tolerant societies.
    And so, you know, we take some comfort from that and hope 
that as, in a way, science and faith and practice and tradition 
come together, there will be a more vigorous community out 
there ready to stand up in defense of these most fundamental 
rights. They cannot be ignored. They cannot be set aside. They 
cannot be dismissed as sort of relics of another era. They are 
at the heart of how we build a decent and a safe world going 
forward. And you know, that is certainly central to the mission 
of USCIRF and something that we're very passionate about.
    Mr. Aderholt. Thank you. And you know, just going back to 
the fact that a lot of people I think are not even sure 
exactly--it's not really focused on some of the human rights 
issue about what the Coptics are all about and how some of the 
issues that they have to deal with. So again, I apologize for 
having to slip out. But like I said, I do have some questions 
for the record I would like to submit. So thank you very much.
    Dr. Swett. Thank you for your question.
    Mr. Smith. Thank you very much, Commissioner Aderholt. And 
thank you, Dr. Lantos Swett, for your testimony, your insights 
and recommendations. And thank you.
    Dr. Swett. Thank you for having me and thank you for 
holding this very important hearing.
    Mr. Smith. I'd like to now welcome our second panel to the 
witness table, beginning first with Michele Clark, an adjunct 
professor at the George Washington University's Elliott School 
of International Affairs. She's an internationally renowned 
expert on human trafficking. Ms. Clark was appointed director 
of the Anti-Trafficking Assistance Unit at the OSCE in 2005 and 
developed the groundbreaking publication ``Working Papers on 
Combatting Trafficking in the OSCE Region.''
    She has received multiple awards and fellowships in 
recognition of her remarkable anti-trafficking work. And just 
several months ago was here before this Commission with some 
groundbreaking testimony, insights into the abduction of Coptic 
girls in Egypt, really laid out a challenge for us and 
especially for the executive branch. And I look forward to 
hearing what she has found since and she will explain that of 
course in her testimony.
    We'll then hear from Dr. Phares--Walid Phares--who is a 
professor at the National Defense University and he serves as 
an advisor to the Anti-Terrorism Caucus and co-secretary 
general for the Transatlantic Legislative Group on 
Counterterrorism. Now, Dr. Phares frequently testifies before 
the U.S. Congress, the European Parliament and the United 
Nations Security Council on matters pertaining to international 
security. In addition, he provides expertise for a variety of 
domestic and international media sources and has published 
several books, including his most recent, ``The Coming 
Revolution: Struggle for Freedom in the Middle East.''
    Then, our next witness, and we will just call her Anne, is 
a victim and needs to maintain anonymity for the safety of her 
family, who are still in Egypt. She is a Coptic Christian woman 
but recently obtained asylum here in the United States based on 
an attempted abduction that she endured while in Egypt. I would 
ask that each of you respect her privacy and not attempt to 
photograph her, even though she is behind us. We do have 
Capitol Police on hand to ensure that there are no 
disturbances. Her words will be translated by Carolyn Doss, who 
has been here before. And I thank her for that translation. If 
we could go first to Michele Clark and then to Dr. Phares?

      MICHELE CLARK, ADJUNCT PROFESSOR, ELLIOTT SCHOOL OF 
    INTERNATIONAL AFFAIRS, THE GEORGE WASHINGTON UNIVERSITY

    Ms. Clark. Thank you, Mr. Chairman. It's a real honor to be 
invited to testify once more. Thank you. It's an honor to be 
invited to testify once more on this most important issue of 
the disappearances, forced conversions and forced marriages of 
Coptic women and girls. I'd like to express my thanks to the 
Commission for holding this hearing and for launching our new 
report. It's a real honor that you've accorded us.
    I would also like to express my appreciation and my thanks 
to Dr. John Eibner of Christian Solidarity International for 
championing this issue and sponsoring the research and writing 
of the report. I would also like to express my thanks to my 
coauthor, Nadia Ghaly, for her invaluable collaboration. She's 
not able to be with us today. I have submitted written 
testimony along with the newly released report and would like 
these to be included in the permanent record of the hearings.
    Mr. Smith. Without objection, your full statement and that 
of Dr. Walid and all statements will be made a part of the 
record.
    Ms. Clark. Thank you. My introductory remarks will be 
brief, highlighting the principle conclusions and 
recommendations. But I'd also like to address some of the 
challenges raised by individuals and organizations who would 
seek to downplay the seriousness of the issue. First, a little 
bit of context and then the challenges. This report builds upon 
our previous work from 2009 in which we documented the 
disappearances of Coptic women and girl. Many were lured into 
false relationships through fraudulent means or forcible 
abductions.
    These women were coerced into converting to Islam and 
married to their abductors against their wills. Our report was 
based on interviews with women who had been abducted, the 
lawyers who represented them and family members of women who 
had not yet returned.
    But the report was greeted with some mixed response. We're 
grateful to you and to this Commission, which one year ago, as 
you mentioned, sponsored a hearing on this important topic to 
raise the visibility of violence against the Coptic women in 
Egypt. Other U.S. government bodies were not so receptive. In 
2010, the Office to Combat and Monitor Trafficking in Persons 
referenced our study in their annual report although referring 
to our findings as allegations.
    Findings of our current report were not referenced in the 
2012 TIP report. The 2010 Department of State's International 
Religious Freedom Report also refers to our work, once again 
using the word allegation.
    There have been some interesting traction in other areas. 
And for the first time, we're beginning to see stories in the 
mainstream media. In 2010, just before the Christmas holidays, 
the BBC aired a documentary film on attacks against Christian 
minorities in Europe, featuring a family whose daughter had 
been abducted. They based their research in large part on our 
first report. In July 2011, the New York Review of Books 
featured an article by journalist and writer Yasmin el-Rashdi 
referencing the disappearance of Coptic girls. And in October 
2011, the European Parliament issued a statement condemning 
violence against the Copts in Egypt and expressed particular 
concern about girls who have been kidnapped and forced to 
convert. So we're seeing a little bit of--a little bit of 
positive response.
    So why doesn't the issue have more traction? Mr. Aderholt 
asked a very important question. I'd like to talk about this 
just a little bit before I get into the finding of the reports. 
I've been, as you say, in the anti-trafficking world for a long 
time and there are many parallels. We know enough now from 
years of studying recruitment strategies of human traffickers 
that one main way of luring young women into an exploitative 
relationship is under the guise of a romantic partnership. We 
also know that if a marriage is forced, it sets up a 
controlling and coercive environment which can be nothing short 
of exploitative.
    Claims that all disappearances are the result of impulsive 
behavior reflect a deep and potentially dangerous 
misunderstanding of the use of force, fraud and coercion that 
are characteristics of the relationships between the young 
Coptic girls and their captors. Both my coauthor Nadia Ghaly 
and I recognize that not all disappearances are the results of 
abduction. Not all marriages are forced. But, and 
notwithstanding the ambiguity of many situations we 
encountered, we claim that it's not possible to dismiss each 
case in our 2009 report on the grounds that girls willingly 
left their families. We will contend the same thing for the 
report that we present to you today. These are not all cases of 
romance gone bad.
    So concerned with the escalating violence against Copts in 
Egypt and dissatisfied with the lack of response from the U.S. 
government, Christian Solidarity International commissioned a 
second report which we are launching here today.
    This new report substantiates our earlier findings. In 
addition, we have observed changes in trends and patterns which 
reinforce the premeditation of captors. The goal of this report 
is straightforward--to continue to support the claims of 
disappearances, abductions, forced conversions and forced 
marriages of Coptic women in Egypt and to continue to challenge 
the use of the term ``allegation'' in U.S. government reports.
    So how did we get our information? Well, the findings are 
based on several key factors. First of all, we interviewed four 
Egyptian lawyers who provided us access to claims filed on 
behalf of Coptic women who had disappeared as well as young 
women who had returned from a forced marriage and conversion 
and were attempting to regain their Christian identities. As 
we've already heard, the withholding of one's original religion 
is a repetitive pattern.
    We also interviewed representatives of civil society 
organizations. We spoke with family members of young women who 
have disappeared. Some of these individuals were represented by 
attorneys. Many cannot afford an attorney and therefore come 
themselves. We reviewed Internet sites reporting disappearances 
of Coptic girls but we considered only those cases with 
appropriate documentation, especially police reports. And we 
interviewed women who have returned from forced marriage and 
conversion.
    All of our interviews were conducted from November 16th 
through November 25th, 2011, in and around Cairo, Egypt. Only 
verifiable cases are included in our report. Each of these 
cases is verifiable through attorneys' files, personal 
interviews and police reports. The names of young women and 
their family members and other identifying details are not 
published to protect their identities.
    So what did we find that was a little bit different? We 
went in not quite knowing. We wanted to see if the political 
climate had changed anything. We wanted to see if the two years 
since our previous report had affected the situation in any 
way. We noticed some similarities and some marked differences.
    The first key finding is that the number of disappearances 
and abductions appear to be increasing. Each of the attorneys 
that we interviewed for this report indicated an increase in 
his caseload since January 2011. Four attorneys collectively 
reported a total of over 550 cases of abductions, 
disappearances and petitions to restore Christian identity 
following abductions, forced marriages and forced conversions 
over a five-year period. Furthermore, one attorney interviewed 
for this report indicates firsthand knowledge of over 1,600 
cases of Christians petitioning to have their conversions to 
Islam overturned in recent years. Sixty percent--over 900 
women--900 of these cases are women.
    Data collection, as in the trafficking world, remains a 
challenge. There is no systematic data repository within the 
Coptic community documenting the disappearances of young women. 
Priests or bishops keep records of activities within their 
churches and communities sometimes. Attorneys maintain their 
own caseloads. Activists maintain different websites but there 
is no cross-referencing with other data sources.
    Furthermore, families of victims don't report all cases. 
The police do not register all complaints filed by family 
members. In many cases, family members of missing young women 
reported that police would not file a report until a lawyer 
intervened. In other cases, families don't file reports because 
they don't believe the claims will be taken seriously or 
because they fear retribution by the authorities. Not all 
families are financially able to secure the services of an 
attorney, and while not a guarantee of result, at least the 
presence of an attorney enables the filing of a legitimate 
claim. We personally spoke to family members who would go to up 
to five or six different police stations before some police 
officer would finally agree to file a claim. These were 
dismissed for all of the reasons that we've mentioned above.
    We're also noting that fewer girls appear to be returning 
to their families. Our 2009 report focused on young women who 
had returned from forced marriages and conversion and were 
struggling to regain her Christian identities. They report 
instances of abuse and forced domestic servitude. One woman 
reported being prostituted by her captor. Since then, there has 
been a discernible change in the dynamics of the disappearances 
of young Coptic women. Attorneys handling such cases report 
that fewer women are being returned to their families. There is 
speculation that the young women might be trafficked overseas 
but attorneys and activists have not yet been able to document 
this finding and we recommend that this trend be followed more 
seriously.
    We note that increasingly social media is being used to 
inform families about their daughters' conversion. One mother 
we spoke to told us that after looking for over six months to 
find news of her daughter, she happened to stumble upon a 
videotape of her announcing her conversion on a website of new 
converts to Islam.
    Another deeply disturbing finding is that minors and 
mothers of young children are being targeted--are being 
increasingly targeted. In addition to disappearances of single 
young women over the age of 18, lawyers report an increase in 
the abductions of mothers with young children. While the age of 
consent to convert to a different religion is 18 in Egypt, 
there are increasing reports that children of mothers who are 
forced to convert are also subsequently registered as Muslim. 
Even if a mother returns to her community, the children are 
considered by law to be Muslim and will remain Muslim. So in 
forcibly converting one young woman, all of her children will 
be automatically considered Muslim as well.
    The disappearances are organized and planned. We've seen 
this before but we've received more corroborating evidence. 
Attorneys, social workers and members of the clergy interviewed 
for this and the previous report all attest to organized and 
systematic planning in the cases of missing Coptic women. 
Tactics to lure young women into relationships follow similar 
patterns. One lawyer interviewed for this report stated that 
the same man's name occurred in multiple police reports. He 
married five Christian women who subsequently were forced to 
convert to Islam. So he would marry one, take her away, go 
back, work on another, get her converted, go back, work on 
another and systematically pursue a number of forced 
conversions. Family members report that their daughters or 
sisters were befriended by a schoolmate, a neighbor or another 
mother--an older mother figure over time.
    Lawyers indicate that their clients benefitted materially. 
Frequently, family members were provided with new apartments or 
furniture, and unemployable young men were given jobs among the 
abductor families.
    Abductors target vulnerable women and girls, and girls in 
vulnerable and unprotected moments. The concluding observations 
of the U.N.'s Commission on the Elimination of all Forms of 
Discrimination against Women for Egypt expressed concern at the 
very limited information and statistics provided about 
vulnerable groups of women in Egypt. Certainly, Coptic women 
and girls are vulnerable in many ways. They are members of a 
religious minority. They come from closed, insular communities. 
Their minority status is the basis for legal and social 
discrimination.
    Captors sever contact between victims and their families. 
The first task of the captor is to come between a young woman 
and members of her family. They can do this by force, by taking 
away her phone, by denying her any contact with her relatives. 
They lock her up. They deny her mobility. They threaten her, 
telling her that if she runs away, her family will never accept 
her, that they will punish her, that they will put her in a 
monastery.
    Eventually a young woman is brainwashed and believes that 
she will be safe only with her Muslim captor. Ultimately, she 
will be truly safe only if she converts to Islam. There is no 
obligation for a Christian woman who marries a Muslim man to 
convert to Islam. So many attorneys claim that this conversion 
is the ultimate goal of captivity.
    Captors make use of measures involving force, fraud and 
coercion. A young woman consents to a glass of sugarcane juice 
and the attention of a man whose words promise a life of love, 
ease and provision. Another woman shares a drink of water with 
a woman--with another mother who is also waiting for children 
after school. A third seeks friendship and escape from a harsh 
and sometimes abusive home environment.
    Victims who have not literally been abducted nevertheless 
did not consent to being ripped from their family without ever 
seeing them again. They did not consent to being forcibly 
converted to a religion other than their own. They do not 
consent to a life of captivity within one small apartment, 
every outing supervised by a member of her new husband's 
family. They said yes to the things that young women say yes 
to. They say yes to friendship, to romance, to hope, a future, 
safety and security. It is reasonable to accept that most young 
women would respond in precisely the same way as many Coptic 
girls responded to these offers of friendship and romance which 
proved to be highly destructive of their own lives.
    Now, about our recommendations, in developing these 
recommendations for this report, we consulted with attorneys 
and civil society actors in Egypt in order to assess what 
government actions might support their efforts to protect 
Coptic women from falling into captivity and, as a result, into 
forced marriages and conversions. There was considerable 
consensus among those that we spoke to.
    First, they would request that local police stations will 
take seriously and file all reports on all claims of 
disappearance of Coptic women and girls and that all claims 
will be investigated and family members kept appraised of the 
progress of each of these cases.
    The Egyptian national government will request an annual 
accounting of all cases of disappearances including open and 
ongoing cases as well as any prosecutions that resulted from 
these local investigations.
    The Egyptian government will create a registry to document 
the disappearance of minors. Children of parents who convert 
will retain the religion of their birth until they are 18 years 
old. Laws which penalize discrimination based on religion in 
the areas of education, employment and the media will be 
enacted.
    To the Coptic Church, the activists would like to suggest 
that the church maintain a central registry documenting 
instances of disappearance, abductions and forced marriages and 
conversions that is laid out according to a rigorous 
methodology which can document the instances without 
sensationalism.
    The Coptic community will educate families and young women 
on the recruitment and deception patterns that lead to 
captivity. And for the international community, the 
recommendations are that a legal defense fund will be created 
to enable Coptic families to secure the presence of an 
attorney, which as we indicated is frequently the only way to 
get a case legally registered as a disappearance. International 
or national agencies assessing the situation of Coptic women in 
Egypt will recognize that coercion and fraud are represented in 
most cases of disappearance, forced marriages and forced 
conversion, all of which obviate the consent of the victim.
    And finally, my last--the recommendation that ended my last 
testimony to you, Mr. Chairman, that international 
organizations and our government will recognize both the scope 
and the scale of the problem and no longer refer to such cases 
as allegations. I don't think that anyone will refer to the 
witness who we'll hear later as an allegation.
    Mr. Chairman, and members of the Commission, I thank you 
for your time and interest in this very important matter. I 
look forward to answering your questions.
    Mr. Smith. Ms. Clark, thank you so very much for your 
incisive testimony, for undertaking this extraordinary human 
rights project, to report, to investigate and for doing it 
yourself. So thank you so much for the bravery that that surely 
exhibits. Dr. Phares, please proceed.

   DR. WALID PHARES, CO-SECRETARY GENERAL, THE TRANSATLANTIC 
             LEGISLATIVE GROUP ON COUNTERTERRORISM

    Dr. Phares. Thank you. Mr. Chairman, members of the 
Commission, I would like to thank you very much for extending 
this invitation to me to address this very dramatic issue of 
persecution and of abduction of girls and women in the Coptic 
community in Egypt. I have titled my paper, my presentation as 
``The Strategy of Subduing a Community by Terrorizing its 
Women.'' And thank you, Mr. Chairman, for including the full 
text of my testimony in the records. What I would like to do 
for the sake of time is to summarize the following.
    First, from a strategic perspective, what are the findings 
of our colleagues. This year and last year in this body, in 
Congress and also in the European Parliament, if I may, have 
been telling us what are the major points that we can respond 
to. From there, I'd like to ask five questions and answer them. 
That would allow the Commission and therefore members of 
Congress and our government in general terms to respond to the 
challenge.
    The violence against Coptic women in Egypt, as many experts 
have already testified before this prestigious forum over the 
past few years, and last year in particular, these acts of 
violence against Egyptian Coptic women both individually and 
collectively have been unrelenting, repetitive and directed 
almost exclusively at young, single women and who are at the 
age of marriage or just about.
    This violence, which is described in several reports 
already submitted to your Commission, to the Congress in 
general, to other legislative bodies around the world, have--
can be summarized as follows.
    A, the attacks have been ongoing for more than three 
decades, with peaks in some years.
    B, the victims have primarily been young Christian women.
    C, Egyptian security and judicial authorities have not 
helped in general terms the families of these girls and have 
not actually conducted an investigation, a thorough national 
investigation of who is that network in Egypt that basically 
has been perpetrating those attacks for the last five years at 
least documented.
    D, an overwhelming majority of the kidnappings and violence 
have been carried out by individuals and groups who claim to be 
acting on their ideology, on behalf of their ideology, a 
doctrine, a set of fundamental beliefs known as Salafism or 
Jihadism which they claim is the strict implementation of 
sharia laws.
    E, an overwhelming majority of these crimes have been 
dismissed by government security and justice institutions, and 
the radical factions have been protecting many of these 
perpetrators, assigning essentially blame to the female victims 
and their families.
    F, violence against young Christian women in Egypt has 
continued after the downfall of the previous regime, and 
formation of the current alternative government and its 
institutions.
    These findings, Mr. Chairman, prompt the following 
questions, five of them.
    One, have the attacks been widespread and consistent over 
time, so that we can deal with the argument of this is just a 
reaction to a love affair or a social situation gone bad? Is 
the history of these attacks reflective of the legal and 
security status of the Coptic Christian community at large?
    Two, is the violence committed by an organized movement or 
by individuals who claim to be acting on behalf of an 
ideological movement?
    Three, does the attitude of government security, judicial 
and political institutions reflect cooperation with the 
attackers, or just neglect for the protection of a segment of 
Egyptian society?
    Four, what are the consequences of the continuous attacks 
against Coptic females, and thus the Coptic community, despite 
the regime change of government change and rise of new 
institutions in Egypt, which I feel is a key element in our 
discussion today.
    And five, what can and should the United States government, 
specifically the administration, do to put an end to these 
violent practices against the women of the Christian Coptic 
community?
    Answering those questions or attempting to do so will equip 
members of the Commission and thus of Congress with the 
perspective needed to understand the exact nature of the crisis 
and make informed recommendations regarding possible new 
legislation and alternative policies for adoption by the 
executive branch.
    Point number one, the nature of these attacks--according to 
prior research submitted to your Commission and to other 
congressional committees, targeted attacks against Coptic 
Christian women are not unrelated and isolated acts of 
violence.
    On the contrary, kidnapping and forcing captive women to 
convert to Islam has been documented for decades, revealing 
hundreds of victims each year. Research and Coptic sources 
claim that violence against Coptic women has been practiced 
since even before the rise of modern Egypt. But current 
research is confirming that this abuse was documented for at 
least the last half a decade, or decade, especially in the last 
five or three years. Therefore, the first characteristic of the 
crisis is its longstanding history.
    This means that any solution to the problem must address 
its historical roots and scope of the violence. This violence 
against Coptic females took place before and after the Arab 
Spring, before and after 9/11, before and after the end of the 
Cold War and before and after World War II. We are dealing with 
a threat that has the dimension of an attitude by either a 
movement or an ideology with regard to the Coptic community.
    Now, with regard to the perpetrators, while research over 
the past five years, I must admit, has not revealed a well-
designed structure that openly and officially takes 
responsibility for these attacks against Coptic Christian 
women, it has shown, however, patterns and statements that 
indicate the existence of a movement that hails from a well-
publicized ideology, namely, Salafist, namely Islamist 
fundamentalists, or also known as Jihadism.
    In almost all cases, Mr. Chairman, the kidnappers argued 
that their actions were legitimized and inspired by Salafist 
and jihadist principles. One central tenet that most of my 
colleagues have mentioned already this year and last year, one 
central tenet of those principles is that individuals--in this 
case, females--who convert from Christianity to Islam cannot 
revert back to their original religion, must accept their, 
quote, unquote, ``forced marriages,'' and in some cases, 
families of the victims were asked to pay a tribute to recover 
their daughters.
    The reference to jihadist views, applicable to Christian 
Copts in general and women and girls in particular, shows that 
the acts perpetrated against them and their communities are 
ideologically and politically motivated.
    Government failure and collaboration--we also detected that 
based on reports by human rights groups as well as the Coptic 
community and liberal Egyptian NGOs, that local Egyptian police 
and security forces, national security agencies, including the 
now-gone state security agency Amn al-Dawla, are or were either 
covering up the attacks, or protecting the perpetrators.
    Therefore, when we look at the historical timeline of 
security collaboration with the perpetrators or, at a minimum, 
non-support of the victims and their families, this coincides 
as well with the timeline of similar aggressive behavior 
against the community as a whole. Coptic activists and NGOs--
including the Washington, D.C.-based Coptic Solidarity 
International--have accused Egyptian security services under 
the Mubarak regime of using Salafists to conduct attacks 
against Coptic targets to maintain the community under the 
protection of the government.
    Coptic and liberal Egyptian NGOs have argued that the new 
security agencies formed after the collapse of the Mubarak 
regime, after the latest legislative elections, continue to 
allow these practices or help the perpetrators.
    Consequences of attacks against Coptic women, which I 
consider one of the most important key analyses in our 
discussion--if the aggression targeting Christian Coptic women 
continues and widens, without a determined and aggressive 
intervention by the Egyptian government to put an end to this 
practice, there will be serious consequences on Egyptian 
Christian women, their own communities--Christian Coptic 
community--but also on Egyptian women in general, leading to a 
weakening of civil society and a dramatic setback to freedom, 
to human rights and democracy in Egypt.
    The chief consequence of unchecked aggressions against 
Coptic women and the terror--is basically the terror it is 
instilling in the hearts of Christian women who count for at 
least half of the 15 or so million Christian Copts in Egypt. 
The hundreds of repetitive attacks against Coptic women send a 
clear signal to millions of young women in Egypt who feel 
targeted by the jihadists and Salafists, compelling them to 
limit their movement, to narrow their social circles and to 
separate them from Muslim communities.
    So violence against Coptic women leads to a de facto gender 
apartheid in Egypt, where Christian women will be increasingly 
deterred from finding jobs, from expressing their opinion, from 
wearing their own preferred outfits and circulating in public 
spaces.
    The effects on Coptic women will also extend to the entire 
Christian community as half of its members are increasingly 
intimidated by acts of violence committed on hundreds of young 
women. When one segment of community is terrorized, it 
reverberates throughout their families and communities, forcing 
the collective into mental ghettos and therefore emigration.
    Rape, abduction and forced conversion are among the root 
causes of a general sentiment among Copts that pushes thousands 
of them to flee the country--the country of their ancestors. 
Outside the community, the attacks against Coptic Christian 
women and their results will bring other consequences, Mr. 
Chairman, to bear on secular Egyptian women in general, meaning 
Muslim secular Egyptian women in general, both liberal and 
conservative.
    By failing to protect its Coptic citizens, the Egyptian 
government will be perceived as incapable of protecting other 
segments of the population also targeted by the Salafists and 
the jihadists.
    Muslim liberal and secular women, who already fear the 
strict implementation and enforcement of the jihadi-viewed 
sharia law, will be under increased pressures by the most 
extreme elements of the Islamist movement to wear the hijab and 
later, the full niqab. The attacks on defenseless Coptic women 
are a mere prelude to a wider campaign to impose its 
ideological agenda, clearly seen in the Salafist movement as 
early as 2011.
    The role of the U.S. government, finally--the United States 
government has an international responsibility in addressing 
the situation in the same way our U.S. foreign policy has 
addressed mass scale abuse of human rights around the globe for 
the last 20 to 30 years. We recommend for the Helsinki 
Commission to adopt the following steps as a way to help 
protect Coptic women and girls in Egypt from abuse, and defend 
their universal rights.
    One, reaffirm the conditions on global U.S. foreign aid to 
Egypt, despite all the debate that has been taking place in 
Washington about it, of a constitutional provision announced by 
the drafters of the new Egyptian constitution, that the 
practices of abducting, torturing and forcing conversions on 
Coptic women or any element of society is a terrorist act which 
is punishable by law. This is not an infringement of their 
liberties. It is a terrorist act. Kidnapping in Colombia is a 
terrorist act. Kidnapping in any part of the world is a 
terrorist act.
    Two, make a congressional declaration that crimes against 
Coptic women inspired by extremist ideologies targeting 
communities will be considered crimes against humanity 
punishable under international law. There are no differences 
between rape and aggression against women in Egypt and what 
happened in Yugoslavia or in Bosnia or in Kosovo.
    Three, partner with Coptic and civil society NGOs, 
extending financial support directly to these entities as part 
of the global U.S. aid to Egypt. If you want to send foreign 
aid to Egypt, if you want to send hundreds of millions of 
dollars, we also need to earmark part of that air to the NGOs 
that are representative of the weakest elements of the Egyptian 
society, that will be women and minorities.
    Four, ensure that the educational and informational system 
in Egypt, particularly state-supported institutions, which we 
are funding, by the way, isn't used to propagate the ideology 
or precepts used by the perpetrators of the attacks as a way to 
legitimize violence and discrimination against Coptic women and 
encourage acts of violence against them.
    Mr. Chairman, what happened in the classroom in Egypt is 
the beginning of the process of the development of a radical 
educational and also cultural policy that ends up convincing 
the perpetrators that what they are doing is the right thing to 
do. So we need to also be sure that educational and 
informational systems in Egypt are reformed--are adapted to 
international standards of human rights.
    And lastly, number five is to conduct an international 
investigation. It would be U.S.-led, and I'm sure that the 
European government would be very interested in joining. But an 
international investigation of this mass abuse of human rights 
that is targeting a segment of an Egyptian society, because we 
cannot rely on the Egyptian justice system at this point in 
time. We could help that justice system. We could equip them 
with advisers. We could begin by sending a commission to Egypt 
to begin that investigation.
    I would end by saying that the current situation in Egypt 
presents us with a historic opportunity. Now that elections 
have taken place, now that a president has been elected, it is 
very important to our administration, to our executive power to 
engage in a discussion--in an open discussion, not in a 
discreet discussion.
    The perpetrators in Egypt must know from the media, from 
public discussion that our officials are demanding from the 
president of Egypt, are demanding from the future elected or 
the current parliament that these issues would be at the table, 
that the constitutional committee that is looking at the future 
constitution will take consideration of these elements. Thank 
you, Mr. Chairman. Thank you, members.
    Mr. Smith. Dr. Phares, thank you very much for your 
extensive testimony and your leadership for so long on these 
issues. I'd like to now ask a woman who has been victimized by 
abduction--as I indicated earlier, recently got asylum here in 
the United States. And as we all know, getting asylum is no 
easy business. There needs to be proof. An administrative law 
judge needs to be convinced. There is a whole process that 
needs to be followed. Her information seems to be absolutely 
credible. So we welcome her to the Commission and ask her if 
she would now proceed.

 ``ANNE,'' A COPTIC CHRISTIAN FROM EGYPT AND ATTEMPTED KIDNAP 
                             VICTIM

    Ms. Anne. [Via interpreter.] I am a Coptic Christian from 
Egypt, from Alexandria, and on January 5th, 2011, I was at my 
mother's and it was about 7 p.m. at night. I had left my 
mother's home and I was carrying my daughter because she was 
asleep.
    I was getting onto a microbus and when I had taken the 
first step, I felt myself falling backwards onto my back. I 
didn't know what was going on. All I felt was that someone was 
picking me up off the ground. I was asking him, what do you 
want, what are you doing. And he said, you're coming with me. 
You're going to get into this taxi. I didn't know what to do. I 
was just trying to hold on to my daughter because I was afraid 
she would fall. I was screaming. I didn't know what he wanted. 
I had no idea why he was doing this.
    People started to look and wondering what was happening and 
he just started yelling, this is no one's concern, she's an 
enemy of Islam, this is no one's concern, she's an enemy of 
Islam. I didn't know what to do. He was dragging me and people 
were just watching. And then he got me to the taxi. He kept 
trying to shove me into the taxi by holding me from the back of 
my head. I kept trying to resist and push back but he just kept 
trying to shove me into the taxi by holding me from the back of 
the neck.
    As he was trying to shove me into the car, my daughter's 
eye hit the corner of the door of the taxi. I didn't know what 
to do. She was screaming. I didn't know how to fight back. I 
wasn't sure what I should do. Suddenly, the guard from my 
mother's building started hitting him and he pulled me away 
from him. The guy jumped into the taxi. There was a driver in 
there and they drove away. The man who helped me was only 
concerned about helping me and taking care of me.
    He took me back to the home. I was crying. I couldn't 
process what had just happened. I couldn't understand why did 
this happen, what just happened to me. My daughter was crying. 
I looked and I noticed that her eye was red and it started to 
swell. The man who saved me hit the intercom button and called 
my parents down. My parents came down and saw me in a 
hysterical state. He called my husband and told him to come 
immediately. He came and he took us both to the hospital. When 
we got to the emergency room, they told us not to worry. It was 
just a superficial injury and they gave us some medication to 
treat the injury and then we started home.
    On the way home, I started to feel terrible pain. I was in 
my second month of pregnancy and I started to feel like I was 
bleeding. My mother contacted the doctor and he told her to 
have me come to the clinic immediately. My mother took my 
daughter home and my father, my husband and I went directly to 
the clinic. The doctor there informed me that I had miscarried 
and I had to perform a procedure to remove the baby.
    They performed the procedure for me and after that I 
returned home with my father and my husband. I was in a very 
bad emotional state as was my daughter. I was terrified. I was 
terrified from everything. I was afraid to leave the house. I 
was even afraid to hear the doorbell ring. I kept asking myself 
what if this man hadn't saved me, where would I be now, what 
would have happened to my daughter.
    Until today, when I think about it, I thank God that I was 
saved. But then I wonder about the others that weren't saved, 
what happened to them. I try and imagine what about those 
people, what about the others, the other victims. I'm here 
today so I can tell you what happened to me. I try and imagine 
and think what would--where would I be, where would my daughter 
be, would I ever have seen my husband again, my family again.
    We live in Egypt and we experience a lot of persecution. 
But we try and live with it. But the deaths and the 
kidnappings, that is too difficult to bear. For a child to live 
without a mother or a mother to live without her child, what 
did they do, what did they do to deserve this. What would have 
happened to my father? What would have happened to my husband? 
They take women because they know the shame that it will bring 
to the family. How can they survive? Thank you.
    Mr. Smith. Thank you very much for bravely coming here and 
telling us of what is an absolutely gut-wrenching and terrible 
experience. And I think you help to bring for all of us what it 
was like to be in the beginning stages of an abduction. We know 
others who have been abducted for long periods of time. Michele 
Clark has spoken often about that, especially in previous 
testimonies. So thank you so much for your courageous witness 
before this Commission today.
    I would like to ask a few questions of our witnesses, 
beginning first with Dr. Phares. The name of your testimony, 
the headline, the title of ``The Strategy of Subduing a 
Community by Terrorizing its Women,''--we just heard a 
terrorized woman talk about how being a victim has the 
potential of bringing shame to herself and to the family which 
I think is precisely and the absolutely wrong way of looking at 
it.
    But be that as it may, I would argue, and I know you would 
agree, that this kind of terrible targeting of women, 
terrorizing women brings shame not only to those who engage in 
this barbaric behavior but also those who enable it by 
indifference, by their silence, by their looking askance, 
looking the other way.
    And I want to ask you--and I mean this very sincerely and I 
hope if you have information, we will write--I will write a 
letter asking if this was brought up. Before I get to that, 
after our first hearing, when Michele Clark testified and told 
us it is no longer a case of saying these are allegations but 
these are facts on the ground that women are being abducted, 
they are being forced into marriages, they are being abused. 
This is a despicable treatment of women. And it's not just an 
allegation. It needs to be really combatted. And it needs more 
chronicling.
    Certainly the United States government has the 
capabilities, the wherewithal and the knowledge as to how to do 
it. In direct response to that testimony, Congressman Frank 
Wolf put your statements, Ms. Clark, in the hands of Anne 
Patterson, who was actually meeting with him right upstairs in 
this office--his office. And I put it in the hands of Michael 
Posner, the assistant secretary for democracy, human rights and 
labor.
    I would ask you, if you could, do you have any knowledge as 
to whether or not Assistant Secretary Michael Posner has done 
anything with this damaging information? I would point out for 
the record so there's absolute clarity on this, when we had a 
phone videoconference with Anne Patterson, I asked her directly 
with others sitting there listening as to whether or not she 
had acted upon this terrible human right abuse being meted out 
on women in Egypt and whether or not, you know, we had deployed 
Foreign Service officers, the human rights person in the 
embassy to follow-up and to look into this and do their own 
report.
    You have gone to Egypt, Ms. Clark. You took time out of 
your schedule to do this. We have people on the ground who are 
eminently capable and knowledgeable and know how to do this 
kind of reporting. And Ms. Patterson told me-- Ambassador 
Patterson--no, she had not gotten around to it. And we had a 
very spirited exchange. I asked her to do it. To date, I know 
of no investigation undertaken by the U.S. embassy in Cairo.
    Added to that, we just had our Secretary of State Hillary 
Rodham Clinton meet with the president of Egypt, and I'm 
wondering if any of you could tell us or if we have any reason 
to believe that the Secretary of State has raised this issue 
anywhere and at any time and specifically has she raised it 
with the SCAF and/or--not and/or, but and has she raised it 
with the president of Egypt. Do you have any information?
    Ms. Clark. Thank you, Mr. Chairman. I read the transcript 
of the hearing in which you spoke to Secretary Posner. I was 
not able to be at that hearing on November 16th of last year 
because I was actually getting on a plane going to Egypt that 
very afternoon. So I remember the date. What I can say is that 
no one from his office has contacted me to find out or the 
coauthor of this report, to find out information about our 
cases.
    The cases have been disputed. The cases--people have gone 
publicly on record saying that no one has been able to 
substantiate these cases, that they are inflammatory--they 
contain inflammatory allegations but without substantiation. 
The only way they could be substantiated is by asking me who's 
involved because the identities have not been published and no 
one has approached me from Secretary Posner's office to ask me 
about follow-up on the report.
    Dr. Phares. Mr. Chairman, I would like first of all to take 
the opportunity to thank you for what you do for the community 
and for engaging the community not just in inviting witnesses 
to testify in front of this prestigious committee but actually 
for yourself, for the second or third year to go to the 
community, to their leadership and engaging them, sitting with 
them for hours and hours.
    And yourself acting as an investigator of the human rights 
abuses of the community, that is the example that we in the 
world of NGOs would like to see you and your colleagues and 
also the State Department and the administration engaging in.
    And the term engagement has been used by the administration 
for the last four years repetitively. But unfortunately, among 
the recipients of the engage, we didn't see a representative of 
the Copts. We saw many delegations from the Muslim Brotherhood, 
before and after the Arab Spring. We are now seeing possibly 
Salafist delegations heading to the State Department or to the 
embassy or maybe beyond that.
    But we haven't seen delegations from the Coptic leadership 
going or being invited actually to our administration and being 
asked about that issue. My esteemed colleague mentioned the 
issue of alleged. I mean, in international law, if one incident 
is alleged, if 20 incidents are alleged, if 500 incidents over 
five years are alleged, then what is alleged at the end of the 
day?
    To answer you more specifically your question about do we 
know about any discussions that took place between the 
secretary and the president of Egypt, well, what we have are 
open resources and open sources and also the responses from the 
NGO--the Coptic NGO. The issue of the Coptic community as 
such--and I would like to mention--take advantage also of my 
time to mention the direction of the narrative of the 
administration, which is very important. And that could help 
the narrative of Congress.
    When we talk about religious freedom, we put all our 
efforts to make sure that religious freedom basically is the 
freedom of the religious community. It's not just to go to 
church on Sunday. It is not that hour and a half or three hours 
from home to church and back. Unfortunately, the narrative that 
we've heard over the past three years, and significantly this 
year, is that religious freedom is now being perceived by the 
executive branch as freedom to practice faith individually.
    That is not religious freedom because you may well go to 
church while the entire community is suppressed or driven to 
jails or even outside the country. What needs to be done is a 
re-discussion, first in Congress and then in dialogue with the 
administration, that the Coptic community has to be recognized 
as a community.
    These are not just individual Egyptians who happen to be 
Christian who are struggling to go, you know, every Sunday and 
pray at church, which means that this community basically has 
to be received, has to be basically recognized in the same way 
we see representatives from the Kurds of Iraq or from the 
people from Darfur or from the Palestinians, for that matter, 
or even from East Timor. This is a community that has rights. 
It happened that it is Christian.
    In Bosnia, they were Muslims. In other places, they are 
parts of different religion. So unless we see a change in the 
narrative of the administration that would recognize the Copts 
as a community, that would start to receive them at the highest 
level of our government as such and listen to their issues, I 
don't think that there is a recognition of the problem that 
exists as a collective problem in Egypt unfortunately.
    Ms. Clark. Thank you, and I'd like to really support what 
my colleague has said. In the early says of the anti-
trafficking community, as you know so well, the State 
Department required a minimum number of cases. A country would 
be put on the TIP report only if a minimum number of cases were 
proven. That makes sense. You don't want to issue a scathing 
report based on allegations. These were provided. Countries 
were rated. I know this because I was involved in designing 
several of the methodologies used to count these numbers. What 
are we waiting for in this particular area? How many more young 
women will it take who come and say they endured a miscarriage 
because they were wrenched into a bus with their baby whose eye 
is wounded next to a car holding onto the mother.
    The instances of Copts seeking asylum since the collapse of 
the Mubarak regime has escalated, including a large number of 
women on these same claims. So we're seeing one aspect of our 
government that is recognizing the truth of these instances. 
Our immigration courts are saying yes, that you were almost 
abducted, that you returned from an abducted situation, that 
you fear abduction. These are reasons for granting asylum.
    I think it's time to create a bit of harmony in our policy 
in this area. I was a witness myself in a federal immigration 
hearing a year ago for asylum on the basis of fear of abduction 
and that in that case it was also awarded. So enough is enough, 
really. How many more times do we have to sit here and bring 
voices and bring stories and talk about parents who agonize? 
They have imagined--as a parent, your daughter doesn't come 
home from work, you don't see her for two months, three months, 
nine months. You hear nothing and maybe if you're lucky you'll 
then hear her--you'll see her face covered in a veil announcing 
her conversion in muffled terms on a YouTube video. But worse, 
maybe you'll hear nothing, absolutely nothing.
    The silence now, the abductions, the disappearance followed 
by nothing is so disturbing because something is happening to 
those young women. They haven't been raptured. They haven't 
disappeared into thin air. Something has happened to them. 
What? We need to find out. We need to require an accounting. We 
need to find out how many there are and we need to start 
investigating what is happening to these disappeared women.
    Mr. Smith. I should make a note for the record at this 
point we had invited Assistant Secretary Jeffrey Feltman from 
the administration to come here to take questions and to give 
testimony, of course. But apparently, they chose not to come.
    I would say for the record as well, we will reissue the 
request and that would include Assistant Secretary Michael 
Posner to come and give an accounting. It's not like--and 
especially the women who are being victimized--are being 
impatient. This information was physically--I actually put it 
into his hands. It wasn't sent by courier or anything else and 
we still have had no response, which I find appalling. If not 
the United States, then who?
    Thankfully the European Parliament has shown even more 
interest than the United States government has and I think 
that's unfortunate. We should have both be equally interested 
when women are being exploited and abused in such a horrific 
way. You noted, Ms. Clark, in your statement that the number of 
disappearances and abductions appear to be increasing.
    And just four attorneys, as you pointed out, collectively a 
total of 550 cases of abductions, disappearances and petitions 
to restore Christian identify following abductions, forced 
marriages and forced conversions over a five-year period--four 
lawyers and I'm sure there are hundreds, if not thousands of 
lawyers, but certainly hundreds who would have vital knowledge 
of this issue. Do you have any sense yet as to the scope of 
this grotesque human rights abuse?
    And secondly, with regards to this, where is the U.N.? You 
know, Egypt is a signatory since 1982 of the International 
Covenant for Civil and Political Rights. Article VIII of that 
makes it very clear--it forbids slavery and servitude. Forced 
marriage certainly falls under the rubric of that. So my 
question would be, you know, where--you know, there was a 
periodic review back in I think it was 2010. But at any time, 
any country can bring--and we are members in good standing of 
the Human Rights Council--can bring an action before the Human 
Rights Council to engage in debate and investigation. To the 
best of my knowledge, the United States has said nothing. I'm 
not sure if the European members who are part of that 
Commission have said anything. But it would seem to me that 
would be an avenue to raise this--again, this grotesque 
violation of women's rights in Egypt which is the equivalent of 
rape. When you abduct someone, force them into a marriage, by 
any other definition that is rape. And why have we been so 
silent? If you can speak to that issue and those couple of 
questions?
    Ms. Clark. Thank you, Mr. Smith. There is an increasing--
the challenges I mentioned in my testimony of data collection 
are manifold for two reasons. The authorities are most of the 
time unwilling to file a disappearance report. If a Coptic 
father or relative goes to a police station in the district 
where just after a daughter disappeared or was abducted, many, 
many times that parent gets--or family members gets a 
runaround--well, they're here or well, we don't know, maybe 
she's just run away again, why are you reporting her, she 
probably went off with her boyfriend. And so, often the only 
way a Coptic family can file a case of disappearance of 
abduction is if they have a lawyer. Many--because many of the 
disappearance and abductions take place in rural communities or 
communities where individuals have less disposable income, they 
can't afford a lawyer. And many of the attorneys that we spoke 
to actually take these cases completely pro bono and it ends up 
becoming a major part of their caseload. So they work--they're 
very heroic in that they put in a great deal of long hours to 
take these cases.
    So, which is why one of our recommendations was to try to 
enable some kind of legal defense fund among the civil society 
actors to make sure that the lawyers are compensated and 
continue to go on making their living. So scope, I'm really--
it's very hard-pressed. Five lawyers are saying that they are 
seeing over a hundred cases a year and these are four lawyers, 
it can go anywhere. I know some people are partial to 
extrapolation. I tend to be wary of extrapolation. It's a lot. 
It's a lot.
    Perhaps Dr. Phares has more understanding--understands 
more. And the U.N., no--we were able to--in researching this 
second report, we looked high and low for evidence that the 
U.N--the Commission on the Elimination of Discrimination 
Against--All Forms of Discrimination Against Women--whether 
they were doing anything. No, we have not been able to find any 
references among the U.N. or agencies directed towards the 
Coptic issue.
    Mr. Smith. So the panel of experts that seeks to implement 
and admonish countries--that's CEDAW--only makes that vague 
comment that you put into the report?
    Ms. Clark. Yes, that's was as much--
    Mr. Smith. And they have done nothing more than that?
    Ms. Clark. Nothing more than that that we have been able to 
find.
    Mr. Smith. Let me ask you, your trend lines were important 
and again, number of appearance--disappearances and abductions 
increasing, fewer girls appear to be returning. And you know, 
with every statement you've made, disappearances are organized 
and planned. The trend line is bad and getting worse. What do 
you think it will take for the United States government and for 
other governments and hopefully Islamic countries and 
especially the country of Egypt, the government of Egypt to 
understand the outrage and the shame and dishonor this terrible 
human rights abuse brings to Egypt? How do you shout out loud 
enough to say these women are being abducted? What if it was 
your daughter or your sister or your mother?
    Ms. Clark. The calls for justice need to come and they need 
to come louder. It needs to be brought up by our embassy in 
Egypt. There has to be an accounting.
    Mr. Smith. Have they? Have they brought this up?
    Ms. Clark. To my knowledge, I think you and I are on the 
same page as far as what we know. Dr. Phares, would you--
    Dr. Phares. Yes, Mr. Chairman, thank you for asking this 
question. I would insist again on the fact that the 
administration or any administration should change direction in 
dealing with the Coptic issue. This is not about individual 
problems with other individual, you know, perpetrators. This is 
an issue of community.
    Before the Arab Spring in Egypt, the Egyptian government of 
Hosni Mubarak, our ally, despite repetitive demands by the 
Congress to look into the issue, their representative in the 
Human Rights Council in Switzerland has blocked--has been 
blocking the issues. Now, we need to come to President Morsi, 
the democratically elected president of Egypt and ask him to 
instruct his own representative, his own ambassador in Geneva 
at the council to actually raise the issue.
    We want the Egyptian government themselves to raise the 
issue so that we would basically come and help them. But more 
important, as my colleague has mentioned, there should be 
actual physical legal acts on our behalf and on behalf of the 
international community. We can certainly write to the Arab 
League. You, Mr. Chairman, mentioned the issue of shaming them.
    Well, they are members of the Arab League and when the Arab 
League took a decision to have an intervention--a collective 
intervention in Libya because of abuse of human rights, Egypt 
voted for. So now, yes, we'd like to send a letter, Congress 
could, the administration should, to the Arab League to look 
into the issue. And you could go higher than that, as you just 
mentioned, to the Organization of the Islamic Conference. These 
are institutions with whom we have relationship.
    The administration has an ambassador basically that goes to 
the Organization of the Islamic Conference. We should enable 
that ambassador to go and talk about the specific issue. Egypt 
is a member of the OIC. So we need to engage in a dialogue with 
the administration to convince them to use every tool at their 
powers. It's not just a discrete discussion between a secretary 
of state and a president. It should be an open issue.
    And last, if I may say, if it comes to that level, our 
embassy should simply, you know, grant visas to the victims and 
bring them to Congress or your European counterparts should 
bring them to the European Parliament. Make it into a public 
debate, a public issue. That would basically put a lot of 
pressure on the government of Egypt.
    Mr. Smith. Michele--Ms. Clark, you mentioned in your 
testimony that mothers with young children are increasingly 
targeted for abduction. And we heard from the victim just a few 
moments ago when she said, what would happen to my daughter if 
she--if the abductor had succeeded. My question to you is, is 
this a new trend or are we just getting more information on 
that? You know, what happens to those children? Are they 
compelled to become Muslim as well?
    Ms. Clark. Yes, they are. If the mothers--if the mother is 
forcibly converted, then all children take on the dominant 
religion, which is Islam. When we were there on our last trip, 
we spoke to a number of families where the mother--the children 
were kept from--were not--were caught between two worlds 
because the families were continuing to--in cases where mothers 
had been able to come back, where the children--or if the 
mother is abducted, even if the children are not with her, the 
children are still converted automatically according to 
practice.
    So the children are caught between two worlds because they 
are from a Christian community but their documents would 
indicate that they have been converted because of the 
conversion of one parent. And so, they become trapped.
    Mr. Smith. Let me----
    Ms. Clark. Yes, the trend is more. We encountered a greater 
number of families where abductions actually included a mother 
and several children or targeting a family, a mother was 
abducted on her way to Cairo to visit her mother in the 
hospital and then this woman's daughter was at the same time 
being lured in through a fraudulent relationship away from her 
studies at a university.
    And so the whole family was targeted in different 
locations. It was actually very strategic, to use Dr. Phares' 
words. There was a plan behind this to literally co-opt the 
entire family.
    Mr. Smith. Let me ask you, Dr. Phares, have any--you talked 
to strongly about violence against women, which this is, and 
terrorizing women. Are there any of the women's organizations 
taking a stand in favor of Coptic Christian women and spoken 
out?
    Dr. Phares. Mr. Chairman, to my knowledge, from public 
narrative posted or printed, we haven't seen a significant 
statements or policy papers issued by prominent national 
organizations dealing with women's issues both in the United 
States or dealing with those issues abroad. There have been 
mention, of course, of these issues but we haven't seen, for 
example, major NGOs dealing with women raising the issue of 
persecution of Coptic women.
    And if I may take advantage of the answer to mention that 
the third branch of our government, I have testified for the 
last 18 years to many courts, like you have, dealing with 
political asylum. Judges' first question to us, to most of the 
experts who are dealing with the Coptic issue and with other 
persecutions as well is, is there a country condition?
    It's not just about the person. Are you testifying on that 
person or on a country condition? And they would not grant 
permission, they would not grant political asylum unless the 
expert would explain to them that of course the community is 
persecuted. So that's--you have with you the third branch 
logical question about this issue so that we could communicate 
this to the executive branch.
    Mr. Smith. Do imams countenance this and affirm or in any 
way embrace this abuse of women?
    Dr. Phares. In Egypt, regarding the position of the clergy, 
one must recognize that the highest authorities in al-Azhar 
have had several positions condemning any act of violence. The 
problem is that we would like to see them condemning the 
network that is perpetrating these acts of violence. And we've 
seen this across the Middle East.
    Islamist authorities have been, you know, candid enough to 
condemn terrorism or to condemn acts of violence against 
minorities should it be in Syria or in Lebanon or in Egypt and 
specifically in Egypt. What we need them to see--to direct 
themselves to is to condemn the actual networks that are 
conducting this and the actual ideology that the networks are 
using in perpetrating their acts.
    Mr. Smith. Let me just ask our victim who, again, we're so 
grateful she's here, all of us--I'm sure even the panel feels 
the same way. Before you were abducted, did you have any fears 
of abduction? Is abduction something that is discussed among 
your friends? And have any of your friends had any similar 
experiences?
    Ms. Anne. [Via interpreter.] Before this attempted 
kidnapping, many times we would be spit on in the street, 
cursed at, acid water sometimes thrown on women. It hasn't 
happened to me but it's happened to others. I was afraid. Even 
after the event, after the Saints Church, I was even afraid to 
take my daughter to preschool. We are afraid for ourselves. We 
are afraid for our children. In the last two years, a lot of 
bad things have been happening right after one another.
    Mr. Smith. Let me just ask our panelists if they have any 
final closing comments that they would like to make. I would 
note that the recommendation for or the suggestion of a letter 
to the OIC I think is an excellent one and to others. We will 
undertake that and follow up. I plan on doing a followup letter 
to the secretary of state asking what, how often, where has 
this barbaric practice and the effort to combat it been raised 
with the secretary of state and others.
    So I do hope that's a good news story, that this has been 
robustly engaged and they're fighting back. And that would 
include with the SCAF, whether or not they are, you know, ever 
focused on--you know, the economic or I should say the military 
aid of $1.3 billion which is a huge amount of money and so it 
seems to me that they need to be engaged even at least equally 
with the president.
    I would ask you if you might want to comment whether or not 
an amendment requiring or linking the government's efforts to 
combat this egregious practice and linking it to the billion-
three [dollars] that goes to Egypt will be a wise decision in 
the foreign ops bill. Yes, we know that the administration, as 
they did with the religious freedom part, could simply waive it 
and I hope they wouldn't. In good faith, I hope that they would 
not waive it or perhaps deduct a portion of the aid as a 
penalty. If there's no penalty and if it's not even being 
brought up, why do we expect any kind of positive movement? And 
so on the amendment issue, if you might want to touch on that, 
and then any concluding comments that you might want to make.
    Ms. Clark. Thank you, again. I want to thank you, Mr. 
Smith, for holding this hearing and Christian Solidarity 
International, for being so persistent and publishing not one 
but two reports to make sure that the information is brought to 
those who are decision-makers.
    Women need to be able to pick up their children from school 
without fear of being abducted. Young girls need to be able to 
go out and have cups of coffee with their friends without 
fearing that the brother lurking in the background is perhaps 
going to be raping them. Young women need to be able to come 
and go and have lives without looking over their shoulder 24 
hours a day wondering if they're going to end up forced into a 
taxi, thrust into al-Azhar to be forcibly converted, married to 
someone that has deceived them about the nature of the 
relationship and living in a coerced situation as a domestic 
servant or potentially trafficked outside of their own country.
    To not address this issue is to say that we don't care. And 
that we cannot say. So should there be an amendment to the 
foreign aid bill? Absolutely, because we're talking about one 
of the rights that is just so fundamental to all of us here as 
Americans. It's at the heart of what our country is. Because of 
fear of abduction, they now feel that--these women feel that 
they have no movement. They can't come and go.
    The parameters of their daily lives are increasingly 
entrenched around survival and safety. This is no way to live. 
The suffering of parents who haven't heard from their daughters 
for months and years and the silence continues is no way for a 
family to live. The sense of marginalization of the young 
children who are converted because their mother was forced into 
conversion and living in a no man's land of not being accepted 
by their own community, that's not a way for anybody to live.
    Mr. Smith, it's time that we require acknowledgement of 
this issue as a bona fide violation of human rights, as a 
violation of religious freedom, as a cruel instance of 
exploitation against women, as a case of human trafficking and 
something that must end. Thank you.
    Dr. Phares. Mr. Chairman, I am for an amendment that would 
link foreign aid to Egypt to the human rights abuses and the 
measurement--a clear measurement of these human rights abuses 
and the behavior with the Christian women in Egypt should be 
part of this measurement. However, we could help the State 
Department and the executive branch by suggesting that they 
would organize a conference here in Washington, D.C., so that 
the American public, who is basically funding this foreign aid 
at the end of the day, can hear and see directly from the 
victims and from all other political parties in Egypt.
    Namely, I would like to see a conference that would invite 
the Muslim Brotherhood, the Salafists, those who in Egypt are 
claiming that persecution does not exist on the one hand and 
Coptic and women and other minorities, NGOs under the auspices 
of the State Department to just have C-SPAN and have the 
American public, realizing what is the real relationship and 
what are the problems.
    And last, I would also like to make a recommendation for 
our foreign policy when we meet with President Morsi to make 
sure that he understands that the United States do consider 
those issues as part of international law, as part of our 
international commitment. And lately, President Morsi, in order 
to make us feel comfortable and the intentional community and 
make those communities feel comfortable said that he would be 
willing to appoint a vice president who would be a Copt, 
another vice president who would be a woman.
    Well, the response came from the Coptic community a few 
weeks ago, from Coptic Solidarity International Convention in 
Washington. They actually told President Morsi, thank you for 
your suggestion. We don't want anybody to be appointed. We 
would like to elect our representative and serve as your vice 
president. So let's see what his response is going to be. And 
thank you very much for inviting me.
    Mr. Smith. And for the final word, the woman who bravely 
has come here to testify about her ordeal.
    Ms. Anne. The last thing is I wish I could have filed the 
police report. But my father advised me, who is an attorney, 
that if we go, we won't get any of our rights. In all 
likelihood, we would be transferred to Egyptian state security.
    Thank you.
    Mr. Smith. Thank you. Thank you all for your tremendous 
witness. And the Commission will follow up. Thank you for the 
many recommendations. The hearing is adjourned.
    [Whereupon, at 4 p.m., the hearing was adjourned.]

                          A P P E N D I C E S

 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe
    Good afternoon and welcome to our hearing on the escalating 
violence against Coptic women and girls in Egypt following the Arab 
Spring, including the outrageous crimes of abduction, forced 
conversion, and forced marriage, which the Egyptian government is doing 
all too little to prevent--if indeed it is doing anything at all.
    It has now been almost a year and a half since the revolution began 
in Egypt, and Egypt is still in the foundry fires of transition--
hopefully into a free and democratic state. The Egyptians have elected 
a parliament, but, because the Muslim Brotherhood contested independent 
seats, the Supreme Council of the Armed Forces (SCAF) dissolved it with 
the support of the Constitutional Court.
    A president, Mohammed Morsi of the Muslim Brotherhood, was elected 
and installed--but not before the SCAF, who seem to be mostly 
secularist, curtailed presidential power over the military and given 
the military legislative powers.
    The Constituent Panel, which was drawn from the now dissolved 
parliament and has been boycotted by the Coptic Christians, has begun 
drafting work on Egypt's new constitution--yet it may be disbanded any 
day by a pending court decision.
    Order seems to hang by a thread and tensions run extremely high. 
Though Egypt has avoided civil war, the revolution and ongoing unrest 
and social conflict has already left many casualties in the Coptic 
community. Sadly, there are groups that would use the ancient Christian 
Coptic community as a way to build unity around a common enemy.
    The SCAF was guilty of this on October 9, 2011, when the military 
fired on a peaceful group of Coptic Christians at Maspero and ran them 
over with military vehicles, while calling through the national news 
service for called for ``honorable citizens'' to ``defend the army 
against attack''--that is, the SCAF openly incited violence against the 
Coptic minority.
    Twenty-seven people were killed and more than 300 injured--almost 
all of them were Copts. The military claim that one soldier was killed 
but it refuses to release his name. Almost a year later, protestors are 
on trial for the incident, and three soldiers have been charged with 
misdemeanors.
    Today Michele Clark will present her new report on the 
disappearance, forced marriages, and forced conversions of Coptic 
women. The vulnerability and abduction of the Coptic Christians is not 
a new problem. Going back to the 1970s there are many accounts of 
Coptic women and girls being abducted by Muslims, forcibly converted, 
and forcibly married. No doubt in some cases women chose to elope, 
marry across religious lines, and cut off relations with their family.
    But the claim of the Egyptian government that this is in fact what 
happened to every one of the thousands of disappeared women and girls 
defies massive and carefully collected evidence. The women and girls 
who are found often claim to have been drugged and kidnapped, or 
kidnapped with violence. They report human rights abuses including 
forced conversion, rape, forced marriage, beatings, and domestic 
servitude.
    Alarmingly, since the revolution, cases of reported disappearance 
have increased, while recovery of the women and girls have decreased.
    Those women who are found and returned to their families face many 
obstacles--including government refusal to assist in their return, to 
prosecute their kidnappers, and to change their identify cards to 
reflect their return to their Christian faith, which seems to sanction 
forced conversions. Nor are we aware of any case, before or after the 
revolution, in which an abductor has been prosecuted.
    President Morsi, in his first speech as President, envisioned Egypt 
as being for Muslims and Christians. This must mean true justice for 
Copts. Copts must be given equal protection under the law. The Copts 
are not asking for special rights but rather that the Egyptian 
government perform its basic responsibility to protect its citizens and 
their rights.
    Secretary Clinton was in Egypt over the weekend, and some of those 
demonstrating were Copts carrying signs that said, ``Obama, don't send 
your dollars to Jihadists.'' Congress sent a similar message with the 
2012 Consolidated Appropriations Act, which required the Secretary to 
certify that Egypt was making improvements in religious freedom before 
we released the $1.3 billion in aid.
    An unnamed senior State Department official reported to Reuters 
that, ``On the basis of America's national security interests, she 
(Clinton) will waive legislative conditions related to Egypt's 
democratic transition, allowing for the continued flow of 'Foreign 
Military Financing' to Egypt...the move reflects our overarching goal: 
to maintain our strategic partnership with an Egypt made stronger and 
more stable by a successful transition to democracy.''
    My response to that official is simply this: in Egypt, Coptic women 
and girls are not now protected and free to live their lives without 
fear of abduction, forced conversion, and other abuses of their human 
rights. Our policy should be to stand with them, and to every tool in 
our policy kit to encourage the Egyptian government to do the same.
 Prepared Statement of Dr. Katrina Lantos Swett, Chair, United States 
             Commission on International Religious Freedom
    Thank you for the opportunity to testify today before the Helsinki 
Commission on ``Escalating Violence Against Coptic Women and Girls: 
Will the New Egypt Be More Dangerous Than the Old?'' I have been asked 
today to give an overview about the general status of and conditions 
for religious freedom in Egypt, especially for Coptic Christians. I 
request that my statement be entered into the record.
    Since its inception nearly 15 years ago, USCIRF has been deeply 
engaged on Egypt and for good reason: For our entire existence, and 
indeed, prior to our creation, religious freedom conditions, including 
those of Egypt's Coptic population, have been extremely problematic. 
This situation continues into the present and with the election of 
Mohammed Morsi, the first freely elected President of Egypt, on June 
30. The Egyptian transitional government continues to engage in and 
tolerate systematic, ongoing, and egregious violations of freedom of 
religious freedom. Discriminatory and repressive laws and policies 
remain that restrict freedom of thought, conscience and religion or 
belief. Given these concerns, and for the second year in a row, USCIRF 
recommended in its 2012 Annual Report that Egypt be designated a 
``country of particular concern,'' or CPC, under the 1998 International 
Religious Freedom Act (IRFA). I also request that USCIRF's 2012 Annual 
Report chapter on Egypt be entered into the record.
    From the evidence we have seen, the biggest problem faced by the 
Copts, who comprise about 10 to 15 per cent of Egypt's 80 million 
people, continues to be one of impunity. Simply stated, for decades, 
Egypt's government has fostered a climate conducive to acts of violence 
against Copts and members of other minority communities. It has done so 
in at least two ways. First, Cairo's long history of restrictive laws 
and policies--from blasphemy codes to an Emergency Law to across-the-
board discrimination--has drawn unwelcome attention to religious 
minorities, further marginalizing them and leading to violent words and 
deeds launched by intolerant individuals as well as by radical 
religious groups.
    Second, the government's continued failure to protect innocent 
people from these attacks and to convict those responsible has served 
to encourage further assaults. For years, President Mubarak's 
government tolerated widespread discrimination against religious 
minorities and disfavored religious groups, from dissident Sunni and 
Shi'a Muslims to Baha'is, as well as Copts and other Christians, while 
allowing state-controlled media and state-funded mosques to deliver 
incendiary messages against them. The consequences of the climate of 
impunity are especially apparent in Upper Egypt.
    After Mubarak's departure, a breakdown in security and a rise in 
sectarian violence made 2011 one of the worst years for Copts and other 
minorities. Last year alone, violent sectarian attacks killed 
approximately 100 people, surpassing the death toll of the previous 10 
years combined. As during the Mubarak regime, Copts were the primary 
target, and most of the perpetrators still have not been brought to 
justice: perpetrators have not been convicted or alleged perpetrators 
have been detained for short periods, but eventually released without 
charge. While USCIRF's 2012 Annual Report chapter on Egypt includes a 
list of some of the most tragic acts of violence committed against the 
Coptic Orthodox community, let me note the following significant 
incident: Last October, Egypt's state media falsely accused Copts of 
attacking the military when Muslim and Christian protestors marched 
toward the state television station. Following the state media's call 
on civilians to counter this imaginary threat, on October 9, in 
downtown Cairo, armed men attacked peaceful demonstrators, killing at 
least 26 of them, most of them Copts, while injuring over 300 more. 
Responding to the violence, Egypt's military used live ammunition and 
also deployed armored vehicles that deliberately crushed and killed at 
least 12 protestors.
    In addition, reports in recent years support claims that there were 
cases of Muslim men forcing Coptic Christian women to convert to Islam. 
The State Department has asserted that such cases are often disputed 
and include ``inflammatory allegations and categorical denials of 
kidnapping and rape.'' For example, there were credible cases in which 
Coptic girls voluntarily converted to Islam to marry Muslim men, and 
subsequently, when the relationship failed, sought to return to 
Christianity. Nevertheless, during the reporting period, experts and 
human rights groups have found that there were also credible cases 
where Coptic Christian women were lured deceptively into marriages with 
Muslim men and forced to convert to Islam. According to these reports, 
if a woman returns or escapes from the marriage and wants to convert 
back to Christianity, she faces the same legal hurdles in changing her 
religious affiliation on official identity documents as discussed 
above.
    In recent years, in response to sectarian violence, Egyptian 
authorities have conducted ``reconciliation'' sessions between Muslims 
and Christians as a way of easing tensions and resolving disputes. In 
some cases, authorities compelled victims to abandon their claims to 
any legal remedy. USCIRF has stated that reconciliation efforts should 
not be used to undermine enforcing the law and punishing perpetrators 
for wrongdoing. In recent years, the State Department concluded that 
reconciliation sessions not only ``prevented the prosecution of 
perpetrators of crimes against Copts and precluded their recourse to 
the judicial system for restitution'' but also ``contributed to a 
climate of impunity that encouraged further assaults.''
    For all Christian groups, government permission is required to 
build a new church or repair an existing one, and the approval process 
for church construction is time-consuming and inflexible. Former 
President Mubarak had the authority to approve applications for new 
construction of churches. Although most of these applications were 
submitted more than five years ago, the majority have not received a 
response. Even some permits that have been approved cannot, in fact, be 
acted upon because of interference by the state security services at 
both the local and national levels.
    In 2005, former President Mubarak devolved authority to approve the 
renovation and re-construction of churches from the president to the 
country's governors. Several years later, some churches continue to 
face delays in the issuance of permits. Even in cases where approval to 
build or maintain churches has been granted, many Christians complain 
that local security services have prevented construction or repair, in 
some cases for many years. In addition, local security services have 
been accused of being complicit in inciting violence against some 
churches undergoing routine maintenance or repair. In recent years, the 
government repeatedly has pledged, most recently in October 2011, to 
adopt a new law that would apply to all places of worship. In June, 
after consulting with religious leaders and other experts, the SCAF 
released publicly a draft version of the law. The draft was criticized 
widely by Muslims, Christians, and Egyptian human rights groups. While 
a subsequent version has not been made public, some reports have 
indicated that the revised draft law covers only churches and not other 
places of worship.
    This is not to say there has been no progress since the end of the 
Mubarak regime. To be sure, we have seen some hopeful developments. 
Last year, the Grand Sheikh at Al-Azhar began several initiatives 
expressing support for freedom of religion or belief. In May of last 
year, the government began to reopen more than 50 churches that had 
been closed, in some cases for years. Last July, the Supreme 
Administrative Court ruled that reconverts to Christianity could obtain 
new national identity documents indicating their Christianity but not 
their former Muslim faith. And following the October violence, the 
transitional government took steps to reduce discrimination in Egypt's 
Penal Code.
    Yet despite this progress, the bottom line is this: Copts need to 
be protected, Copts aren't being protected, and Copts must be 
protected--along with every other member of Egyptian society--from 
attacks on their right to order their lives and practice their beliefs 
in dignity and peace.
    As long as Copts and other religious minorities aren't being 
sufficiently protected, USCIRF will continue to spotlight the problem 
and recommend that the U.S. government take strong action in support of 
religious freedom. Our recommendations to the United States government 
are as follows:

    <bullet>  First, the United States should press Egypt to improve 
religious freedom conditions, by repealing discriminatory decrees 
against religious minorities, removing religion from official identity 
documents, abolishing the blasphemy codes, and passing a unified law 
for the construction and repair of places of worship.
    <bullet>  Second, the United States should urge Egypt's government 
to prosecute government-funded clerics, government officials, or any 
other individuals who incite violence, while disciplining or dismissing 
government-funded clerics who preach intolerance and hatred.
    <bullet>  Third, the United States should increase pressure on 
Egypt to bring to justice those who have committed violence against 
fellow Egyptians on account of their religion.
    <bullet>  Fourth, Washington should press Cairo to include robust 
protections for religious freedom in a new constitution.
    <bullet>  Fifth, the U.S. Congress should require the Departments 
of State and Defense to report every 90 days on the Egyptian 
government's progress pertaining to religious freedom and related 
rights.
    <bullet>  Sixth, until genuine progress occurs, USCIRF renews its 
call for the United States to designate Egypt a ``country of particular 
concern'' as one of the world's most serious religious freedom abusers.
    <bullet>  And finally, if Egypt demonstrates a commitment to 
progress on freedom of religion and related rights, the United States 
should ensure that a portion of its military aid to Egypt is used to 
help Egypt's police implement a plan to enhance protection for 
religious minorities, their places of worship, and places where they 
congregate.

    Today, as Egypt confronts the rigors of democratic transition, will 
it uphold the rights of Copts and other religious minorities? The world 
is watching, the Helsinki Commission is watching, and USCIRF is 
watching, too. Thank you again for this opportunity to testify.

                       USCIRF 2012 REPORT: EGYPT
    FINDINGS: Over the past year, the Egyptian transitional government 
continued to engage in and tolerate systematic, ongoing, and egregious 
violations of freedom of thought, conscience and religion or belief. 
Serious problems of discrimination, intolerance, and other human rights 
violations against members of religious minorities, as well as 
disfavored Muslims, remain widespread in Egypt. Violence targeting 
Coptic Orthodox Christians increased significantly during the reporting 
period. The transitional government has failed to protect religious 
minorities from violent attacks at a time when minority communities 
have been increasingly vulnerable. This high level of violence and the 
failure to convict those responsible continued to foster a climate of 
impunity, making further violence more likely. During the reporting 
period, military and security forces used excessive force and live 
ammunition targeting Coptic Christian demonstrators and places of 
worship resulting in dozens of deaths and hundreds of injuries. The 
government also continued to prosecute, convict, and impose prison 
terms on Egyptian citizens charged with blasphemy. Implementation of 
previous court rulings--related to granting official identity documents 
to Baha'is and changing religious affiliation on identity documents for 
converts to Christianity--has seen some progress but continues to lag, 
particularly for Baha'is. In addition, the government has not responded 
adequately to combat widespread and virulent anti-Semitism in the 
government-controlled media.
    Based on these concerns, USCIRF again recommends in 2012 that Egypt 
be designated as a ``country of particular concern,'' or CPC, for 
systematic, ongoing, and egregious violations of religious freedom. In 
2011, USCIRF, for the first time, recommended that Egypt be designated 
a CPC. Before that, Egypt had been on USCIRF's Watch List since 2002.
    Despite claims by the Supreme Council of Armed Forces (SCAF) that 
it dismantled the state security apparatus, partially lifted the state 
of emergency, and addressed some ongoing religious freedom concerns, 
discriminatory and repressive laws and policies that restrict freedom 
of thought, conscience and religion or belief in Egypt remain in place. 
Religious freedom conditions have not improved in most areas and 
attacks targeting religious minorities have continued. In 2011, violent 
sectarian attacks, targeting primarily Coptic Orthodox Christians, have 
resulted in nearly 100 deaths, surpassing the death toll of the 
previous 10 years combined. During the transitional period, the lack of 
adequate security in the streets has contributed to lawlessness in 
parts of the country, particularly in Upper Egypt.

    PRIORITY RECOMMENDATIONS: Egypt continues to experience a period of 
significant change during its transition, the success of which hinges 
on full respect for the rule of law and compliance with international 
human rights standards, including freedom of religion or belief. 
Pursuant to the Consolidated Appropriations Act of 2012 (P.L. 112-74), 
the U.S. government should not certify the disbursement of military 
assistance to Egypt until the Egyptian transitional government 
demonstrates that it is using funds appropriated through the Foreign 
Military Financing Program to implement policies that protect freedom 
of religion and related human rights in Egypt. In addition, once the 
Egyptian government demonstrates its commitment to freedom of religion 
and related rights, the U.S. government should ensure that a portion of 
military assistance is used to help the Egyptian police assess security 
needs and develop and implement an effective plan for dedicated police 
protection for religious minority communities and their places of 
worship. The U.S. government should press the transitional, and future 
civilian government, to undertake reforms to improve religious freedom 
conditions, including repealing decrees banning religious minority 
faiths, removing religion from official identity documents, and passing 
a unified law for the construction and repair of places of worship. In 
addition, the United States should more actively press the Egyptian 
government to prosecute perpetrators of sectarian violence and to 
ensure that responsibility for religious affairs is not placed under 
the jurisdiction of the domestic security agency. Additional 
recommendations for U.S. policy towards Egypt can be found at the end 
of this chapter.

    RELIGIOUS FREEDOM CONDITIONS

    Transition, Parliamentary Elections, Crackdown on Dissent, and the 
Emergency Law
    On February 11, 2011, President Hosni Mubarak was removed from 
power following 18 days of a mostly non-violent, popular uprising by 
the Egyptian people. Subsequently, the Egyptian Supreme Council of 
Armed Forces (SCAF) took control of the country. Within days, the SCAF 
dissolved the parliament, suspended the constitution, formed a 
committee to recommend constitutional amendments, and called for 
presidential and parliamentary elections. Over the past year, the SCAF 
appointed a civilian cabinet; conducted a referendum that approved 
amendments to Egypt's constitution; issued a 63-article constitutional 
declaration to govern the country through the transition; and issued 
laws governing the formation of political parties and the structure of 
parliamentary elections.
    The lower house of parliament (People's Assembly) was elected 
through a three-stage process between November 2011 and January 2012. 
The Freedom and Justice Party (Muslim Brotherhood alliance) and the Al-
Nour Party (Salafi alliance) won approximately 47percent and 24 
percent, respectively, of the 498 seats in the lower house; all other 
political parties won less than 10 percent of the seats. No women and 
only two Christians won seats, slightly fewer than during the Mubarak 
regime. The SCAF appointed another 10 members, which included five 
Christians and three women. Elections for 180 of the 270 seats in the 
upper house (Shura Council) concluded in February 2012, followed by the 
convening of its first session at the end of that month. The remaining 
90 seats of the Shura Council will be appointed by Egypt's next 
president. Once the parliament begins its session, it will name a 100-
person constituent assembly to draft a new constitution. Presidential 
elections are expected to begin in May and conclude in June.
    Although the parliamentary elections, despite some irregularities, 
were the most free and fair in decades, the SCAF tightened its grip on 
opposition groups. The SCAF used deadly force against public 
protestors, including Coptic Christians; arrested, tried, and 
imprisoned democracy activists; raided pro-democracy non-governmental 
organizations (NGOs) and also imposed travel bans on their American and 
European personnel; and fostered anti-Western xenophobia through state-
run media. Over the past year, human rights groups have accused the 
military of arresting thousands of demonstrators and subsequently 
holding trials lacking due process, convicting, and sentencing many to 
three- to five-year prison terms. Many of those convicted did not have 
access to legal counsel and some of the trials and convictions were 
carried out the same day.
    The transitional government undertook efforts to dismantle the 
state security apparatus that has operated under the Emergency Law, in 
effect since 1981 and most recently renewed for another two years in 
May 2010. In January 2012, the SCAF announced it would be lifting the 
Emergency Law except in cases of ``thuggery,'' although it did not 
define that term. Because Egypt has operated under a state of 
emergency, the government has had the option to hear cases involving 
terrorism or drug trafficking in state security courts rather than 
criminal courts. The Emergency Laws restrict many human rights, 
including freedom of religion or belief as well as freedom of 
expression, assembly, and association. In addition, the state security 
courts do not allow the right to appeal guilty verdicts. Egyptian and 
international human rights groups have been critical of the courts' 
procedures and limits on the rule of law and due process.
    Over the years, thousands of persons have been detained without 
charges under the Emergency Law on suspicion of illegal terrorist or 
political activity. Egyptian and international human rights groups have 
asserted that the primary purpose of the state security courts is to 
punish political activism and dissent, even when that dissent is 
peaceful. These courts also have been used to detain and try 
individuals deemed by the state to have ``unorthodox'' or ``deviant'' 
Islamic or other religious beliefs or practices. During the past year, 
many "security detainees" were released from prison.

    Government Control of Islamic Institutions
    As it did during the Mubarak era, the government maintains control 
over all Muslim religious institutions, including mosques and religious 
endowments, which are encouraged to promote an officially-sanctioned 
interpretation of Islam. According to Egyptian officials, the 
government regulates these Muslim institutions and activities as a 
necessary precaution against religious extremism and terrorism. The 
state appoints and pays the salaries of all Sunni Muslim imams, 
requires all mosques to be licensed by the government, and monitors 
sermons. During the reporting period, Egyptian transitional government 
officials were concerned that increasing numbers of mosques were 
operating independently of any government oversight and that some of 
these mosques were used to incite violence.
    The government-funded Al-Azhar University is one of the preeminent 
Sunni Muslim centers of learning in the world. The Grand Sheikh of Al-
Azhar, Ahmed Al-Tayeb, was appointed by former president Hosni Mubarak 
in 2010. The Islamic Research Center (IRC) of Al-Azhar has legal 
authority to censor and, since 2004, to confiscate any publications 
dealing with the Qur'an and hadith (oral traditions). In recent years, 
the IRC has ruled on the suitability of non-religious books and 
artistic productions. Al-Azhar also has the legal right to recommend 
confiscations, but must obtain a court order to do so. In January 2012, 
before the People's Assembly convened for the first time, the SCAF 
passed a law mandating that the Grand Sheikh be elected by Al-Azhar's 
Senior Scholars Authority rather than chosen by the president of the 
country. Such a system of election previously was in force before 1961.
    During the Mubarak regime, the Egyptian government consulted Al-
Azhar on a wide range of religious issues impacting Muslims in the 
country. Over the years, clerics and scholars at Al-Azhar have issued 
discriminatory fatwas (religious edicts) and delivered controversial 
sermons about some non-Muslim faiths, particularly the Baha'i faith, as 
well as disfavored or dissenting Muslims. Non-Muslims are prohibited 
from attending Al-Azhar University. In January 2012, Al-Azhar Grand 
Sheikh Ahmed Al-Tayeb put forward a ``Bill of Rights'' that discussed 
freedom of belief and expression, among other things. (See in Positive 
Developments in Egypt)

    Blasphemy and Violations against Muslims and Dissidents
    Egyptian law forbids blasphemy through Article 98(f) of its Penal 
Code, which prohibits citizens from ``ridiculing or insulting heavenly 
religions or inciting sectarian strife.'' This provision has been 
applied to detain and prosecute individuals and members of religious 
groups whose practices deviate from mainstream Islamic beliefs or whose 
activities are alleged to jeopardize ``communal harmony'' or to insult 
the three ``heavenly religions:'' Judaism, Christianity, and Islam. 
Groups and individuals impacted in recent years include Ahmadis, 
Koranists, Christians, and Sunni, Shi'a, and Sufi Muslims.
    In 2010, government security officials arrested without charge 11 
members of the country's small Ahmadi community; all were subsequently 
released within weeks or months. The Ahmadis were charged under Article 
98(f) with ``contempt for religion'' and also on vague Emergency Law 
charges of undermining social cohesion. Although they were never 
prosecuted, the small Ahmadi community continues to fear government 
arrest and prosecution for alleged blasphemy.
    Qur'anists--a tiny group that accepts only the Qur'an as the sole 
source of religious guidance and thus has been accused by the Egyptian 
government of deviating from Islamic law--ing the reporting period, 
members of the Qur'anist community report discrimination in employment 
and continue to suffer from harassment and surveillance by security 
services. Authorities have prevented some members from leaving the 
country.
    Over the years, the small Shi'a Muslim community has faced periodic 
discrimination, harassment, arrests, and imprisonment. In January 2012, 
Egyptian authorities closed the Shi'a Hussein mosque in Cairo to 
prevent Shi'a Muslims from observing Ashura. In December 2011, at least 
four Shi'a Muslims reportedly were detained and charged with 
``insulting and denying tenets'' of Islam. Among the four was an 
Australian national, who was freed after one month in detention. The 
status of the other three is unknown. In September and October 2010, 
Egyptian authorities detained nearly 100 Shi'a Muslims. According to 
media reports, at least 12 of the Shi'a Muslims were accused by a state 
security court of ``contempt of religion'' and forming an illegal group 
to overthrow the government. Their current status is unknown.
    On February 1, 2012, well-known Egyptian actor and comedian, Adel 
Imam, was sentenced to three months in prison and fined by a Cairo 
court for ``contempt of religion'' because of characters he portrayed 
in several films in recent years. In October 2011, a Cairo court 
sentenced Ayman Yusef Mansour to three years in jail with hard labor 
for ``insulting'' Islam in postings on Facebook. The court found that 
Mansour ``intentionally insulted the dignity of the Islamic religion 
and attacked it with insults and ridicule on Facebook.'' In another 
case, Egyptian telecom mogul and Coptic Christian parliamentarian 
Naguib Sawiris was tried in January 2012 for blasphemy under Article 
98(f) of the Penal Code because he tweeted cartoons in June 2011 of 
Mickey and Minnie Mouse wearing conservative Muslim attire. The case 
was dismissed in February.

    Islamists and Extremism
    The Muslim Brotherhood and other Islamist groups which advocate or 
seek to establish an Islamic state in Egypt based on their 
interpretation of Islamic law were illegal organizations during the 
Mubarak era under a law prohibiting political parties based on 
religion. While this prohibition remains in place even after new 
amendments to the constitution went into effect in March 2011, the 
Muslim Brotherhood and other Islamist groups formed political parties 
on other platforms. In April 2011, a Muslim Brotherhood alliance formed 
the Freedom and Justice Party. Similarly, in June an alliance of ultra-
conservative Salafi Muslims formed the Al-Nour Party.
    The Muslim Brotherhood and other Islamist groups have used violence 
in the past to achieve their aims, including the assassination of 
President Anwar al-Sadat in 1981 and attacks on foreign tourists. The 
Muslim Brotherhood publicly renounced violence in the 1970s. Under the 
Mubarak regime, Egyptian security forces arrested hundreds, if not 
thousands, of suspected Islamists every year, and some were subject to 
torture and/or prolonged detention without charge. Human rights groups 
that closely monitor the detention of such individuals claim that the 
vast majority are in prison as a result of their political beliefs or 
activities, and not on the basis of religion.
    Human rights activists inside Egypt increasingly are concerned that 
extremist groups that support policies aimed at destroying the rights 
of others continue to advance in the country, with detrimental effects 
on the prospects for genuine democratic reform or improvements in 
freedom of religion or belief. During the transition period, Egypt has 
witnessed an increase in crime and lawlessness due to a decrease in 
police and security presence. Some Islamist militant groups have used 
this lapse to impose extra-judicial punishments. During the early 
months of the transition, Sufi Muslims experienced increased attacks 
and harassment by Islamist militant groups, as they deem as heretical a 
number of Sufi religious practices, including the veneration of saints. 
In Alexandria, extremists targeted at least 16 historic mosques 
belonging to Sufi orders and attempted to deface and destroy tombs of 
important Sufi Islamic scholars. In Qalyoub, north of Cairo, militants 
attacked at least five Sufi shrines. By the end of the reporting 
period, at least two people had been detained in relation to the 
attacks, although no one had been brought to justice.

    Incitement to violence in media and government-funded mosques
    In the months leading up to the November 2011 parliamentary 
elections, an increase in incitement to violence in Egyptian media and 
government-funded mosques exacerbated sectarian tensions between 
Muslims and Coptic Christians. In October, Egypt state media falsely 
accused Coptic Christians of attacking the Egyptian military during 
peaceful protests marching toward the Maspero state television station. 
State media called on Egyptian citizens to support the Egyptian 
military in ``protecting Egypt'' from Christian protestors. This 
incitement by state media led to counter-revolutionary elements and 
extremists attacking Coptic Christians (see more detail below).
    During the reporting period, there continued to be reports of 
incitement and anti-Christian hatred espoused by imams in mosques. In 
recent years, some imams in mosques have incited large crowds to oppose 
and/or prevent the building and maintenance of churches, particularly 
in Upper Egypt. For example, in late September 2011, in the Aswan 
province, local imams incited at least 1,000 Muslim villagers, who 
subsequently set fire to the St. George Coptic Orthodox Church as well 
as some Christian-owned businesses and homes (see more detail below).
    There continues to be intolerance of Jews and Baha'is in both the 
independent and government-controlled media. Material vilifying Jews 
with both historical and new anti-Semitic stereotypes appear regularly 
in the state-controlled and semi-official media. In February 2012, a 
Salafi leader and former parliamentary candidate in Alexandria, Abdel 
Moneim al-Shahat, publicly stated on the al-Haqiqa television program 
that Baha'is should be prosecuted for treason because they are 
apostates and are not entitled to any rights in Egypt.

    Violence Targeting Christians
    Since early 2011, hundreds of Egyptians were killed in the streets 
as a result of a decrease in security and a dramatic increase in 
violence. Violent sectarian attacks targeting Coptic Orthodox 
Christians and their property also increased significantly. In 2011, 
Coptic and human rights groups reported more than 40 sectarian 
incidents resulting in nearly 100 deaths, mostly Coptic Christians, 
surpassing the death toll of the previous 10 years combined. In most 
cases, perpetrators have not been convicted. In other cases, alleged 
perpetrators have been detained for short periods but eventually 
released without charge.
    The ongoing violence, and the failure to prosecute those 
responsible, continued to foster a climate of impunity, especially in 
Upper Egypt. In recent years, in response to sectarian violence, 
Egyptian authorities have conducted ``reconciliation'' sessions between 
Muslims and Christians as a way of easing tensions and resolving 
disputes. In some cases, authorities compelled victims to abandon their 
claims to any legal remedy. This continued during the reporting period. 
USCIRF has stated that reconciliation efforts should not be used to 
undermine enforcing the law and punishing perpetrators for wrongdoing. 
In recent years, the State Department concluded that reconciliation 
sessions not only ``prevented the prosecution of perpetrators of crimes 
against Copts and precluded their recourse to the judicial system for 
restitution'' but also ``contributed to a climate of impunity that 
encouraged further assaults.''
    Below are examples of violent incidents, primarily during the 
reporting period, impacting the Coptic Orthodox community, who comprise 
approximately 10 to 15 per cent of Egypt's 80 million people.
    In late January 2012, in the Sharbat village near Alexandria, 
Muslim villagers set on fire and destroyed several Christian-owned 
homes and businesses after a rumor surfaced about analleged sexual 
relationship between a married Muslim woman and a Christian man. At 
least three people were injured. After reconciliation sessions convened 
by local politicians and religious leaders, eight Christian families 
were ordered to leave the village and to abandon their properties. 
Subsequently, a parliamentary delegation from Cairo visited the village 
and investigated the incidents. It concluded that the eviction of at 
least five of the Christian families should be overturned and their 
properties be returned. The delegation also blamed the local media for 
exaggerating facts and urged police to investigate to determine who was 
individually responsible for the destruction of Christian property and 
injuries suffered. An investigation is ongoing.
    On October 9, 2011, at least 26 people were killed, mostly Coptic 
Orthodox Christians, and more than 300 injured in downtown Cairo after 
armed men confronted and attacked peaceful protestors. The 
demonstrators, both Christians and Muslims, were marching to the 
Maspero state television station to protest the September 30 
destruction of a church in Aswan, Upper Egypt. Egyptian state-owned 
media incited the violence when broadcasters urged Egyptians to go out 
into the streets to protect security forces from attacks by Christian 
protestors. Responding to the violence, Egyptian military forces used 
live ammunition and excessive force, including armored vehicles that 
deliberately crushed and killed at least 12 protestors. Dozens of 
suspects have been detained and interrogated. In December, a Cairo 
court decided to release, pending further investigations, the remaining 
27 Coptic Christian detainees arrested in connection with the violence. 
The investigation reportedly is ongoing.
    On September 30, in the Aswan province, an estimated mob of more 
than 1,000 Muslims looted and burned the St. George Coptic Orthodox 
Church, as well as some Christian-owned businesses and homes, after 
incitement by local imams in village mosques. Local media reports 
indicated that a Ministry of Justice fact-finding mission traveled to 
Aswan on October 12, in the aftermath of the Maspero violence, to 
investigate the St. George church burning. According to the State 
Department, the status of the investigation is unknown. On May 8, at 
least 15 Christians and Muslims were killed and more than 200 people 
were wounded as Islamist extremists attacked Christians at the St. Mina 
Church in the Imbaba district of Cairo. Another church, the Church of 
the Virgin Mary, was burned to the ground and several Christian-owned 
shops were vandalized and looted. The government is prosecuting 48 
individuals charged with murder, attempted murder, and a variety of 
other crimes. At the end of the reporting period, the prosecution is 
ongoing.
    On March 8 in the Mokattam area of Cairo, 13 people were killed and 
nearly 150 wounded in clashes that erupted during large-scale 
demonstrations by Christians protesting the destruction of a church in 
the provincial town of Sol. The demonstrators called for rebuilding the 
church, punishment of perpetrators, and better treatment by Egyptian 
authorities. According to some accounts, troops from the Egyptian 
military stood by for as long as four hours without intervening. 
Egyptian officials said that all of those killed died of gunshot 
wounds, although it is still unclear who was responsible for the 
killings. While the SCAF expeditiously rebuilt the church by Easter, no 
one has been charged with the deaths. The status of the investigation 
is unknown.
    On March 4, also in Sol, local Muslims set fire and destroyed a 
church after clashes between Christians and Muslims left two dead. The 
clashes reportedly resulted from a feud between the families of a 
Christian man and a Muslim woman who allegedly were having a romantic 
relationship. According to reports, there has been no investigation and 
no one has been brought to justice.
    On February 23, the Egyptian military reportedly used excessive 
force and live ammunition at the Anba Bishoy monastery in Wadi Natroun, 
north of Cairo, to destroy a wall monks had built to defend their 
property from criminals recently set free from local prisons. One monk 
and six church workers were injured, and the monk later died. According 
to reports, military forces used heavy machine guns and armored 
personnel carriers to bulldoze the wall. To date, no one has been held 
accountable.
    On January 1, 2011, a bomb exploded at the Coptic Orthodox Church 
of the Two Saints (Al Qiddissin) in Alexandria where a New Year's 
prayer service was being held, killing at least 23 people and wounding 
approximately 100. At the end of the reporting period, there were no 
suspects in custody and no one has been brought to trial for murder. 
The Egyptian government reports that its investigation is ongoing.
    On January 6, 2010, in the town of Naga Hammadi, Qena Governorate, 
three men sprayed automatic gunfire on Coptic churchgoers leaving 
midnight Christmas Mass, resulting in the deaths of six Christians and 
one off-duty Muslim police officer and several injuries. On January 16, 
2011, a state security court convicted and sentenced to death one of 
the three, Mohamed Ahmed Hussein. On February 20, 2011, the court 
ratified the verdict against Hussein but acquitted the two other men, 
who were known to be accomplices in the killings. Hussein was executed 
on October 10, 2011. According to official Egyptian government media 
reports in November 2011, an Egyptian state security court intends to 
retry the two defendants who were acquitted.
    In 2004, the Court of Cassation upheld the acquittal of 94 out of 
the 96 persons suspected of involvement in the killing of 21 Christians 
in Al-Kosheh in late 1999 and early 2000. Some Egyptian human rights 
groups believe that Egyptian authorities should still investigate 
claims of police negligence and inadequate prosecution of those 
involved in this earlier violence.

    Discrimination against Christians
    In addition to violence, Christians face official and societal 
discrimination. Although Egyptian government officials claim that there 
is no law or policy that prevents Christians from holding senior 
positions, the Coptic Orthodox Christian community faces de facto 
discrimination in appointments to high-level government and military 
posts. There are only a few Christians in the upper ranks of the 
security services and armed forces. There are no Christian governors 
out of 27 in the country, after the SCAF approved 11 new governors in 
August 2011. Previously there had been one Christian governor. There 
are only a handful of elected members of the People's Assembly out of 
498 seats, no known university presidents or deans, and very few 
legislators or judges. According to the State Department, public 
university training programs for Arabic-language teachers exclude non-
Muslims because the curriculum involves the study of the Qur'an. Under 
Egyptian law, Muslim men can marry Christian women but Muslim women are 
prohibited from marrying Christian men. Contacts between such persons 
are often a source of societal tension between Muslim and Christian 
communities in Egypt.
    For all Christian groups, government permission is required to 
build a new church or repair an existing one, and the approval process 
for church construction is time-consuming and inflexible. Former 
President Mubarak had the authority to approve applications for new 
construction of churches. Although most of these applications were 
submitted more than five years ago, the majority have not received a 
response. Even some permits that have been approved cannot, in fact, be 
acted upon because of interference by the state security services at 
both the local and national levels.
    In 2005, former President Mubarak devolved authority to approve the 
renovation and re-construction of churches from the president to the 
country's governors. Several years later, some churches continue to 
face delays in the issuance of permits. Even in cases where approval to 
build or maintain churches has been granted, many Christians complain 
that local security services have prevented construction or repair, in 
some cases for many years. In addition, local security services have 
been accused of being complicit in inciting violence against some 
churches undergoing routine maintenance or repair. In recent years, the 
government repeatedly has pledged, most recently in October 2011, to 
adopt a new law that would apply to all places of worship. In June, 
after consulting with religious leaders and other experts, the SCAF 
released publicly a draft version of the law. The draft was criticized 
widely by Muslims, Christians, and Egyptian human rights groups. While 
a subsequent version has not been made public, some reports have 
indicated that the revised draft law covers only churches and not other 
places of worship.

    Converts and Reconverts to Christianity
    Although neither the Constitution nor the Penal Code prohibits 
proselytizing or conversion, the Egyptian government has used Article 
98(f) of the Penal Code to prosecute alleged proselytizing by non-
Muslims. In some instances, converts, who fear government harassment if 
they officially register their change in religion from Islam to 
Christianity, reportedly have altered their own identification cards 
and other official documents to reflect their new religious 
affiliation. Over the years, some individuals have been arrested for 
falsifying identity documents following conversion. Other converts have 
fled the country for fear of government and societal repercussions.
    In 2008, Egypt's highest court ruled that 12 individuals who were 
born Christian could not be legally prohibited from returning to 
Christianity after converting to Islam. However, the court ruled that 
their identity documents must list them as ``formerly declared 
Muslim,'' thus potentially making them subject to continued 
discrimination, police harassment, and societal violence. On July 3, 
2011, the Supreme Administrative Court ruled that reconverts to 
Christianity would be permitted to obtain new national identity 
documents indicating their Christian faith without having to be listed 
as former Muslims. In October 2011, the first known implementation of 
the new ruling was made public when an Egyptian mother's twin sons 
received new identity cards identifying them as Christian.
    In addition, reports in recent years support claims that there were 
cases of Muslim men forcing Coptic Christian women to convert to Islam. 
The State Department has asserted that such cases are often disputed 
and include ``inflammatory allegations and categorical denials of 
kidnapping and rape.'' For example, there were credible cases in which 
Coptic girls voluntarily converted to Islam to marry Muslim men, and 
subsequently, when the relationship failed, sought to return to 
Christianity. Nevertheless, during the reporting period, experts and 
human rights groups have found that there were also credible cases 
where Coptic Christian women were lured deceptively into marriages with 
Muslim men and forced to convert to Islam. According to these reports, 
if a woman returns or escapes from the marriage and wants to convert 
back to Christianity, she faces the same legal hurdles in changing her 
religious affiliation on official identity documents as discussed 
above.
    In contrast to the re-conversion cases, the Egyptian government 
generally does not recognize conversions of Muslims to other religions. 
Egyptian courts also have refused to allow Muslims who convert to 
Christianity to change their identity cards to reflect their 
conversions. In the first such case, brought by Muhammad Hegazy, a 
lower court ruled in January 2008 that Muslims are forbidden from 
converting from Islam based on principles of Islamic law because 
conversion would constitute a disparagement of the official state 
religion and entice other Muslims to convert. Hegazy is currently in 
hiding and has appealed the ruling. The second such case was brought in 
2009 by Maher El-Gohary, who went into hiding for two and a half years 
because of threats and harassment by extremists. El-Gohary, with whom 
the USCIRF delegation met during its January 2010 visit, fled Egypt in 
late February 2011 when his travel ban was lifted just days after 
former president Mubarak stepped down. El-Gohary has applied for asylum 
in France with his 16 year-old daughter.

    Baha'is
    All Baha'i institutions and community activities have been banned 
since 1960 by a presidential decree. As a result, the approximately 
2,000 Baha'is who live in Egypt are unable to meet or engage in 
communal religious activities. In the past, Baha'is have been arrested 
and imprisoned because of their religious beliefs, often on charges of 
insulting Islam. There have been no arrests in recent years. Most 
Baha'i community members are known to the state security services, and 
many are regularly subject to surveillance and other forms of 
harassment. Al-Azhar's Islamic Research Center has issued fatwas over 
the years, most recently in 2003, urging the continued ban on the 
Baha'i community and condemning Baha'is as apostates.
    Intolerance of Baha'is has increased in both the independent and 
government-
controlled media in recent years. In March 2009, Muslim villagers 
vandalized several Baha'i homes in a village in the Sohag province. 
Egyptian human rights groups immediately condemned the violence and 
contended that it had been prompted by incitement by a media 
commentator who, during a television program, labeled an individual 
member of the Baha'i faith an apostate and called for her to be killed. 
Three years after the incident, there has been no investigation or 
prosecution. In late February 2011, after rumors that the Baha'i 
families would be returning to the homes vandalized in 2009, local 
villagers set on fire several Baha'i homes in the Sohag province. An 
Egyptian human rights group alleged that at least two local security 
officers incited local villagers to attack the homes. An investigation 
is ongoing.
    There has been some legal progress for Baha'is related to identity 
documents. In March 2009, the Supreme Administrative Court rejected a 
final legal challenge to a 2008 lower court ruling that required the 
Egyptian government to issue national identification documents to three 
Baha'i plaintiffs containing a dash or other mark in the religion 
field. Until this ruling, identity documents permitted registration in 
only one of the three officially approved faiths--Islam, Christianity, 
or Judaism--thereby effectively preventing Baha'is from gaining the 
official recognition necessary to have access to numerous public 
services. Since the 2008 decision, the government has issued birth 
certificates to at least 120 Baha'is, documents which it previously 
refused to issue to them. In addition, approximately 20 to 30 single 
male and female Baha'is have received identity cards. However, no 
married couples have been able to receive identity cards because the 
Egyptian government does not recognize Baha'i marriages. Over the past 
few years, some Baha'is lost their jobs and a few young Baha'is were 
dismissed from universities because they did not have identity cards.
    During the reporting period, representatives of the Baha'i 
community have had discussions with the SCAF and transitional 
government; however, there have been no long-term resolutions to their 
ongoing concerns.

    Anti-Semitism and the Jewish Community
    In 2011, material vilifying Jews with both historical and new anti-
Semitic stereotypes continued to appear regularly in the state-
controlled and semi-official media. This material includes anti-Semitic 
cartoons, images of Jews and Jewish symbols that reference Israel or 
Zionism, comparisons of Israeli leaders to Hitler and the Nazis, and 
Holocaust denial literature. Egyptian authorities have not taken 
adequate steps to combat anti-Semitism in the media, despite official 
claims that they have advised journalists to avoid anti-Semitism. 
Egyptian officials claim that anti-Semitic statements in the media are 
a reaction to Israeli government policy toward Palestinians and do not 
reflect historical anti-Semitism. Human rights groups cite persistent, 
virulent anti-Semitism in the education system, which increasingly is 
under the influence of Islamist extremists, a development the Egyptian 
government has not adequately addressed.
    The small remnant of Egypt's once sizeable Jewish community, now 
consisting of fewer than 100 people, owns communal property and 
finances required maintenance largely through private donations. In 
2007, Egyptian authorities, including the Minister of Culture and the 
head of the Ministry's Supreme Council of Antiquities, pledged to move 
forward over the next few years with the restoration of at least seven 
synagogues, as well as the possible development of a Jewish museum, 
sought by the Jewish community to memorialize Egypt's substantial and 
historic Jewish religious and cultural properties and relics. 
Restoration of the Maimonides synagogue in Cairo, named after a 12th 
century rabbinic scholar, was completed in March 2010, although 
Egyptian government authorities canceled an official public dedication 
ceremony.

    Jehovah's Witnesses
    A 1960 presidential decree banned all Jehovah's Witnesses 
activities. According to the State Department, there are between 800 
and 1,200 Jehovah's Witnesses living in Egypt. While government 
interference into the activities of the small community has abated 
somewhat since former President Mubarak stepped down in February 2011, 
Egyptian authorities continue to conduct surveillance and sometimes 
impede their private worship. In past years, secret police monitored 
the homes, phones, and private meeting places of members. The Egyptian 
government permits Jehovah's Witnesses to meet in private homes in 
groups of less than 30 people, despite the community's request to meet 
in larger numbers.
    For years, the Jehovah's Witnesses have pursued legal recognition 
through the court system. Finally, in December 2009, the Seventh 
Circuit Administrative Court handed down a verdict denying Jehovah's 
Witnesses legal status. The local community continues to appeal the 
verdict.

    Egypt's Universal Periodic Review
    In February 2010, the UN Human Rights Council examined the human 
rights record of Egyptian authorities under the Universal Periodic 
Review (UPR) procedure. The head of Egypt's delegation stated that 
freedom of religion and worship are guaranteed in the constitution and 
are not limited by law, despite the reality that, as described above, 
in practice the law is arbitrarily and inconsistently applied. The 
Egyptian delegation also characterized relations between Muslims and 
Coptic Christians as ``healthy and positive,'' attributing recent 
sectarian tensions to extremism and asserting that the law is 
implemented whenever violent incidents occur.
    The recommendations that the Egyptian delegation supported at the 
UPR included those that urged the government to take all necessary 
measures to guarantee religious freedom, prevent discrimination that 
affects this freedom, and promote inter-religious dialogue and 
tolerance. The delegation rejected recommendations which urged the 
Egyptian government to remove any categorization of religion on 
official government documents and to eliminate the legal and 
bureaucratic restrictions that complicate an individual's right to 
choose his or her religion. Despite supporting a number of 
recommendations from the UPR, the Egyptian government has made little 
progress in implementing them in practice.

    Positive Developments in Egypt
    During the transition, there have been some positive developments. 
In January 2012, the Interior Ministry stated publicly that it worked 
with the SCAF on an extensive security plan to protect all churches 
around the celebration of Coptic Christmas. According to some reports, 
members of the Muslim Brotherhood also have participated in protecting 
churches. The 2011-2012 holiday season passed without incident. In May, 
the government began to re-open more than 50 churches that had been 
closed, in some cases for years. In March, the Egyptian government 
released Coptic Christian priest Mitaus Wahba from prison, where he had 
served three years of a five-year sentence for presiding over a wedding 
of a Christian convert from Islam.
    In the aftermath of the October Maspero violence, the government 
took steps to reduce discrimination in the Penal Code. On October 15, 
the SCAF issued a decree amending Egypt's Penal Code to prohibit 
discrimination on the basis of religion, gender, language, faith, or 
race. The decree also delineated prison sentences and specific fines 
for discriminatory acts, as well as failure to prevent discrimination. 
These included more severe penalties for government officials found to 
be complicit in discrimination. These new Penal Code provisions, if 
applied, could strengthen the Egyptian constitution's ban on 
discrimination. At the end of the reporting period, however, there were 
no known cases in which the government applied the new amendments.
    During the reporting period, Al-Azhar University spearheaded a 
number of initiatives and published statements expressing support for 
freedom of religion or belief in Egypt. In January 2012, Al-Azhar Grand 
Sheikh Ahmed Al-Tayeb put forward a ``Bill of Rights'' that discussed 
the importance of freedom of belief and expression, among other things, 
ahead of the drafting of the constitution. The statement asserts that 
``freedom of belief'' and equal citizenship rights for all Egyptians 
are the cornerstones of a new modern society. The statement reportedly 
took three months to gain support of a number of diverse religious and 
political leaders in Egypt, as well as other domestic and international 
actors.
    In June 2011, the Grand Sheikh released an 11-point program, known 
as the ``Al-Azhar Document,'' setting out Al-Azhar's vision for Egypt's 
democratic future. The document endorsed a democratic government in 
Egypt, placing governance in the hands of the civil or secular powers 
of the parliament, the executive, and the judiciary. The document also 
expressed support for universal human rights and emphasized that 
religious minorities should be able to practice their religion freely 
and enjoy their rights as citizens in full equality with the majority. 
Some human rights groups have expressed concern over the document's 
vagueness, pointing out the lack of safeguards needed to prevent human 
rights abuses. Moreover, while both the January 2012 and June 2011 
documents call for full respect and protection of the three ``heavenly 
religions''--Judaism, Christianity, and Islam--no other faiths in Egypt 
were mentioned.

    U.S. Policy
    For many years, U.S. policy toward Egypt had focused on fostering 
strong bilateral relations, continuing security and military 
cooperation, maintaining regional stability, and sustaining the 1979 
Camp David peace accords. Successive administrations viewed Egypt as a 
key ally in the region. Until a few years ago, Egypt was the second 
largest recipient of U.S. aid; it now ranks fourth, behind Afghanistan, 
Israel, and Pakistan. In recent years, including during the reporting 
period, the Obama administration and Congress have increased efforts to 
urge the Egyptian government to make more expeditious progress on 
economic and political reforms, including on human rights and religious 
freedom issues. During the past year, the relationship encountered a 
number of challenges, the most serious of which started in December 
2011 when Egyptian authorities raided the offices of five foreign pro-
democracy NGOs, four of which are American, and subsequently charged 
staff members with working without a license and receiving unauthorized 
foreign funding.
    During the first few days of the January 2011 uprisings in Egypt, 
the Obama administration remained supportive of the Mubarak regime. 
Secretary of State Hillary Clinton expressed confidence that the regime 
was stable and urged peaceful protests by the Egyptian people. As the 
demonstrations continued and grew, high-level U.S. government officials 
expressed concern about incidents of government violence against 
peaceful protestors, and President Obama advocated that Mubarak step 
down. Mubarak did so on February 11, 2011. In March 2011, Secretary of 
State Hillary Clinton visited Egypt and the U.S. government announced 
that $100 million in unspent economic support funds were being 
reprogrammed to support economic growth and development, in addition to 
$65 million being reprogrammed to support democratic development in 
Egypt.
    In the current reporting period, the U.S. government highlighted 
religious freedom concerns in Egypt through public statements and 
remarks more frequently than in previous years. For example, in January 
2012, Deputy Secretary of State William Burns and Assistant Secretary 
of State for Democracy, Human Rights and Labor Michael Posner each 
publicly raised a number of religious freedom issues while visiting 
Egypt. On January 6, 2012, President Obama released a statement on 
Coptic Christmas eve asserting that in Egypt and elsewhere ``freedom of 
religion, the protection of people of all faiths, and the ability to 
worship as you choose are critical to a peaceful, inclusive and 
thriving society.'' In October 2011, statements from both President 
Obama and Secretary of State Clinton expressed deep concern about the 
Maspero violence and called for a prompt investigation, including into 
allegations of excessive security and police force. On May 19, 2011, 
President Obama delivered a major policy speech on the Middle East and 
North Africa and specifically raised the importance of freedom of 
religion, respecting religious minorities, and the plight of Coptic 
Christians in Egypt. On January 1, 2011, President Obama issued a 
strong statement condemning the New Year's Day bombing of a church 
targeting Christians in Alexandria and offered assistance to the 
Egyptian government to bring the perpetrators to justice.
    U.S. assistance reflects the recognition of Egypt's continued and 
crucial role in ensuring Arab-Israeli peace. P.L. 112-74, the 
Consolidated Appropriations Act of 2012, appropriated $1.3 billion in 
Foreign Military Financing (FMF) assistance and $250 million for 
Economic Support Fund (ESF) assistance. For the first time, the law 
requires the Secretary of State to certify that the Egyptian government 
is using the funds appropriated through the Foreign Military Financing 
program to support ``the transition to civilian government including 
holding free and fair elections'' and ``implementing policies to 
protect freedom of expression, association, and religion, and due 
process of law.'' The law also includes a national security interest 
waiver from the certification requirements. In seeking to meet the 
certification requirement, the State Department must report about 
positive progress and trends in Egypt only on the requirement about 
policies to protect freedom of religion. USCIRF worked with 
Congressional offices on including freedom of religion as one of the 
certification factors.
    In recent years, only a small portion of U.S. programming has 
supported initiatives in areas related to religious freedom, including 
funding for programs of the Coptic Evangelical Organization for Social 
Services that work with Coptic and Muslim community groups in Upper 
Egypt, as well as support for NGOs that monitor the country's media for 
sectarian bias.During the past year, the Obama administration reversed 
a controversial 2009 decision that restricted USAID funding for 
Egyptian civil society to those organizations whose official NGO 
registration has been approved by the Egyptian government. Direct 
grants to registered Egyptian NGOs previously had to be vetted by the 
Egyptian government. As a consequence, many new Egyptian NGOs did not 
seek formal registration, and instead formed a civil corporation, to 
avoid unnecessary government interference and oversight.
    In July 2011, the Egyptian government launched an investigation 
into U.S. funding of civil corporations, suggesting that it violates 
Egyptian law. This cast serious doubt on the ability of the U.S. 
government to support the programs and activities it was already 
funding. The investigations culminated in December 2011 with raids on 
the offices of four American, and one European, pro-democracy NGOs and 
confiscation of materials from these offices. In January 2012, the 
Egyptian government announced criminal charges against 43 personnel, 
including 16 Americans, and issued travel bans against those remaining 
in the country, including seven Americans. Despite Egyptian judicial 
authorities lifting the travel ban in late February, staff members from 
these NGOs, including from the International Republican Institute, the 
National Democratic Institute, and Freedom House, face criminal charges 
and possible prison terms for working illegally in the country without 
a license and receiving and using unauthorized foreign funding. Since 
the raids on NGOs in December, an increasing number of members of 
Congress have advocated cutting off all U.S. aid to Egypt, although, at 
the end of the reporting period, no measure has been passed in Congress 
prohibiting aid to Egypt.
    After former President Mubarak was removed from power, several 
congressional resolutions were introduced in the House and Senate in 
the 112th Congress to: encourage religious freedom (H.Res.459); express 
solidarity with the Egyptian people's democratic aspirations (H.Res. 
88); respect human rights and the freedoms of religion and expression 
(H.Res. 200); support democracy, universal rights and the peaceful 
transition to a representative government (S. Res. 44); condemn the New 
Year's day attack on the Coptic church in Alexandria and urge the 
Egyptian government to investigate and prosecute the perpetrators 
(S.Res.22); and support democracy, human rights, and civil liberties 
(S. Res. 586).
    In September 2011, in its most recent International Religious 
Freedom report, the State Department again concluded that religious 
freedom conditions remained poor, similar to its 2010 conclusion. From 
2007 to 2009, the State Department reported that religious freedom 
conditions in Egypt had declined. This assertion did not result in any 
significant change in U.S. policy towards Egypt other than the increase 
in public comments and statements discussed above.
Recommendations
    As described above, the Egyptian government has engaged in and 
tolerated religious freedom violations during the transition period. 
During the reporting period, violence targeting Coptic Orthodox 
Christians increased and the Egyptian government failed to convict 
those responsible for the violence. In addition, the Egyptian 
government has failed to protect religious minorities from violent 
attacks during the transitional period when minority communities have 
been increasingly vulnerable. During the transition period, military 
and security forces used excessive force and live ammunition targeting 
Christian demonstrators and places of worship resulting in dozens of 
deaths and hundreds of injuries. Despite claims by the Supreme Council 
of Armed Forces that it dismantled the state security apparatus, 
partially lifted the state of emergency, and addressed some ongoing 
religious freedom concerns, discriminatory laws and policies continue 
to have a negative impact on freedom of religion or belief in Egypt.
    Accordingly, based on the Egyptian government's systematic, 
ongoing, and egregious religious freedom violations, USCIRF is 
recommending for the second year in a row that Egypt be designated a 
country of particular concern, or CPC. Pursuant to the Consolidated 
Appropriations Act of 2012 (P.L. 112-74), the U.S. government should 
not certify the disbursement of military assistance to Egypt until the 
Egyptian government demonstrates that it is using the funds 
appropriated through the Foreign Military Financing program to 
implement policies that protect freedom of religion and related human 
rights in Egypt. The U.S. government also should direct a portion of 
existing military assistance and emergency economic assistance to 
enhance security for religious minority communities. In addition, the 
United States should press the Egyptian transitional government, as 
well as the future civilian government and newly elected parliament, to 
implement a series of reforms to advance freedom of religion or belief 
and related human rights.

I. Withholding Military Assistance and Directing a Targeted Amount of 
Military and Economic Assistance During Egypt's Transition

    In addition to designating Egypt as a CPC, the U.S. government 
should:
    <bullet>  pursuant to the Consolidated Appropriations Act of 2012 
(P.L. 112-74), not certify the disbursement of the appropriated $1.3 
billion in Foreign Military Financing (FMF) to Egypt until the Egyptian 
government demonstrates that it is using FMF funds to implement 
policies that protect freedom of religion and related human rights in 
Egypt;
    <bullet>  once the Egyptian government so demonstrates, ensure that 
a portion of the FMF funding for the Egyptian government is used to 
help the Egyptian police assess security needs and develop and 
implement a comprehensive and effective plan for dedicated police 
protection for religious minority communities and their places of 
worship, particularly Coptic Orthodox Christians, Sufi Muslims, and 
Jews, in consultation with these communities' representatives; and
    <bullet>  conduct or support specialized training, either in Egypt 
or abroad, for Egyptian military and police forces on human rights 
standards and non-lethal responses to crowd control and to quell 
sectarian violence.

    The U.S. Congress should:

    <bullet>  require the Departments of State and Defense to report 
every 90 days on the Egyptian transitional government's progress on the 
issues described in this section.

II. Ensuring that Responsibility for Religious Affairs Not Fall Within 
the Jurisdiction of the New Egyptian Domestic Security Agency

    The U.S. government should urge the Egyptian government to:
    <bullet>  repeal fully the state of emergency, in existence since 
1981, in order to allow for the full consolidation of the rule of law 
in Egypt;
    <bullet>  ensure that de facto responsibility for religious affairs 
does not fall under the jurisdiction of the domestic security agency, 
with the exception of espionage cases or cases involving the use or 
advocacy of violence, including conspiracy to commit acts of terror;
    <bullet>  pass a unified law that would subject all places of 
worship to the same transparent, non-discriminatory, and efficient 
regulations regarding construction and maintenance, and continue to 
take special measures to preserve and restore Coptic Orthodox and other 
Christian properties and antiquities that have been subject to societal 
violence and official neglect; and
    <bullet>  consistent with the March and December 2011 resolutions 
of the UN Human Rights Council and the UN General Assembly on 
``combating intolerance, negative stereotyping and stigmatization of, 
and discrimination, incitement to violence, and violence against 
persons based on religion or belief,'' repeal Article 98(f) of the 
Penal Code, which ``prohibits citizens from ridiculing or insulting 
heavenly religions or inciting sectarian strife'' and, in the interim, 
provide the constitutional and international guarantees of the rule of 
law and due process for those individuals charged with violating 
Article 98(f).

III. Implementing Additional Reform in Order to Comply with 
International Human Rights Standards

    The U.S. government should urge the transitional Egyptian 
government and newly elected parliament to:
    <bullet>  ensure that a new constitution has robust protections for 
the right to freedom of religion or belief consistent with 
international human rights law, including:
          recognizing the universal right to the freedom of thought, 
        conscience, and religion or belief for every individual and 
        every religious or belief community;
          recognizing that each person's freedom to hold and to 
        manifest any religion or belief, or not to hold any religious 
        belief, should not be limited, aside from the narrow exceptions 
        delineated in international law;
          affirming that the right to freedom of religion or belief 
        includes the right to have, adopt, or change one's own religion 
        or belief without coercion and to manifest it publicly, as well 
        as to persuade others to change their beliefs or affiliations 
        voluntarily;
          ensuring that the rights and benefits of citizenship are not 
        limited to individuals belonging to particular religious 
        communities; and
          ensuring that all persons are equal before the law and are 
        entitled to the equal protection of law, regardless of religion 
        or belief, and guaranteeing all persons equal and effective 
        protection against discrimination on religious grounds;
    <bullet>  ensure the neutral non-discriminatory application of any 
laws according legal status and benefits to religious communities, even 
if one faith is declared as the official state religion;
    <bullet>  establish a special unit in the Office of the Public 
Prosecutor dedicated to investigating acts of violence against Egyptian 
citizens on the basis of religion or belief, vigorously prosecuting and 
bringing to justice perpetrators, and ensuring compensation for 
victims;
    <bullet>  address incitement to imminent violence and 
discrimination against disfavored Muslims and non-Muslims by:
          prosecuting in regular criminal courts government-funded 
        clerics, government officials, or individuals who incite 
        violence against Muslim minority communities or individual 
        members of non-Muslim religious minority communities;
          disciplining or dismissing government-funded clerics who 
        espouse intolerance;
          publicly and officially refuting incitement to violence and 
        discrimination by clerics and the government-controlled media 
        against Muslim minority communities, such as the Qur'anists, 
        and members of non-Muslim religious minorities, such as 
        Baha'is; and
          rescinding any previously-issued fatwas by Al-Azhar that are 
        discriminatory toward or incite violence against Muslim 
        minority communities or non-Muslim religious minority 
        communities;
    <bullet>  discontinue the use of reconciliation sessions as a 
bypass for punishing perpetrators, commensurate with the gravity of the 
crime and in accordance with the rule of law;
    <bullet>  practicing their faith, officially grant legal 
personality to these and other minority faiths, and permit these faiths 
to congregate in public places of worship without government 
interference;
    <bullet>  remove mention of religious affiliation from national 
identity documents;
    <bullet>  cease all messages of hatred and intolerance in the 
government-controlled media and take active measures to promote 
understanding and respect for members of minority religious 
communities;
    <bullet>  take all appropriate steps to prevent and punish acts of 
anti-Semitism, including condemnation of anti-Semitic acts, and, while 
vigorously protecting freedom of expression, counteract anti-Semitic 
rhetoric and other organized anti-Semitic activities;
    <bullet>  permit any Egyptian citizen to learn voluntarily the 
Coptic language in the public school system; and
    <bullet>  investigate claims of police negligence and inadequate 
prosecution of those involved in the Al-Kosheh case, as well as other 
recent instances of violence targeting individuals on account of their 
religion or belief, particularly members of the vulnerable Coptic 
Orthodox Christian community.

IV. Ensuring that U.S. Government Aid Promotes Prompt and Genuine 
Political and Legal Reforms and is Offered Directly to Egyptian Civil 
Society Groups

    The U.S. government should:
    <bullet>  provide direct support to human rights and other civil 
society or non-governmental organizations (NGOs) without vetting by the 
Egyptian government;
    <bullet>  urge the Egyptian government to ensure that NGOs engaged 
in human rights work can pursue their activities without government 
interference, and monitor and report to what extent this is 
accomplished; and
    <bullet>  expand support of initiatives to advance human rights, 
promote religious tolerance, and foster civic education among all 
Egyptians, including support for:
          revising all textbooks and other educational materials to 
        remove any language or images that promote enmity, intolerance, 
        hatred, or violence toward any group of persons based on faith, 
        gender, ethnicity, or nationality, and including the concepts 
        of tolerance and respect for human rights of all persons, 
        including religious freedom, in all school curricula, 
        textbooks, and teacher training;
          civic education and public awareness programs that reflect 
        the multi-confessional nature of Egyptian society and the 
        diversity of Egypt's religious past;
          efforts by Egyptian and international NGOs to review Egyptian 
        educational curricula and textbooks for messages of hatred, 
        intolerance, and the advocacy of violence, and to monitor equal 
        access to education by girls and boys regardless of religion or 
        belief; and
          preserving and restoring Egyptian Jewish properties and 
        antiquities in publicly accessible sites.

V. Promoting Freedom of Religion and Belief and Related Human Rights in 
Multilateral Fora

    The U.S. government should:
    <bullet>  call on the Egyptian government to comply with and fully 
implement recommendations from the UN Human Rights Council's February 
2010 Universal Periodic Review of Egypt, including those related to 
freedom of religion or belief; and
    <bullet>  urge the Egyptian government to invite, provide specific 
dates, and admit UN special procedures mandate holders who are waiting 
for an invitation, including the UN Special Rapporteur on Freedom of 
Religion or Belief, the UN Special Rapporteur on Human Rights 
Defenders, and the UN Special Rapporteur on Torture.
Dissenting Statement of Commissioner al-Hibri:
    So much is happening is Egypt this year. The peaceful revolution 
has been unfortunately marred by violence that spread across Egypt from 
Maspero to Aswan to Port Said. Over 850 Egyptians have died during this 
period, around 6,000 were injured, and the dust has not settled yet. 
The transitional military government has not done enough to stem the 
violence and, as the report points out, together with the official 
media, it encouraged sectarian violence by counterrevolutionaries and 
extremists in Maspero.
    At the same time, al-Azhar, the venerable religious institution, 
extended its hand in dialogue to the Coptic leadership, including the 
late Pope Shenouda. Also, Egyptians spoke loud and clear in the streets 
and on private television, rejecting sectarian and other violence. The 
photo on the cover of the report shows average Egyptians, Muslim and 
Coptic, mourning the victims of the Maspero violence. Many Egyptians 
carried signs saying ``Muslim + Christian= Egyptian.''Now Egyptians are 
voting for a new parliament, and a new government and constitution. I 
believe in the fundamental fairness of the Egyptian people and their 
ability to ultimately rebuild a nation based on religious freedom. 
After all, this is a tradition that has deep roots in their history.
    For this reason, I respectfully dissent from designating Egypt as a 
CPC at a time when the whole nation is undergoing indiscriminate 
violence. I would also revisit the situation after the election of a 
democratic government and the drafting of the new constitution.
  Prepared Statement of Michele Clark, Adjunct Professor, the Elliott 
   School of International Affairs, The George Washington University
    Mr. Chairman, it is an honor to be invited to testify once more on 
this most important issue of the disappearances, forced conversions and 
forced marriages of Coptic Christian women and girls. I would like to 
express my thanks to the Commission for holding this hearing and 
launching this new report. I would also like to express my thanks to 
Christian Solidarity International, and in particular to Dr. John 
Eibner, CEO, for championing this issue and sponsoring the research and 
writing of the report we are discussing here. I would also like to 
express my thanks to Nadia Ghaly, the co-author of this report, who is 
not able to be here today, for her invaluable collaboration in this 
effort.
    My testimony is based directly on the report introduced today, 
``The Disappearance, Forced Conversions and Forced Marriages of Coptic 
Christian Women and Girls in Egypt II'', and I would therefore like to 
request that the report be included along with my testimony into the 
record of these hearings.
    Coptic women in Egypt are disappearing from their homes, their 
schools and their jobs. They go missing while returning from church, 
picking up their children from school or traveling to the sick bed of 
an aging parent. They are often held as captives, subjected to physical 
and psychological abuse in the form of rapes, beatings, domestic labor 
without pay, forced marriage and conversion to Islam. Their lives, and 
the lives of their families, are severely damaged.
    The Egyptian government has distanced itself from any 
responsibility or culpability. Those who dispute these claims assert 
that the disappearances are merely willful acts of young women seeking 
to leave oppressive home environments and that there is no criminal 
activity involved.
    To investigate these claims, Christian Solidarity International and 
the Coptic Foundation for Human Rights Commissioned a report written in 
November 2009 which asserted that Coptic women and underage girls are 
deceptively lured into forced marriages with Muslim men and conversion 
to Islam; that the Egyptian authorities dismiss the criminality of such 
events; that the young women are presumed to be complicit in their 
disappearances; that the disappearances follow consistent patterns; 
that the Egyptian government rarely restores their Christian identities 
to women who have been forcibly converted to Islam.
    This report marked the beginning of renewed discussion on the 
topic, including a hearing in front of this very Commission last 
summer.
    Other US Government agencies were more skeptical.
    For example, the 2010 US Department of States Annual Trafficking in 
Persons Report referenced our report, and stated that ``During the 
reporting period, an international NGO released a report about alleged 
forced marriages of Coptic females in Egypt, indicating an allegation 
of forced prostitution, though the allegations have not been 
confirmed.''
    The 2010 Department of State's International Religious Freedom 
Report also referred to our report, stating,

        ``As in previous years, there were occasional claims of Muslim 
        men forcing Coptic women and girls to convert to Islam. Reports 
        of such cases were disputed and often included inflammatory 
        allegations and categorical denials of kidnapping and rape. In 
        November 2009 an international Christian advocacy group 
        published a report regarding alleged cases of forced 
        conversion; however, well-respected local human rights groups 
        were unable to verify such cases and found it extremely 
        difficult to determine whether compulsion was used, as most 
        cases involved a female Copt who converted to Islam when she 
        married a male Muslim. Reports of such cases almost never 
        appear in the local media.''

    Before entering in the details of the new report, I would like to 
make one important point: Claims that all disappearances are the result 
of impulsive behaviors and not abduction reflect a misunderstanding of 
the force, fraud and coercion that are characteristic of the 
relationships between young Coptic women and girls and their captors. 
Both Nadia Ghaly and I recognize that not all disappearances are the 
result of abductions, that not all marriages are forced, and that some 
conversions can be consensual. We have spoken with a young woman who 
quite candidly left her husband because he beat her while her make 
Muslim neighbor was kind. She eventually returned to her family.
    However, and notwithstanding the ambiguity of many situations we 
encountered, we claim that it is not possible to dismiss each case in 
the 2009 report on the grounds that the girls willingly and left their 
families.
    And, since this first report, it is possible to say that stories of 
abductions and disappearances of Coptic women and girls are for the 
first time garnering attention in the mainstream media. On December 15, 
2010, the BBC aired a documentary entitled, ``Christian Minority under 
Pressure in Egypt.'' In the opening scene, a father relates to the 
interviewer that there will be no Christmas in their home this year; 
their daughter, who loved Christmas, was abducted and has never 
returned.
    On June 15, 2011, Yasmin el Rashdi, writing New York Review of 
Books on June 15, 2011, quotes a parish priest who raises the issue of 
the disappearance of young Coptic women.

        ``There are no sizable attacks,'' he said, ``but each week 
        there are incidents of women having the cross grabbed from 
        their necks as they walk in the streets. In this very 
        neighborhood people are still being insulted as they leave 
        church; and we still have young girls disappearing, kidnapped, 
        being harassed for what they are wearing or for bearing the 
        cross tattooed on their wrists.''

    Since the publication of our first report, the political landscape 
has changed considerably in Egypt. The Coptic community has become more 
vulnerable to persecution as a result of an upsurge in militant Islam 
following the overthrow of President Hosni Mubarkek. Emigration is 
increasing and asylum petitions in both the United States and other 
countries are on the rise. Young Coptic women are particularly 
vulnerable. Exploitation thrives in times of political unrest.
    Among the most vulnerable members of this beleaguered community are 
women and young girls. Young Coptic women are applying for asylum on 
the basis of fear of being abducted and forced to convert and marry. In 
September 2011, I testified in federal court as an expert witness in 
one such asylum case. Asylum was granted for a young Coptic woman on 
the basis of fear of being abducted should she return. Other 
immigration lawyers attest to recent favorable asylum decisions based 
on threat or fear of abduction. We have here, as witnesses in this 
hearing, two young women who have sought and received asylum because of 
abduction and fear of abductions. These cases are not allegations.

A SECOND REPORT

    Concerned with the escalating violence against the Copts in Egypt 
and dissatisfied with the lack of response from the US Government, 
Christian Solidarity International commissioned a second report, which 
we are launching here today. This new report substantiates our earlier 
findings. In addition, we have observed changes in trends and patterns, 
which reinforce the pre-meditation of the captors.
    The goal of our second report is straightforward: To continue to 
support the claims of disappearances, abductions and forced conversions 
and forced marriages of Coptic women in Egypt and continue to challenge 
the use of the term "allegation" in US government reports.
    The new findings in the report are based on:

        1. Interviews with four Egyptian lawyers. These lawyers 
        provided access to claims filed by families on behalf of Coptic 
        women who had disappeared as well as young women who had 
        returned from a forced marriage and conversion and were 
        attempting to regain their Christian identities;
        2. Interviews with representatives of civil society 
        organizations;
        3. Interviews with family members of young women who have 
        disappeared. Some of these individuals are represented by 
        attorneys;
        4. A review of Internet sites reporting the disappearance of 
        Coptic girls. The authors considered only those cases with 
        appropriate documentation, including police reports.
        5. Interviews with women who have returned from a forced 
        marriage and conversion.

    All interviews were conducted from November 16-25, 2011, in Cairo, 
Egypt. Only verifiable cases are included in this report. Each of these 
cases is verifiable through attorney files, personal interviews and 
police reports. The real names of young women and their family members 
and other identifying details are not published in this report in order 
to protect their identities.

KEY FINDINGS

1. The number of disappearances and abductions appear to be increasing. 

    Exact numbers of cases throughout the country are difficult to come 
by for reasons analyzed below. However, each of the attorneys 
interviewed for this report indicated an increase in his caseload since 
January 2011. Four attorneys collectively report a total of over 550 
cases of abductions, disappearances and petitions to restore Christian 
identity following abductions, forced marriages and forced conversions 
over a five-year period. Furthermore, one attorney interviewed for this 
report indicates first-hand knowledge of over 1,600 cases of Christians 
petitioning to have their conversions to Islam overturned in recent 
years, with 60% of this number being women; in other words, 960 women 
are petitioning to have their Christian identities restored.
Data Collection Challenges
    There is no systematic data repository within the Coptic community 
documenting the disappearances of young women. Priests or bishops keep 
records of activities within their churches and communities. Attorneys 
maintain their own caseloads. Activists maintain different websites but 
there is no cross-referencing with other data sources.
    Families of victims do not report all cases. The police do not 
register all complaints filed by family members. In many cases, family 
members of missing young women reported that the police would not file 
a report until a lawyer intervened. In other cases, families do not 
file reports because they do not believe that their claims will be 
taken seriously or because they fear retribution by the authorities. 
Not all families are financially able to secure the services of an 
attorney; while not a guarantee of results, the presence of an attorney 
would at least enable the filing of a legitimate claim.

2. Fewer girls appear to be returning to their families
    Our 2009 report focused on young women who had returned from forced 
marriages and conversions and were struggling to regain their Christian 
identities. They reported instances of abuse and forced domestic 
servitude; one women reported being prostituted by her captor. Since 
then, there has been a discernible change in the dynamics of the 
disappearances of young Coptic women. Attorneys handling such cases 
report that fewer young women are being returned to their families. 
There is speculation that young women might be trafficked overseas, but 
attorneys and activists have not yet been able to document this 
phenomenon.

3. Social Media
    Many families are learning about their daughters' conversion to 
Islam through new Internet sites which document the conversion to Islam 
of Christian girls. Increasing websites are appearing which feature 
fully veiled young Coptic women and girls announcing their conversion 
to Islam. On the other hand, Coptic families are beginning to post 
announcements of disappearances also on the internet.

4. Minors and mothers of young children appear to be increasingly 
targeted.
    In addition to disappearances of single young women over the age of 
18, lawyers report an increase in the abductions of mothers with young 
children. While the age of consent to convert to a different religion 
is eighteen in Egypt, there are increasing reports that children of 
mothers who are forced to convert are also registered as Muslims. Even 
if a mother returns to her community, the children are considered by 
law to be Muslim and will remain Muslim.

5. Disappearances are organized and planned.
    Attorneys, social workers and members of the clergy interviewed for 
this and the previous report all attest to organized and systematic 
planning in cases of missing Coptic women. Tactics to lure young women 
into relationships follow similar patters throughout the country. One 
lawyer interviewed for this report stated that the same man's name 
occurred in several police reports; he married five Christian women who 
subsequently converted to Islam. Family members report that their 
daughters or sisters were befriended by a schoolmate, a neighbor, or an 
older mother figure over time. Lawyers indicate that their clients 
report that the families of the captors benefited materially; 
frequently, family members were provided with new apartments or 
furniture, and unemployable young men were given jobs.

6. Abductors target vulnerable women and girls, and girls in vulnerable 
and unprotected moments.
    The concluding observations of the UN's Commission on the 
Elimination of all Forms of Discrimination against Women (CEDAW) 
express concern ``at the very limited information and statistics 
provided about vulnerable groups of women and girls'' in Egypt.
    Coptic women and girls are vulnerable in the following ways:
        1. They are members of a religious minority.
        2. They come from closed, insular communities.
        3. Their minority status is the basis for legal and social 
        discrimination
    Coptic women and girls are vulnerable because of their minority 
status, yet little effort is made by the Egyptian Government to 
document this vulnerability or its consequences.

7. Captors sever contact between victims and their families.
    The first task of the captor is to come between a young woman and 
members of her family. They can do this by force, taking away her phone 
and family connections. They lock her up, denying her any mobility. 
They threaten her, telling her that, even if she runs away, her family 
will never accept her; they will punish her and put her in a monastery. 
Eventually a young woman is brainwashed and believes that she will be 
safe only with her Muslim captor. Ultimately, she will be truly safe 
only if she converts to Islam. Because there is no obligation for a 
Christian woman who marries a Muslim man to convert to Islam, one 
attorney claims that conversion is the ultimate goal of the captivity.

8. Captors make use of measures involving force, fraud and coercion.
    A young woman consents to a glass of sugar cane juice and the 
attention of a man whose words promise a life of love, ease and 
provision. Another woman shares a with a mother who is also waiting for 
children after school. And a third seeks friendship and escape from a 
harsh and sometimes abusive home environment. Victims who have not 
literally been abducted nonetheless did not consent to being ripped 
from their family without the possibility of ever seeing them again; 
nor do they consent to being forcibly converted to a religion other 
than their own. They do not consent to a life of captivity within one 
small apartment, every outing supervised by a member of her new 
husband's family. They said yes to the things that young women say yes 
to: friendship, romance, hope, a future, safety and security. It is 
reasonable to expect that most young women would respond in precisely 
the same way as many young Coptic girls responded to these offers of 
friendship or romance.
RECOMMENDATIONS
    In developing recommendations for this report, the authors 
consulted with attorneys and civil society actors in Egypt in order to 
assess what government actions might support their efforts to protect 
Coptic women from falling into captivity and, as a result, into forced 
marriages and conversions. There was considerable consensus as to steps 
that the government might take.

    Egyptian Government

        1. Local police stations will take seriously and file reports 
        on all claims of disappearance of Coptic women and girls. All 
        claims will be investigated and family members kept appraised 
        of the progress of each of these cases.
        2. The Egyptian national government will request an annual 
        accounting of all cases of disappearances including open and 
        ongoing cases as well as any prosecutions that resulted from 
        local police investigations.
        3.The Egyptian government will create a registry to document 
        the disappearance of minors.
        4.Children of parents who convert will retain the religion of 
        their birth until they are 18 years of age, the legal age of 
        consent.
        5.The legal age for conversion to Islam will be raised to 18, 
        which is the age of legal consent in Egypt.
        6.Laws which penalize discrimination based on religion in the 
        areas of education, employment and the media will be enacted.

    Coptic Church

        1. The Coptic Church will maintain a central registry 
        documenting instances of disappearances, abductions and forced 
        marriages and conversions of Coptic women.
        2. The Coptic Community will educate families and young women 
        on the recruitment and deception patterns that lead to 
        captivity.

    International Community

        1. A legal defense fund will be created to enable Coptic 
        families to secure the presence of an attorney.
        2. International or national agencies assessing the situation 
        of Coptic women in Egypt will recognize that coercion and fraud 
        are represented in most cases of disappearance, forced 
        marriages and forced conversions, all of which obviate the 
        consent of the victim.
        3. International organizations will recognize both the scope 
        and scale of the problem and no longer refer to such offenses 
        as mere ``allegations.''

    Mr. Chairman and members of the Commission, I thank you for your 
time and interest in this very important matter. I look forward to 
answering your questions.
                   ``TELL MY MOTHER THAT I MISS HER''
 The Disappearance, Forced Marriages and Forced Conversions of Coptic 
                     Christian women in Egypt (II)
                               July 2012
    A Report Commissioned by Christian Solidarity International, 
Written by Michele Clark and Nadia Ghaly

    [The title is a direct quote from a young Coptic woman. Her father 
recorded a telephone conversation in which he was able to talk to her 
after her abduction.]
INTRODUCTION
    In November 2009, Christian Solidarity International (CSI) and the 
Coptic Foundation for Human Rights (CFHR) published a pioneering report 
entitled The Disappearance, Forced Conversions and Forced Marriages of 
Coptic Christian Women in Egypt, co-authored by anti-trafficking expert 
Michele Clark and Coptic human rights activist Nadia Ghaly. \1\
---------------------------------------------------------------------------
    \1\  Michele Clark & Nadia Ghaly, The Disappearance, Forced 
Conversions and Forced Marriages of Coptic Christian Women in Egypt, 
Christian Solidarity International and Coptic Foundation for Human 
Rights, November 1999. http://www.csi-int.org/pdfs/
csi_coptic_report.pdf.
---------------------------------------------------------------------------
    The purpose of the report was to stimulate action-oriented 
discussion within the international human rights community, especially 
within major anti-trafficking and religious liberty institutions, where 
the issue had hitherto been a taboo, touching, as it does, a raw 
religio-political nerve in both the Islamic world and the West.
    News of disappearances and forced marriages and conversions began 
to reach the West in the 1970s. At that time, Egypt's President Anwar 
Sadat had unleashed forces of Islamism in the hope of strengthening the 
social and cultural foundations of the Egyptian state, following the 
failure of the socialist Pan-Arab ideology of his predecessor, Gamal 
Abdel Nasser. In 1976, two years before Sadat ordered his arrest and 
internal exile, the head of the Coptic Orthodox Church, the late Pope 
Shenouda III, protested against the abuse of Christian females, 
reportedly stating: ``There is pressure being practiced to convert 
Coptic girls to Islam and marry them under terror to Muslim husbands.'' 
\2\ On March 16, 2004, the Coptic Pope again addressed this issue, 
indicating that he had received ``countless'' letters of complaint, and 
urged the police to investigate cases. \3\
---------------------------------------------------------------------------
    \2\  Mary Abdelmassih. ``Family of Abducted Christian Coptic 
Teenager Assaulted by Muslim Mob,'' AINA, Cairo, June 9, 2009.
    \3\ ``Coptic Pope Denounces Forced Conversion of Coptic Girls,'' US 
Copts Association, March 25, 2004, http://groups.yahoo.com/group./
OrthodoxNews/message/671. Cornelius Hulsman, ``Blowing Up Rumors on 
Forced Conversions of Coptic Girls,'' Arab-West Report, July 26, 2008, 
www.arabwestreport.info/year-2004/week-12/17-blowing-rumors-forced-
conversions-coptic-girls.
---------------------------------------------------------------------------
    In 1999, a Freedom House report on religious liberty in Egypt, 
based largely on a fact-finding mission, stated:
        There are credible reports from many areas of Egypt that 
        militant Muslims kidnap or manipulate Christian girls into 
        converting. This can even involve girls below the legal age in 
        Egyptian law at which a person can change his or her religion. 
        \4\
---------------------------------------------------------------------------
    \4\ Egypt's Endangered Christians, A Report by the Center for 
Religious Freedom of Freedom House, 1999, p. 51.
---------------------------------------------------------------------------
    The 21st century has seen a dramatic increase in cases reaching 
Egyptian lawyers and Coptic human rights organizations.
    The 2009 Clark and Ghaly report made an impact. The U.S. Department 
of State's Trafficking in Persons Report 2010 acknowledged such cases 
for the first time, stating:
        During the reporting period, an international NGO released a 
        report about alleged forced marriages of Coptic females in 
        Egypt, including an allegation of forced prostitution, though 
        the allegations have not been confirmed. \5\
---------------------------------------------------------------------------
    \5\ U.S. Department of State, Trafficking in Persons Report 2010, 
``Egypt.'' http://www.state.gov/j/tip/rls/tiprpt/2010/142759.htm
---------------------------------------------------------------------------
    The Department of State's International Religious Freedom Report 
also spoke to the issue for the first time in 2010, stating:
        As in previous years, there were occasional claims of Muslim 
        men forcing Coptic women and girls to convert to Islam. Reports 
        of such cases were disputed and often included inflammatory 
        allegation and categorical denials of kidnapping and rape. In 
        November 2009 an international Christian advocacy group 
        published a report regarding alleged cases of forced 
        conversion; however, well-respected local human rights groups 
        were unable to verify such cases and found it extremely 
        difficult to determine whether compulsion was used, as most 
        cases involved a female Copt who converted to Islam when she 
        married a male Muslim. Reports of such cases almost never 
        appear in the local media. \6\
---------------------------------------------------------------------------
    \6\ U.S. Department of State, International Religious Freedom 
Report 2010, ``Egypt'', p. 26, http://www.state.gov/documents/
organization/171733.pdf.
---------------------------------------------------------------------------
    The State Department's assertion that cases remain unverified, 
without providing evidence of an attempt to verify, appeared to be 
calculated to put a particularly sensitive political issue to rest, 
without regard for the well-being of the female victims. Therefore, CSI 
commissioned Ms. Clark and Ms. Ghaly to undertake a second fact-finding 
visit to Egypt in November 2011.
    All the cases in their new report, entitled Tell My Mother I Miss 
Her, are based on interviews conducted by the co-authors with victims, 
families members, church workers and to attorneys. All the cases have 
been reported to Egyptian authorities. Most are on-going cases in the 
Egyptian courts and, as such, all evidence a matter of record. Each 
case is documented and authentic. However, in order to protect the 
identity of victims and their families, all identifying information has 
been removed given that this report is intended for broad 
dissemination.
    Tell My Mother I Miss Her should be read in conjunction with the 
co-author's 2009 report.
    CSI's aim in publishing their latest finding remains constant. It 
is to:

        challenge human rights activists and institutions, especially 
        those whose mandate includes women's rights and trafficking in 
        persons, to undertake, as a matter of urgency, further research 
        into this form of gender and religious based violence against 
        Coptic women and girls in Egypt. \7\
---------------------------------------------------------------------------
    \7\ Clark & Ghaly, p. 1. http://www.csi-int.org/pdfs/
csi_coptic_report.pdf.

    The events of the so-called ``Arab Spring'' swept Egypt's President 
Hosni Mubarak out of power, but they have scarcely begun to address the 
deep-seated Muslim and male supremacism that permeates large swathes of 
Egyptian society and provides the cultural context of the forcible 
marriages and conversions. This twin-headed cultural hydra of contempt 
for women and for non-Muslims was on display during demonstrations at 
Tahrir Square when the western journalists Laura Logan (ABC News) and 
Caroline Sinz (France 3) were brutally sexually assaulted by mobs of 
men. In the case of Ms. Logan, the assailants accused her--
incorrectly--of being a Jew. \8\
---------------------------------------------------------------------------
    \8\ ``Lara Logan Breaks Silence on Cairo Assault,'' CBS 60 Minutes, 
April 28, 2011, http://www.cbsnews.com/2100-
18560_162_20058368.html?pageNum=2&tag=contentMain;contentBody. 
``Journalists Sexually Assaulted Covering Egypt Unrest,'' AFP, November 
24, 2011.http://www.google.com/hostednews/afp/article/
ALeqM5h9r5Rf6FcTkoaMQrBv-QN86b42Wg.
---------------------------------------------------------------------------
    The fact that Ms. Logan is American and Ms. Sinz is French 
guaranteed major media coverage and international condemnation. But 
Egyptian female victims, especially non-Muslims, do not command such 
media attention nor the sympathies of western policy-makers. The sexual 
abuse and servitude of non-Muslim women in Egypt tends to elicit ritual 
denials and obfuscations that are reminiscent of the customary public 
reaction to such abuse of non-white women in America during the days of 
racial segregation.
    In his historic message to the Muslim world, delivered from Cairo 
in June 2009, President Barack Obama stated:
        I am convinced that in order to move forward, we must say 
        openly things we hold in our hearts, and that too often are 
        said only behind closed doors. \9\
---------------------------------------------------------------------------
    \9\  ``Remarks by the President on a New Beginning,'' Cairo, June 
4, 2009. http://www. whitehouse.gov/the_press_office/Remarks-by-the-
President-at-Cairo-University-6-04-09/.
---------------------------------------------------------------------------
    CSI intends to continue researching this issue and to speak openly 
about it. We will also continue to encourage governmental and non-
government human rights institutions to do likewise, with or without 
legitimization from governmental institutions. Denial and obfuscation 
will neither help victimized Christian women, nor challenge the 
religious bigotry and sexism that impedes the development of democracy 
in Egypt.

John Eibner
CEO, Christian Solidarity International (CSI--USA)

EXECUTIVE SUMMARY
    Coptic women in Egypt are disappearing from their homes, their 
schools, and their places of work. They go missing while returning from 
church, picking up their children from school, or traveling to the sick 
bed of an aging parent. They are often held as captives, subjected to 
physical and psychological abuse in the form of rapes, beatings, 
domestic labor without pay, forced marriage and forced conversion to 
Islam. Their lives, and the lives of their families, are severely 
damaged.
    The Egyptian government and the international community have 
distanced themselves from any sense of urgency or malfeasance. 
Detractors claim that disappearances are nothing more than petulant 
acts of young women seeking to leave oppressive home environments and 
that there is no criminal activity involved. Claims of abductions, the 
detractors insist, are rather intended to deflect attention from the 
real causes of a young woman's behavior, stemming from feeling trapped 
in an extremely conservative religious and social tradition, or 
desiring a life with more material benefits as well as educational and 
personal opportunities.
    To address this issue, Christian Solidarity International and the 
Coptic Foundation for Human Rights commissioned a report written in 
November 2009 entitled ``The Disappearance, Forced Conversions and 
Forced Marriages of Coptic Christian Women in Egypt.'' The report 
conclusively stated that Coptic girls and women are deceptively lured 
into forced marriages with Muslim men and conversions to Islam; that 
the criminality of such activities is generally dismissed by the 
Egyptian authorities; that young women are presumed to be willing 
participants in such marriages and conversions; that the disappearances 
follow consistent patterns; that counseling sessions with members of 
their own clergy were no longer available to potential converts to 
Islam; that the Egyptian government does not restore the Christian 
identity of Coptic women who have returned to their communities of 
origin; that Coptic women are particularly vulnerable to deception and 
fraudulent practices; and that, while the Coptic Church does provide 
safe houses and shelters for some women, it is difficult for many to 
return to normal lives.
    Since the publication of the first report, the U.S. Department of 
State's Bureau for Democracy, Human Rights and Labor has devoted more 
attention to the phenomenon, but without confirming it as human 
trafficking. Meanwhile, the Coptic community has become more vulnerable 
to persecution on account of the upsurge of militant Islam following 
the overthrow of President Hosni Mubarak. Emigration is increasing and 
asylum petitions in both the United States and other countries are on 
the rise. Young Coptic women are particularly vulnerable. Exploitation 
often thrives during times of political unrest and internal chaos, 
where traditional law enforcement measures, however insufficient, are 
usually overtaxed and limited in scope. Lawyers, social workers and 
civil society activists report that they are seeing more 
disappearances. Four attorneys collectively report a total of over 550 
cases for the restoration of Christian identity following 
disappearances, forced marriages and forced conversions over a five-
year period, with cases escalating since January 25, 2011. Furthermore, 
one attorney interviewed for this report indicates first-hand knowledge 
of over 1,600 cases of Christians who had converted to Islam in recent 
years, and who are now petitioning to have their Christian identities 
restored. Of this number, 60% are women.
    Claims that all disappearances are the result of petulant behavior 
and not abduction reflect a misunderstanding of the relationships 
between the young women and their captors rather than an accurate 
analysis of the circumstances. This challenge has been repeatedly 
addressed, and not always successfully, in anti-trafficking discourse.
    The goal of this second report is straightforward: to challenge the 
notion that the testimony of victims is made up of mere allegations and 
to encourage the Government of Egypt and the international community to 
address the issue openly and responsibly.
    The authors of this report recognize that not all disappearances 
result from abductions, that not all marriages are forced and some 
conversions can be consensual. The authors spoke with a young woman who 
quite candidly admitted that she left her husband because he beat her 
while her male Muslim neighbor was kind. She eventually returned to her 
family.
    Notwithstanding the ambiguity of many situations, the authors 
maintain it is not possible to dismiss each documented case in the 2009 
report on the grounds that girls willingly and without being misled 
left their families.
    This new report substantiates and confirms the findings of the 2009 
publication. In addition, the authors have observed changes in trends 
and patterns, all of which continue to reinforce the pre-meditation of 
the captors. Only verifiable cases are included in this report. Each of 
these cases is verifiable through attorney files, personal interviews 
and police reports. The names of young women and their family members 
and other identifying details are not published in this report in order 
to protect their identities.

The Key Findings of the 2012 Report Are:

    <bullet>  The numbers of disappearances and abductions are 
increasing.
    <bullet>  Fewer girls are returning to their families.
    <bullet>  Social media is increasingly used to communicate a 
victim's status.
    <bullet>  Minors and mothers of young children are increasingly 
targeted.
    <bullet>  Abductions continue to be organized and planned.
    <bullet>  Captors target women and girls when they are unprotected 
and vulnerable.
    <bullet>  Captors sever ties between victims and their families.
    <bullet>  Captors make use of measures involving force, fraud and 
coercion.

Recommendations:

    This report builds on the recommendations of the earlier 
publication in seeking to guarantee the protection of minors, secure 
the cooperation of law enforcement in investigating and prosecuting 
reports of abductions and disappearances, and expedite reconversions to 
Christianity in instances of abductions.
THE DISAPPEARANCE OF COPTIC WOMEN IN EGYPT
    For over thirty years, reports of Coptic women being kidnapped, 
forcibly converted and married to Muslim men have been emerging from 
Egypt. What began as an issue supported by anecdotal evidence and kept 
alive by concerned family members, clergy and a few brave human rights 
attorneys and activists has not abated. Instead, it continues to 
surface, strengthened by growing numbers of verifiable cases. The 
disappearances, forced marriages and conversions of young Coptic women 
are now addressed by western governments and some media outlets. On 
October 27, 2011 the European Parliament issued a statement condemning 
the violence directed against the Copts in Egypt, and in particular, 
expressing concern ``about the kidnapping of Coptic girls who have been 
forced to convert to Islam.'' \1\ On December 15, 2010, the BBC aired a 
documentary entitled ``Christian minority under pressure in Egypt.'' 
\2\ In the opening scene, a father relates to the interviewer that 
there will be no Christmas tree in their home this year; their 
daughter, who loved Christmas, was abducted and has never returned, and 
the presence of a tree would be too painful. On June 15, 2011, the US 
Commission on Security and Cooperation in Europe (Helsinki Commission) 
convened three experts (including one author of this report) to testify 
at a hearing on the status of Egypt's Coptic Christians, with a focus 
on the abductions of young Coptic women.\3\ And finally, Yasmin El 
Rashdi, writing in the New York Review of Books on June 15, 2011, 
quotes a parish priest who raises the issue of the disappearance of 
young Coptic women.
---------------------------------------------------------------------------
    \1\  European Parliament News. Accessed at http://
www.europarl.europa.eu/news/en/pressroom/content/20111027IPR30446/html/
Parliament-stands-up-for-Christians-in-Egypt-and-Syria
    \2\  The documentary can be seen at: http://www.bbc.co.uk/news/
world-middle-east-12014779
    \3\  Full Transcript of the hearing is available at: http://
csce.gov/
index.cfm?FuseAction=ContentRecords.ViewTranscript&ContentRecord-
id=504&ContentType=H,B&ContentRecordType=H&CFID=59942414&CFTOKEN=3498795
1

        ``There are no sizable attacks,'' he said, ``but each week 
        there are incidents of women having the cross grabbed from 
        their necks as they walk in the streets. In this very 
        neighborhood people are still being insulted as they leave 
        church; and we still have young girls disappearing, kidnapped, 
        being harassed for what they are wearing or for bearing the 
        cross tattooed on their wrists.'' \4\
---------------------------------------------------------------------------
    \4\ El Rashdi, Yasmin. The Victorious Islamists. New York Review of 
Books. June 15, 2011. Accessed at http://www.nybooks.com/articles/
archives/2011/jul/14/egypt-victorious-islamists/?page=1

    Certainly, the climate is precarious for Egypt's 10 million-plus 
Copts. During the uprising that led to the resignation of President 
Mubarak, some Copts and Muslims stood arm in arm in Tahrir Square in 
Cairo, united in their efforts to end dictatorship. Today, Mubarak is 
gone. But the Copts have not fared well by his departure. Indeed, they 
are facing increasing persecution. The recent massacre at Maspero, in 
Cairo, where Egyptian armed forces attacked Christians engaged in a 
peaceful demonstration, augurs little favor for the future of Egypt's 
Coptic population. According to Nina Shea, international religious 
---------------------------------------------------------------------------
freedom expert:

        ``The real significance of this is that it signals the failure 
        of the Christian Coptic Community by the State. The military 
        was their last hope in protecting them from lawless forces in 
        society that were religiously motivated to [eradicate] them, 
        namely the Salafis. Now they know they have no protection. 
        [Furthermore] I think we can expect to see a major exodus of 
        Coptic Christians from Egypt. This is a watershed moment. The 
        whole reason they were in the streets was to protest lawless 
        forces. It extinguishes all hope for them. They are utterly 
        vulnerable.'' \5\

    \5\ Joan Frawley Desmond. ``Watershed Moment: Copts Killed in 
Violence: Nina Shea predicts a `major exodus' of Christians after 
deadly violence in Cairo.'' National Catholic Register. October 10, 
2011. Accessed at http://www.ncregister.com/site/print_article/30767/
---------------------------------------------------------------------------
    Almost as if on cue, two months later the Wall Street Journal 
reported that, since the events of January 2011, asylum applications 
into the US from Egyptian Copts have doubled. \6\
---------------------------------------------------------------------------
    \6\ ``Egypt's Embattled Christians See Room in America'' by Lucette 
Lagnado. The Wall Street Journal. Saturday, December 24, 2011.
---------------------------------------------------------------------------
    Among the most vulnerable members of this beleaguered community are 
women and young girls. Young Coptic women are applying for asylum on 
the basis of fear of being abducted and forced to convert and marry. In 
September 2011, Michele Clark, one of the authors of this report, 
testified in federal court as an expert witness in one such asylum 
case. Asylum was granted for a young Coptic woman on the basis of fear 
of being abducted should she return. Other immigration lawyers attest 
to recent favorable asylum decisions based on threat or fear of 
abduction. \7\
---------------------------------------------------------------------------
    \7\ Conversation with Caroline Doss, January 12, 2012. Ms. Doss, 
together with Ms. Clark and Mr. Jean Maher, testified before a US 
Helsinki Commission Hearing: ``Minority at Risk: Coptic Christians in 
Egypt'' - July 22, 2011

---------------------------------------------------------------------------
THE 2009 REPORT

    ``The Disappearance, Forced Conversions and Forced Marriages of 
Coptic Christian Women in Egypt,'' published in November 2009 by 
Christian Solidarity International and the Coptic Foundation for Human 
Rights and written by Michele Clark and Nadia Ghaly, documented 
disappearances, forced conversions and marriages among Egypt's Coptic 
minority. This report credibly positioned the plight of Coptic women as 
a challenge for the international community.
    The report was based on first-person interviews with young women 
who had been held against their will by Muslim captors, forced to 
convert and marry their captors and who, in some cases, were able to 
return to their families. Other sources of information included 
conversations with parish priests, monks and nuns at a monastery that 
provides shelter to women returning from abduction, and human rights 
attorneys who represent many of these young women as they attempt to 
regain their Christian identities. Police reports, attorney files and 
church/clergy records support each case.

    The main findings of the report were:

        1. Coptic women and girls are deceptively lured into forced 
        marriages with Muslim men and conversions to Islam. This 
        conclusion was reached through personal interviews with young 
        women who had returned from such situations, parish priests, 
        the head of a monastery providing shelter to over 50 women, and 
        an examination of court cases filed by human rights attorneys.
        2. Egyptian authorities dismiss the criminality of such 
        marriages and conversions. Young women are presumed to be 
        willing participants in the marriages and conversions. However, 
        these arguments do not take into consideration the role of 
        coercion in obtaining consent to marriage or conversion. Women 
        testify to fraudulent claims, the use of force, threats and 
        physical abuse, including rape and the forced removal of Coptic 
        tattoos. There were no reported cases of prosecution among all 
        reported cases. Islam allows a Muslim man to marry a Christian 
        woman without a conversion, so there is no apparent religious 
        need for these conversions.
        3. The disappearances of Coptic women and girls follow 
        consistent patterns that include deception, fraud and force. 
        Testimonies from returning women as well as family members and 
        attorneys indicate that means of enticement into a fraudulent 
        relationship followed specific patterns and involved the use of 
        women and men to build relationships of trust and dispel 
        resistance.
        4. Religious counseling sessions with members of a person's own 
        clergy prior to conversion to Islam are no longer required. 
        Such sessions were halted by the government in 2008 and have 
        not been reinstated.
        5. Coptic women face physical and psychological abuse before 
        and after their forced conversions and marriages. Abuse 
        includes beatings, isolation from family members, and 
        restrictions on personal freedom. Cases of ensnarement, rape 
        and physical abuse are rarely filed in court.
        6. The Egyptian Government does not restore the religious 
        identities of women who return to their communities and 
        families. As a consequence, these women are unable to marry 
        within their own communities and in many instances remain 
        marginalized.
        7. Coptic women and girls are vulnerable to deception and 
        fraudulent practices because of difficult home environments, 
        economic pressures and sheltered lives.
        8. The Coptic Church has developed some safe houses for 
        victimized women and girls. These centers, usually established 
        in monasteries, provide shelter and housing for young women 
        returning from a forced marriage and conversion.

    The Report also included recommendations for the Egyptian 
government, the Coptic Church and the international community. In 
particular, the report recommended that the Egyptian government
        1. Reinstate counseling sessions for those contemplating 
        conversion to Islam.
        2. Expedite the restoration of Christian identity cards and 
        legal Christian status to young women forcibly converted to 
        Islam.
        3. Investigate and prosecute all reports and allegations of 
        disappearances, abductions, rape and other acts of violence 
        against Coptic women.
LEGAL UPDATE
    In July 2011, Egypt's Supreme Administrative Court ruled that 
Christian converts to Islam could reconvert and be identified as 
Christians on their national identity cards and birth certificates. 
However, lawyers representing many Copts, the largest population 
affected by this decision, argue that similar decisions in the past 
have not been implemented and remain skeptical as to the potential for 
any real change. In fact, restoration of Christian identity cards has 
remained the exception. Lawyers document a double standard regarding 
conversions in Egypt. When a Christian converts to Islam, documents are 
processed with remarkable speed. In the case of conversions from Islam 
to Christianity, these lawyers report a process rife with red tape and 
obstructionism. This process also affects the children of Christian 
converts to Islam, who are automatically registered as Muslims when 
they reach the age of 16 regardless of whether or not their parents 
became reconverts to Christianity. \8\
---------------------------------------------------------------------------
    \8\ ``Court Allows Christian reconverts to state religion on ID 
cards.'' By Heba Fahmy. Daily News Egypt. July 4, 2011. Accessed at 
http://www.thedailynewsegypt.com/religion/court-allows-christian-
reconverts-to-state-religion-on-id-cards-dp3.html
---------------------------------------------------------------------------
NEW CHALLENGES
    Notwithstanding a growing body of evidence to substantiate 
allegations of deceptive and coercive practices regarding young Coptic 
women, the issue remains controversial, both in Egypt and abroad. Cases 
are normally publicized by the Coptic activist who most fervently 
reject the discriminatory conventions of dhimmitude, \9\ and who dare 
to cross the red lines drawn by Egypt's Islamic political and religious 
establishment. For these activists, the disappearance, forced marriage 
and forced conversion of Coptic women and girls is a tangible sign of 
the persecution to which Egypt's Christian community is subjected. One 
of the most prominent Coptic campaigners on behalf of these female 
victims is the journalist and human rights activist Magdy Khalil of the 
Middle East Freedom Forum. According to Khalil:
---------------------------------------------------------------------------
    \9\ Dhimmitude is the collective condition of dhimmi communities. 
Dhimmis are Christians, Jews and certain other non-Muslims whose 
communities have accepted--usually under duress--Muslim political and 
social supremacy according to the norms established by discriminatory 
Shariah law. See Bat Ye'or, The Dhimmi: Jews and Christians under 
Islam, Farleigh Dickenson University Press, 1985.

        Abducting and converting Coptic girls to Islam is not only a 
        result of the paranoid and racist incitation against the Copts, 
        but it is an organized and pre-planned process by associations 
        and organizations inside Egypt with domestic and Arab funding 
        as the main role in seducing and luring Coptic girls is carried 
        through cunning, deceit and enticement or through force if 
---------------------------------------------------------------------------
        required.

    As for the role of the Egyptian state, Khalil explains:

        The government does not meet to plan how to abduct Coptic 
        girls, but it is a conniver and a collaborate partner that 
        contributed in creating this environment. As for the actual 
        planning, it is carried out by individuals, groups, 
        associations, as well as Egyptian and regional organizations. 
        What the government plans for and implements is the 
        lateralization of the Copts within the Egyptian society. \10\
---------------------------------------------------------------------------
    \10\ ``Who is responsible for abducting Coptic Girls?'' Jihad 
Watch, August 26, 2005. http://www.jihadwatch.org/2005/08/magdy-khalil-
who-is-responsible-for-abducting-coptic-girls.html.
---------------------------------------------------------------------------
    Since the overthrow of President Mubarak, Coptic activists and 
families of missing girls have taken advantage of the broader space 
given to civil society by forming the Association of Victims of 
Abduction and Enforced Disappearance. On the 29th of February, 2012, 
they staged a public demonstration before the Egyptian parliament, 
chanting: ``Where is the rule of law,'' ``No for the Islamization of 
minors,'' and ``MPs, where are the rights of Copts?'' \11\
---------------------------------------------------------------------------
    \11\ Mohamed Abdel Salam & Joseph Mayton, ``Egypt's Copts protest 
`disappearance' of girls'', Bikya Masr, February 29, 2012, http://
bikyamasr.com/59521/egypts-copts-protest-disappearance-of-girls/
---------------------------------------------------------------------------
    The Copts, whose reflexes remain strongly conditioned by the age-
old violence and discrimination that are inherent in the conventions of 
dhimmitude are the most inclined to the respect the rules laid down by 
Egypt's Islamic authorities, and to downplay and depoliticize the 
plight of missing Coptic women and girls. Dr. Sherif Doss, a prominent 
physician and politician, is one Coptic leader who prefers not to 
highlight the issue. He explains that the victims are limited to young 
females who ``are not educated and have not learned to make wise 
decisions in life.'' \12\ Other Copts emphasize that repressive home 
environments, arranged marriages and strict prohibitions against 
divorce drive young Christian women into romantic relationships with 
Muslim men, which appear to offer freedom from a troubled past. \13\ 
These scenarios, they claim, imply consent and cast doubt on the use of 
force. Blaming the victim in rape and trafficking cases is a widespread 
cultural reflex in male-dominated societies where pinning blame on 
perpetrators runs the risk of serious consequences.
---------------------------------------------------------------------------
    \12\ Personal interviews with the authors. Cairo, Egypt. November 
18, 2011.
    \13\ Joseph Mayton, ``Missing Coptic Women May Send Distress 
Signals.'' WeNews, February 1, 2007. http://www.womensenews.org/story/
the-world/070201/missing-coptic-women-may-send-
distress-signals.
---------------------------------------------------------------------------
    One of the most the most vocal proponents of a dhimmitude-
conditioned response, Cornelis Hulsman, is not a native Egyptian, but 
is a Cairo-based Dutch sociologist and the publisher of Arab-West 
Report. He has established the Centers for Intercultural Dialogue and 
Translation and the Center for Arab-West Understanding, and through 
these instruments is active player in the foreign relations of the 
Egyptian state and church. \14\ Hulsman's Arab-West consortium has long 
campaigned against Copts who accuse Muslim men of using force to 
kidnap, marry and convert Coptic women and girls. ``[Such] stories'', 
Hulsman wrote in 2007,
---------------------------------------------------------------------------
    \14\  According to Hulsman, his Center for Arab-West Understanding 
obtained legal recognition as a Non-Governmental Organization through 
the backing of powerful representatives of the Mubarak regime, among 
them: the late Grand Sheikh of Al Ahzar Muhammad Sayyed Tantawi, 
Foreign Minister Ahmed Aboul Gheit, Minister of Islamic Endowments, 
Mahmud Hamdi Zaqzuq, and Arab League Secretary-General Amir Musa. 
http://www.cawu.org/?About_Us

        often reflect pre-existing deep anti-Muslim sentiments and 
        reinforce such sentiments. Most stories of Muslims forcing 
        Christian girls to convert to Islam fit this category. Such 
        stories create a boomerang effect, angry responses from Muslims 
        that could easily reflect on their relations with other 
        Christians who had nothing to do with this type of reporting. 
        \15\
---------------------------------------------------------------------------
    \15\ Cornelis Hulsman & Sawsan Gabra Ayoub Khalil, ``To Be an 
Effective Advocate for Peace, Media Distortions Must Be Addressed,'' 
Quaderns de la Mediterr`nia, no. 8, June 2007, p. 81. http://
www.iemed.org/publicacions/quaderns/8/q8_081.pdf

    Hulsman's coverage is animated by a declared commitment to combat 
reports that ``make the public believe Muslims target Christians, 
creating Christian self-pity and Muslim anger by using rumors, 
uninvestigated allegations, and [by] neglecting social, cultural and 
historical contexts.'' \16\ Arab-West Report claims to have 
``investigated around 200 of claims of forced conversion of Christian 
girls in Egypt and found not a single one of them to involve kidnap, 
i.e. the use of physical force to get young Coptic girls to convert to 
Islam.'' \17\ But details of only seven cases are provided in what 
Hulsman calls his ``most comprehensive'' report on the issue. \18\
---------------------------------------------------------------------------
    \16\  Cornelis Hulsman & Sawsan Gabra Ayoub Khalil, ``To Be an 
Effective Advocate for Peace, Media Distortions Must Be Addressed,'' 
Quaderns de la Mediterr`nia, no. 8, June 2007, p. 81. http://
www.iemed.org/publicacions/quaderns/8/q8_081.pdf)
    \17\ http://www.arabwestreport.info/8-christian-solidarity-
international-claiming-forced-conversion-coptic-girls-islam
    \18\ ``Forced Conversions or not?'' New York Council of Churches, 
June 28, 1999 (RNSAW 1999, 26A, art. 37), the report ``Conversions of 
Christians to Islam,'' by Dr. Rodolph Yanney, January 9, 2001 (RNSAW 
2001, 01A, art. 4) and the ``Open letter to former US Congressman 
Pastor Ed McNeely'' (AWR 2003, 30, art. 34). Also see AWR 2004, 28, 
arts. 21-22, 37-38, and AWR 2004, 36, art. 28 for the case of Inji 
Edward Naji.
---------------------------------------------------------------------------
    The responses conditioned by dhimmitude strikes a chord with the 
Western powers. Since 1995, the European Union has been pursuing the 
convergence of Islamic North Africa and the Middle East with post-
Christian, secular Europe through the Barcelona Process. \19\ 
Meanwhile, following 9/11, President George W. Bush, established 
winning the hearts and minds of Muslims as a major American foreign 
policy objective. \20\ In this context, the US Department of State, 
fearing the anger of Muslim military allies, such as Egypt, Saudi 
Arabia and Turkey, downplays and depoliticizes the issue, as Hulsman 
does.
---------------------------------------------------------------------------
    \19\ ``The Barcelona Process'', European Union External Action. 
http://eeas.europa.eu/euromed/barcelona_en.htm
    \20\ ``Winning the hearts and minds' of Arab and Muslim populations 
has quite understandably risen to the top of the Bush administration's 
agenda.'' David Hoffman, ``Beyond Public Diplomacy,'' Foreign Affairs, 
March/April 2002, pp. 83-95.
---------------------------------------------------------------------------
    The US Department of State's 2010 Trafficking in Persons Report 
referenced the 2009 CSI report, claiming, ``During the reporting 
period, an international NGO released a report about alleged forced 
marriages of Coptic Christian females in Egypt, including an allegation 
of forced prostitution, though the allegations have not been 
confirmed.'' \21\
---------------------------------------------------------------------------
    \21\ http://www.foreignaffairs.com/articles/57813/david-hoffman/
beyond-public-diplomacy.
---------------------------------------------------------------------------
    The US Department of State's International Religious Freedom Report 
for 2010 also referenced this same report:

        ``As in previous years, there were occasional claims of Muslim 
        men forcing Coptic women and girls to convert to Islam. Reports 
        of such cases were disputed and often included inflammatory 
        allegations and categorical denials of kidnapping and rape. In 
        November 2009 an international Christian advocacy group 
        published a report regarding alleged cases of forced 
        conversion; however, well-respected local human rights groups 
        were unable to verify such cases and found it extremely 
        difficult to determine whether compulsion was used, as most 
        cases involved a female Copt who converted to Islam when she 
        married a male Muslim. Reports of such cases almost never 
        appear in the local media.'' \22\
---------------------------------------------------------------------------
    \22\ Accessed at http://www.state.gov/j/tip/rls/tiprpt/2010/
142759.htm
---------------------------------------------------------------------------
    The authors of the 2009 report recognize that not all 
disappearances result from abductions, that not all marriages are 
forced and that some conversions can be consensual. The authors spoke 
with a young woman who quite candidly admitted that she left her 
husband because he beat her while her male Muslim neighbor was kind. 
She eventually returned to her family.
    However, it is not possible to dismiss each documented case in the 
2009 report on these grounds. Over the past six years, the authors have 
observed remarkable consistency in the stories of young women and their 
families from different parts of the country and from different social 
backgrounds, a consistency that supports the reliability of their 
testimonies. Respected and well-known human rights attorneys represent 
the majority of women whose stories are told in these reports. They 
have court documents and sworn affidavits attesting to the veracity of 
their clients.
    Claims that all disappearances are the result of petulant behavior 
and not abduction reflect a misunderstanding of the relationships 
between the young women and their captors rather than an accurate 
analysis of the circumstances. This challenge has been repeatedly 
addressed, and not always successfully, in anti-trafficking discourse.
    In critiquing the 2009 report, the International Religious Freedom 
Report claims that it is ``difficult to determine whether compulsion 
was used, as most cases involved a female Copt who converted to Islam 
when she married a male Muslim.'' This statement assumes that all 
marriages are voluntary and denies a recognized human rights violation, 
which is that marriages can be forced and that force obviates consent. 
A recent European Union Policy Directive on preventing and combating 
trafficking in human beings and protecting its victims states in 
paragraph (11) of its introduction:
        The definition [of trafficking in human beings] also 
        covers...other behaviour such as illegal adoption or forced 
        marriage in so far as they fulfill the constitutive elements of 
        trafficking in human beings. \23\
---------------------------------------------------------------------------
    \23\ The European Union Directive 2011/36/EU of the European 
Parliament and of the Council of 5 April 2011 on preventing and 
combating trafficking in human beings and protecting its victims, and 
replacing Council Framework Decision 2002/629/JHA
---------------------------------------------------------------------------
    Given that the authors of this report have verified that force, 
fraud and coercion are present in our documented cases, the fact that 
such trafficking cases are linked to marriage does not obviate the 
offense, as claimed by the US Department of State above.
    This report will focus upon various forms of vulnerability and 
coercion and their relevance in these instances in order to make a 
clear case for the reality of the abuse and exploitation of Egyptian 
Coptic women.

A NEW REPORT

    In November 2011, Ms. Ghaly and Ms. Clark traveled to Egypt in 
order to gather information for a second report. The purpose of this 
new study is to acquire further evidence to support the claims of 
disappearances, abductions and forced conversions and forced marriages 
of Coptic women in Egypt and to challenge the use of the term 
``allegation'' in US Government reports.
    The new findings in the report are based on:
        1. Interviews with four Egyptian lawyers. These lawyers 
        provided access to claims filed by families on behalf of Coptic 
        women who had disappeared as well as young women who had 
        returned from a forced marriage and conversion and were 
        attempting to regain their Christian identities;
        2. Interviews with representatives of civil society 
        organizations;
        3. Interviews with family members of young women who have 
        disappeared. Some of these individuals are represented by 
        attorneys;
        4. A review of Internet sites reporting the disappearance of 
        Coptic girls. The authors considered only those cases with 
        appropriate documentation, including police reports.
        5. Interviews with women who have returned from a forced 
        marriage and conversion.
    All interviews were conducted from November 16-25, 2011, in Cairo, 
Egypt, by the authors of this report.
    Only verifiable cases are included in this report. Each of these 
cases is verifiable through attorney files, personal interviews and 
police reports. The real names of young women and their family members 
and other identifying details are not published in this report in order 
to protect their identities.
AN INCREASING CHALLENGE
    This report corroborates all the findings and conclusions of the 
2009 report. Additionally, the report provides insight into new aspects 
of the disappearances, abductions, and forced marriages and conversions 
of Coptic women and girls.

The Number of Disappearances and Abductions Appear To Be Increasing.

    As in the anti-trafficking arena, exact numbers of cases throughout 
the country are difficult to come by for reasons analyzed below. 
However, each of the attorneys interviewed for this report indicated an 
increase in his caseload since January 2011. Four attorneys 
collectively report a total of over 550 cases of abductions, 
disappearances and petitions to restore Christian identify following 
abductions, forced marriages and forced conversions over a five-year 
period. Furthermore, one attorney interviewed for this report indicates 
first-hand knowledge of over 1,600 cases of Christians petitioning to 
have their conversions to Islam overturned in recent years, with 60% of 
this number being women; in other words, 960 women are petitioning to 
have their Christian identities restored.

        J. was 18 years old when she was abducted on her way home from 
        school. Her abductor was a man who had worked for her father 
        and had begun to make advances towards her. According to a 
        police report, the man is an escapee from prison, and had 
        threatened J. ten days prior to the actual abduction. The 
        threat was reported to the police on May 20. Two days later, 
        she was drugged, raped and taken to Alexandria where she and 
        her abductor were married. She was returned to her family on 
        June 1. Legally, she is still married to a Muslim man and her 
        identity card indicates that she is a Muslim.

    The issue of the disappearance of Coptic women is coming out from 
the shadows as evidenced by the emergence of websites managed by Coptic 
activists documenting claims of disappearances and abductions. 
Increasingly, families learn about the status of a missing wife or 
daughter via websites which announce new conversions to Islam. \24\
---------------------------------------------------------------------------
    \24\ An example of such a website can be found at http://
www.youtube.com/watch?v=
mWVjchpIDA4

---------------------------------------------------------------------------
Data Collection Challenges

    There is no systematic data repository within the Coptic community 
documenting the disappearances of young women. Priests or bishops keep 
records of activities within their churches and communities. Attorneys 
maintain their own caseloads. Activists maintain different websites but 
there is no cross-referencing with other data sources.
    Families of victims do not report all cases. The police do not 
register all complaints filed by family members. In many cases, family 
members of missing young women reported that the police would not file 
a report until a lawyer intervened. In other cases, families do not 
file reports because they do not believe that their claims will be 
taken seriously or because they fear retribution by the authorities. 
Not all families are financially able to secure the services of an 
attorney; while not a guarantee of results, the presence of an attorney 
would at least enable the filing of a legitimate claim.

        George is a quiet, soft-spoken man. His daughter, H., 
        disappeared on August 28, 2011. ``I received a phone call 
        telling me to watch out for my daughter,'' he told us. He took 
        his phone to the local police to report the threat but the 
        police did nothing. He tried repeatedly to call back the 
        number, sending numerous text messages as well.
        After that, he kept H. at home all day. For almost two weeks, 
        he remained at home, until finally he had to return to work. 
        When he came back home, his daughter was gone. She had wanted 
        to go to the supermarket, 250 meters from their home, and her 
        mother had let her.
        George looked everywhere for his daughter. He reported the 
        disappearance to the police, who sent him from one station to 
        the other before he was able to file a report. Although he was 
        able to find out the name of the owner of the cell phone on 
        which he received the phone call, he reports that the police 
        did nothing. He has not heard a word from his daughter since 
        her disappearance.
        When asked, George replied that he has learned of at least four 
        similar cases of daughters who have gone missing without any 
        further communication to their families in his own 
        neighborhood. These cases have never been registered with the 
        police. Nor has George sought the help of a lawyer.

    It is not only the local police who are reluctant to take these 
cases seriously. In September of 2011, human rights attorney Stefanos 
Milad Stefanos took fourteen open cases of abduction to the Egyptian 
Ministry of the Interior to request investigations. He reports that 
there has been no follow up to his report. The authors of this report 
met with one father whose case was taken to the Attorney General.

        D. was 19 when she disappeared on May 20th, 2011. She went to 
        work as a computer technician and never came home. Her mother 
        reported her missing at 6:00 pm that evening. At 11:00 pm, the 
        police came to their home and told the family that she had 
        married a Muslim man. The family reluctantly accepted the fact 
        that their daughter had gone of her own accord.
        D. called her father, an army officer, on June 20. As soon as 
        the father realized that it was his daughter, he pushed the 
        ``Record'' button on his cell phone. Through sobs, his daughter 
        apologizes to her father and asks him to tell her mother that 
        she misses her. Her cries are interrupted by the sounds of 
        someone entering the room. The line goes dead. When K, the 
        father, calls back, a man answers the phone and says, ``She is 
        unconscious now but let me tell you something, this girl is 
        more important to me than anything else. I swear to God, if 
        something happens to her, I will kill all of you and I will 
        burn the church. You know that I can do that!" \25\
---------------------------------------------------------------------------
    \25\ Partial Transcription from recorded telephone conversation 
between D.'s father and abductor.
---------------------------------------------------------------------------
        In this case, Stefanos presented the Attorney General with 
        three requests: The first, to address the threats to the father 
        and the church; the second, to allow the father to meet with 
        his daughter; and finally, to allow his daughter to tell the 
        story of what had happened to her. If she in fact did marry her 
        husband according to her own free will, there would be no more 
        charges.
        D. has called her father now eight times, asking for help in 
        getting away. She says that she is abused and mistreated. She 
        is imprisoned in a room and occasionally has access to a phone. 
        Her father knows where she is, but is afraid to intervene 
        because the consequences might be worse. Out of desperation, he 
        told his daughter to cut herself so that her family would take 
        her to the hospital. There, he might get a chance to see her. 
        Unfortunately for him, the family had the doctor brought to the 
        house in order to treat D.
        At the time of our meetings, there had been no response from 
        the office of the Attorney General to any of the cases brought 
        by Mr. Stefanos.

    Finally, it is important to note that in Egypt, the problem of 
violence against women in general and the lack of reliable information 
on such offenses is a documented challenge. The UN Committee on the 
Elimination of Discrimination against Women, for example, ``regrets the 
lack of data and information on the incidence of various forms of 
violence against women and girls [in Egypt], as well as the lack of 
studies and surveys on the extent of violence and its root causes.'' 
\26\ In a climate hostile to the reporting of crimes related to sexual 
assault and domestic violence, members of minority groups are hesitant 
to come forward.
---------------------------------------------------------------------------
    \26\ Concluding observations of the Committee on the Elimination of 
Discrimination against Women: Egypt. CEDAW/C/EGY/C0/7. Forty-fifth 
session. 5 February 2010. Paragraph (23)

---------------------------------------------------------------------------
Fewer Girls Appear To Be Returning to Their Families

    Our 2009 report focused on young women who had returned from a 
forced marriage and conversion and were struggling to regain their 
Christian identities. Since then, there has been a discernible change 
in the dynamics of the disappearances of young Coptic women. Attorneys 
handling such cases report that fewer young women are being returned to 
their families. There is speculation that young women might be 
trafficked overseas, but attorneys and activists have not yet been able 
to document this phenomenon.
    A growing number of grief-stricken parents now report that, 
following the disappearance of a daughter, there is neither contact 
from her captor nor any communication from the daughter herself.

        Z. owns his own business in Cairo. He works hard, and his 
        family is well-off. His wife passed away several years ago and 
        his daughter, A., took care of the family. On April 8, 2011, 
        she went to her private tutoring lessons and never returned 
        home. Z. received a call from a Muslim girl who told him that 
        A. was not feeling well and would not be coming home right 
        away. At that time, A. was 16 years and 7 months old.
        When she failed to show up for dinner, the father brought 
        together a group of friends and together they began to search 
        for A. After three days, he filed a police report. The police 
        were able to follow the movements of A.'s captors by tracking 
        her cell phone, which was used with a different SIM card 
        belonging to a recognized drug dealer. However, even in 
        possession of this information, the police have done nothing to 
        locate this man, notwithstanding the fact that he has a firm 
        link to a disappeared girl. Concurrently, the father ran 
        multiple missing persons ads in local papers.
        The family has heard nothing from A. since her disappearance 
        and there is no trace of her on any of the traditional 
        conversion websites.

        S. was 23 years old when she disappeared on February 4, 2011. 
        She comes from a family with modest means and worked in a 
        plastics factory. She was living at home. On February 4, she 
        went to evening church services with her mother. When her 
        mother came out of the church, S. had disappeared. A young 
        child told her that a microbus full of young girls took her 
        daughter.
        The family searched throughout the entire neighborhood and in 
        other towns for their daughter, putting up posters in public 
        places. S.'s father tried to report the abduction on February 7 
        but was told to go to several police stations before one would 
        file a report. Since February, there has been no communication 
        with the family. S.'s brother is despondent. He says that he 
        has three choices: to find his sister, to kill himself, or to 
        hope that death finds him quickly.

Social Media

    Many families are learning about their daughters' conversion to 
Islam through new Internet sites which document the conversion to Islam 
of Christian girls.

        Fayqa is tired. She has been looking for her daughter since 
        June of 2010. At that time, her daughter, N., 38, was on her 
        way to Cairo with her children to care for her when she came 
        home from the hospital. N. called from home one evening 
        announcing her arrival time. This was the last time the mother 
        spoke to her daughter.
        Fayqa learned that N. had been befriended by a Muslim woman, a 
        neighbor, who also disappeared the same day. She has not been 
        seen since. A woman of some independent means, Fayqa has spent 
        considerable personal resources trying to locate her daughter 
        but has found nothing. Fayqa eventually received a call from a 
        Muslim man giving her a phone number. When she called, another 
        man answered and told her, ``I have your daughter. She is with 
        me, and under my care. You will never see her again.''
        Finally, Fayqa saw a photo of N. on a website for newly 
        converted Muslims, and found a YouTube clip in which N. and her 
        daughter were both announcing their conversions to Islam. Fayqa 
        was puzzled. Her daughter had never used any form of social 
        media in the past. The action was out of character. N.'s 
        daughter, M., is now married to a Muslim student who had been 
        visiting her at the university.

Minors And Mothers of Young Children Appear To Be Increasingly 
Targeted.

    In addition to disappearances of single young women over the age of 
18, there is a noted increase in the disappearance of minors and of 
mothers with young children.
    Lawyers report an increase in the abductions of mothers with 
children. While the age of consent to convert is eighteen in Egypt, 
there are increasing reports that children of mothers who are forced to 
convert are also registered as Muslims. Even if a mother returns to her 
community, the children are considered by law to be Muslim and will 
remain Muslim.

        Not all victims come from modest or poor families. H. was 
        married to a wealthy Coptic businessman and had three children 
        who attended a private school. She hired a private car to take 
        them to and from school every morning, accompanying them in the 
        morning and waiting for them in the afternoon, spending her 
        time talking with other young mothers. One, who was 
        subsequently revealed to be the aunt of the driver of the car 
        she hired, was especially engaging and they began buying drinks 
        for each other (bottles of juice or other soft drinks). One 
        morning, after dropping her child off to school, she noted that 
        the driver was going a different direction. She was drinking a 
        bottle of juice, and felt uncomfortable. The driver took her to 
        Al Azhar Mosque. There, she was issued a document claiming that 
        she was a single woman and that she had converted to Islam. 
        Furthermore, the document claimed that her children would 
        automatically become Muslims. Her name was changed. She was 
        persuaded to sign papers divorcing her husband. In her drugged 
        state, she did not have the presence of mind to resist. 
        Eventually she was able to escape and seek refuge with her 
        cousin.
        H. is now living with her cousin, whose family is subject to 
        threats as a result of her presence in their household. Her 
        husband will not allow her to see her children and they remain 
        hidden; the father protects them because he fears that they 
        will be taken away and sent to an Islamic center since they are 
        legally considered to be Muslims. She feels trapped: She cannot 
        see her children, her marriage is ended, and she continues to 
        have a Muslim ID card. Detractors claim that she was having an 
        affair with her driver and that the situation escalated beyond 
        her control. Asked about this charge, she looks up at the 
        interviewers and with contempt in her voice claims, ``I had a 
        wonderful life. If I was going to risk losing my marriage, it 
        would not have been with a cab driver.''
CHARACTERISTICS OF DISAPPEARANCES
Disappearances Are Organized and Planned.

    Attorneys, social workers and members of the clergy interviewed for 
this and the previous report all attest to organized and systematic 
planning in cases of missing Coptic women. Tactics to lure young women 
into relationships follow similar patters throughout the country. One 
lawyer interviewed for this report stated that the same man's name 
occurred in several police reports; he married five Christian women who 
subsequently converted to Islam. Family members report that their 
daughters or sisters were befriended by a schoolmate, a neighbor, or an 
older mother figure over time. Lawyers indicate that their clients 
report that the families of the captors benefitted materially; 
frequently, family members were provided with new apartments or 
furniture, and unemployable young men were given jobs.

        H. the wife of a wealthy Coptic businessman, dropped her 
        children off at school every morning and waited for them in the 
        afternoon. She became friends with a Muslim woman and they 
        developed a habit of treating each other to cool soft drinks. 
        One day H., was given juice that contained a sedative of some 
        sort. She was then abducted.
        J. was drugged by a man who worked for her father and with whom 
        she had become friendly.
        A. was married to an abusive husband. Y., a Muslim farmer and 
        neighbor, offered to help her.
        M.'s mother was abducted. Some time later, M., a university 
        student, was befriended by a Muslim student. Gradually she 
        dropped all contact with her friends and extended family. They 
        are now married.
    In some instances, parents or relatives receive warning that 
something is about to happen.
        George received a call on his telephone. The caller spoke only 
        a few words: ``Take care of your daughter.''

Abductors Target Vulnerable Women and Girls, and Girls in Vulnerable 
and Unprotected Moments.

    The concluding observations of the UN's Commission on the 
Elimination of all Forms of Discrimination against Women (CEDAW) 
express concern ``at the very limited information and statistics 
provided about vulnerable groups of women and girls'' in Egypt. \27\
---------------------------------------------------------------------------
    \27\ Concluding observations of the Committee on the Elimination of 
Discrimination against Women: Egypt. CEDAW/C/EGY/C0/7. Forty-fifth 
session. 5 February 2010. Paragraph (45)
---------------------------------------------------------------------------
    Coptic women and girls are vulnerable in the following ways:
        1. They are members of a religious minority.
        2. They come from closed, insular communities.
        3. Their minority status is the basis for legal and social 
        discrimination
    Coptic women and girls are vulnerable because of their minority 
status, yet little effort is made by the Egyptian Government to 
document this vulnerability or its consequences.
    A counselor in a family center describes how the young women are 
vulnerable because they come from very closed communities. Young women 
want something more, including an education and a career, and they are 
vulnerable to offers of excitement and romance. What they do not 
realize is that the offers they are presented with are all a fraud.
    ``One young woman sold her religion for a glass of sugar cane 
juice,'' says a social worker. It was not so much for the juice, which 
she could get anywhere. It was for the kindness, which she never 
experienced.
    Says a lawyer: ``The abductors read people. They look for girls who 
are vulnerable. In many cases, the abductors are neighbors or family 
friends. They know the habits and the vulnerabilities of the family. 
And once they figure these out, they make their move.'' He goes on to 
say that if the issues are family hardships, inducement usually comes 
in the form of material support (or the promise of support). If the 
family issues are emotional, the abductors promise romance.
    A grieving father told us, ``My daughter was illiterate. She knows 
nothing except home, family and church.''
    But not all girls are from economically depressed family 
situations. In some cases, Coptic women are abducted from wealthy 
families, or families of means. Ransoms are not requested, indicating 
that the abductions are not driven by economic gain. Rather, these 
women disappear or are abducted when they are away from their homes, in 
transit from home to work, or traveling to different areas.

Captors Sever Contact Between Victims and Their Families.

    The first task of the captor is to come between a young woman and 
members of her family. They can do this by force, taking away her phone 
and family connections. They lock her up, denying her any mobility. 
They threaten her, telling her that, even if she runs away, her family 
will never accept her; they will punish her and put her in a monastery. 
Eventually a young woman is brainwashed and believes that she will be 
safe only with her Muslim captor. Ultimately, she will be truly safe 
only if she converts to Islam. Because there is no obligation for a 
Christian woman who marries a Muslim man to convert to Islam, Attorney 
Stefanos claims that conversion is the ultimate goal of the captivity.
        George and his wife have not heard from their daughter since 
        August 2011.
        S. disappeared on February 4, 2011. The family has not heard 
        from her.
        M. left home on May 3, 2011; no one has heard from her since.
        N. disappeared on June 30, 2010. The only signs of life the 
        mother had were through a YouTube video in which N. and her 
        daughter M. announced their conversion to Islam.
        N. did not return from a tutoring session on August 9, 2010. 
        The only communication the parents have received was through a 
        YouTube video documenting N.'s conversion to Islam.

Captors Make Use of Measures Involving Force, Fraud and Coercion.

    A young woman consents to a glass of sugar cane juice and the 
attention of a man whose words promise a life of love, ease and 
provision. Another shares drinks with a mother who is also waiting for 
children after school. And a third seeks friendship and escape from a 
harsh and sometimes abusive home environment. Victims who have not 
literally been abducted nonetheless did not consent to being ripped 
from their family without the possibility of ever seeing them again; 
nor do they consent to being forcibly converted to a religion other 
than their own. They do not consent to a life of captivity within one 
small apartment, every outing supervised by a member of her new 
husband's family. They said yes to the things that young women say yes 
to: friendship, romance, hope, a future, safety and security. It is 
reasonable to expect that most young women would respond in precisely 
the same way as many young Coptic girls responded to these offers of 
friendship or romance.
RECOMMENDATIONS
    In developing recommendations for this report, the authors 
consulted with attorneys and civil society actors in Egypt in order to 
assess what government actions might support their efforts to protect 
Coptic women from falling into captivity and, as a result, into forced 
marriages and conversions. There was considerable consensus as to steps 
that the government might take.

    EGYPTIAN GOVERNMENT

    1. Local police stations will take seriously and file reports on 
all claims of disappearance of Coptic women and girls. All claims will 
be investigated and family members kept appraised of the progress of 
each of these cases.
    2. The Egyptian national government will request an annual 
accounting of all cases of disappearances including open and ongoing 
cases as well as any prosecutions that resulted from local police 
investigations.
    3. The Egyptian government will create a registry to document the 
disappearance of minors.
    4. Children of parents who convert will retain the religion of 
their birth until they are 18 years of age, the legal age of consent.
    5. The legal age for conversion to Islam will be raised to 18, 
which is the age of legal consent in Egypt.
    6. Laws which penalize discrimination based on religion in the 
areas of education, employment and the media will be enacted.

    COPTIC CHURCH

    1. The Coptic Church will maintain a central registry documenting 
instances of disappearances, abductions and forced marriages and 
conversions of Coptic women.
    2. The Coptic Community will educate families and young women on 
the recruitment and deception patterns that lead to captivity.

    INTERNATIONAL COMMUNITY

    1. A legal defense fund will be created to enable Coptic families 
to secure the presence of an attorney.
    2. International or national agencies assessing the situation of 
Coptic women in Egypt will recognize that coercion and fraud are 
represented in most cases of disappearance, forced marriages and forced 
conversions, all of which obviate the consent of the victim.
    3. International organizations will recognize both the scope and 
scale of the problem and no longer refer to such offenses as mere 
``allegations.''
APPENDIX 1: SUMMARY OF CASES
    CASE 1

    Date of disappearance: August 28, 2011
    Victim: 17-year-old girl
    Source of information: Personal interview with victim's father, 
copies of missing persons ads in newspapers, police report references.
    Current Status: There has been no news of the daughter.
    Summary: On August 11, Victim's father received a threatening call 
from a private phone. The caller spoke the following words: ``Take care 
of your daughter.''
    The number appeared on his screen. He tried to call back and send 
texts but received no answer. He reported the threats to the police but 
received no response. For almost two weeks, the father stayed at home 
to take care of his daughter, but finally he had to go to work. He was 
gone for a few hours and when he returned, his daughter was gone. She 
had asked her mother for permission to go to the supermarket, 250 
meters from her house. She had been gone 15 minutes. She was bored and 
she complained about being locked up. Her father went after her but 
could not find her.
    He looked everywhere and could find no signs of her. He reported 
the disappearance to the police who sent him from one station to the 
other. He was finally able to file a report. His complaint was not 
taken seriously. He asked that the phone number be tracked; it was sent 
to the investigation department and he was told that this could take 
three weeks. He conducted his own research and was able to get a name 
but the police did nothing to follow up.
    The parents have heard nothing from their daughter since her 
disappearance. Since that time, the father learned of 4 similar cases 
of unexplained and unreported disappearances of daughters in his 
neighborhood. He placed missing persons ads in the newspapers but 
received no response. The mother remains distraught and the father 
writes anguished poems about his daughter.

    CASE 2

    Date of disappearance: September 10, 2010
    Subject: 26-year-old married woman
    Source of information: Personal interview
    Current status: Woman has since returned to her Coptic husband
    Summary: A 26-year-old married woman had problems with her husband. 
She was married at the age of 16. Her husband beat her. He was 
unemployed and she worked to support the family. She worked in a 
telephone company and was befriended by a Muslim male colleague. She 
confided in him about her bad marriage. Their relationship became a 
friendship. When the woman's husband found out, he beat her in the 
street; her Muslim friend came to her rescue and took her away to a 
safe place. Her uncle found out and forced her to go to a monastery but 
she ran away instead and went back to the Muslim man. She stayed with 
him and converted to Islam; they were married and she became pregnant. 
Eventually, because of her two older children she returned to her 
husband and had him declared the legal father of her daughter. She did 
not feel as if the Muslim man had done anything wrong.

    CASE 3:

    Date of disappearance: May 20, 2011
    Subject: 19-year-old single woman living at home
    Source of information: Personal interview with victim's father and 
family attorney; recorded telephone conversations; police reports.
    Current status: Although the father has been able to speak to his 
daughter by telephone, the family has not been able to see her since 
her disappearance.
    Summary: Victim is a 19-year old girl who had finished her training 
as a computer technician. She did not return home from work. Her mother 
reported her absence to the police at 6 PM; there was no formal 
accusation. At 11 PM the police came to the home and told the family 
that the Victim had married a Muslim man. The mother had a stroke and 
the rest of the family thought she had gone willingly with her new 
husband for up to 3 weeks after the incident.
    On June 20, the victim was moved from Cairo to another city and 
called her father. The father recorded this initial conversation, which 
is abruptly interrupted by the sound of a man entering the room. In a 
subsequent call, the man says, ``She is unconscious now but let me tell 
you something: this girl is more important to me than anything else. I 
swear to God if something happens to her, I will kill all of you and I 
will burn the church, and you know that I can do that.''
    The victim's lawyer took the case to the Attorney General and 
requested three things: 1) address the threats to the father and the 
church in the recorded message, 2) allow the father to meet with his 
daughter, and 3) respect the wishes of the daughter regarding her 
religious identity. To date, the lawyer has received no response.
    Victim has called her father now 8 times, asking for some kind of 
help. She speaks to him of abuse and mistreatment. She is with Muslims 
and reports that she is beaten when she makes the sign of the cross. 
She is imprisoned in a room, and occasionally has access to a phone. 
The father knows where she is but is afraid that if he tries to 
intervene the consequences will be worse. His position in the army does 
not help. Out of desperation, the father told her to cut herself so 
that the family would take her to the hospital. There, he might get a 
chance to see her. Unfortunately for him, the family asked the doctor 
to come to the house.

    CASE 4:

    Date of disappearance: September 15, 2010
    Victim: Young married woman with 3-year-old daughter.
    Source of information: Interview with victim's lawyer.
    Current status: Victim has remained with her Muslim husband and 
converted to Islam.
    Summary: The victim was married with a three-year old daughter; her 
husband was abusive. A young Muslim farmer offered to help her; he was 
already married. The first wife contacted the victim's family out of 
jealousy and the family placed the young woman in a monastery where she 
stayed for 10 days. She was able to contact her Muslim husband, who 
reported what had happened to the imam. The imam sent a delegation to 
rescue her. A gun was fired into the air. A rumor spread that a 
Christian killed a Muslim and the church was burned. In all, 11 people 
died: 5 Muslims and 6 Christians. 57 were injured. The subject and her 
Muslim husband were arrested and accused of causing a riot. She was 
released two weeks later. Her conversion was announced via YouTube.

    CASE 5:

    Date of disappearance: April 6, 2011
    Victim: 31-year-old married woman with two children
    Source of Information: Interview with victim's attorney; interview 
with victim and members of her family.
    Current status: Victim lives with her relatives. She is not able to 
see her children, who are now considered Muslim by virtue of her 
``conversion.'' Her husband has severed contact with her.
    Summary: The victim was married to a prominent and wealthy 
businessman with two children, a girl and a boy. Every day, she took 
the children to private school in a hired private car. While waiting 
for their children, mothers meet and talk. One mother in particular, 
the taxi driver's aunt, was very friendly. They began to buy each other 
a drink of juice or soda. The victim reported feeling odd after some of 
the drinks. On April 6, she took her children to school and noticed on 
the way back that the cab was going a different way home. They ended up 
at Al Azhar Mosque. She reported feeling physically helpless. She has 
little memory of what happened but now has a conversion document which 
states that she is single and has changed her religion. The document 
also states that any underage children will automatically become 
Muslims. Her name was changed to a Muslim name. She was given a Muslim 
ID. As she regained consciousness, she realized she was veiled. She was 
taken to another city in the Delta Region where she was locked up and 
kept in isolation. The family was able to trace her location through 
her mobile phone.
    She was forced to sign papers divorcing her husband. For five 
months, she was never permitted to go out. She was not beaten. She was 
able to call her mother from time to time. She was frightened On Sept. 
10, the Muslim family left her on her own and she called her cousin who 
came to get her. Since that time, she has been living with her cousin 
and his family. They all receive regular threats.
    Her husband, fearful that the children will be taken away and 
raised as Muslims, has cut off all contact with her. The victim and her 
attorney believe that the abduction happened because she was 
challenging the increased Islamic focus in her son's school. If she 
changes her status back to Christian, the state will automatically take 
her children because of the document she signed.

    CASE 6:

    Date of disappearance: February 4, 2011
    Victim: 23-year-old single woman who lived with her parents
    Source of information: Interview with victim's father and family 
lawyer
    Current status: There has been no contact with the victim since her 
disappearance.
    Summary: The victim was 23 years old. She worked in a plastics 
factory and lived next door to her parents. She had lunch at home every 
day. On the evening of February 4, she went to evening church services 
with her mother. At the end of the evening, the mother could not find 
her daughter. She ran into the streets, and a little girl told her that 
a microbus full of girls stopped and took her daughter.
    The family went to all the local hospitals, morgues, and coffee 
shops and surrounding communities to find their daughter. They have 
heard nothing since her disappearance. The father indicates that he 
tried to report the disappearance several times before his request was 
taken seriously. The anguished father told us, ``Our daughter is 
illiterate - all she knows is home, work, church.'' He felt that he 
needed to protect himself and so bought a gun. ``Kids in the streets 
have pistols,'' he said. ``Why not me?''
    The victim's brother is equally devastated. He says he has three 
choices: to find his sister, to kill himself, or to wait for death.
    The father knows of other families to whom this has happened and 
says, ``Because we are Christians, we are slaughtered.''

    CASE 7:

    Date of disappearance: October 2009
    Victim: 24-year- old-married woman
    Source of information: Personal interview; family lawyer
    Current status: Living with relatives, not able to find a place to 
live. Her husband is currently in prison.
    Summary: The victim ran away from her parents and married a 
Christian man when she was 20 years old. Because of her parents' 
disapproval and her husband's inability to get a job, the couple had a 
difficult time finding a permanent location. When her husband was sent 
to prison for non-payment of a debt, her family ostracized her. At the 
same time, members from a Muslim social service organization reached 
out to her and offered her assistance. They took her and her young 
child to a house with other women and surgically removed her Coptic 
tattoo. Eventually her husband demanded her release and they lived 
together for a time. However, his numerous attempts at finding work 
failed and he is now once again in prison. The victim is not able to 
return to her village and she lives with her brother. She is under 
pressure to return to the Muslim service organization and she and her 
brother have been threatened and attacked.

    CASE 8:

    Victim: Young mother of three daughters, ages 4, 7 and 11.
    Source of information: Personal interview; family lawyer.
    Current status: Children are still considered to be legally Muslim.
    Victim's father converted to Islam. It is customary that when a 
parent converts, all underage children are immediately converted as 
well. This affected 6 children in her family. Her mother took the 
youngest girls and placed them in the care of the Orthodox Church to 
protect them. They remained in an orphanage for 8 years. After her 
mother finally returned for her, the victim discovered that she and her 
siblings were legally Muslim. At the age of 18, she became engaged but 
her fiance proved abusive and she returned to her family. When she 
applied for her own ID card, she was told she was Muslim. She married a 
Muslim police officer, feeling that there was no place else for her.
    Eventually, her conversion was overturned; she left her Muslim 
husband and married a young Christian man who was also abusive. She has 
since left him. Her life is constantly threatened by the family of her 
first husband. Her daughters are considered to be Muslim because of her 
former status as a Muslim and she fears for their safety.

    CASE 9:

    Date of disappearance: October 2009
    Victim: Married woman, 22 years old with a child.
    Source of information: Family lawyer and father.
    Current status: She is still missing and there has been no 
communication
    Summary: The family had moved to Cairo 4 years prior to the 
abduction because the husband had found a job in the capital city. On 
the day of her disappearance, she left home with her child and has not 
been heard from since. Initially the police refused to file a report 
and tried to accuse the husband.
    Neither the lawyer nor the father has heard from the victim since 
her disappearance.

    CASE 10:

    Date of disappearance: May 21, 2011
    Victim: Unmarried woman, 18 years old, living with her family
    Source of information: Family lawyer
    Current status: Victim has returned home but is considered legally 
married to a Muslim
    Summary: This young woman was drugged by a man working for her 
father. He subsequently abducted her, raped her and blackmailed her, 
threatening to harm her sister if she fought him. On the 28th of May, 
he took her to Alexandria and began pressuring her to marry him and 
convert to Islam. She was able to escape and call her father, who came 
to get her. She is now living at home; however, she is considered to be 
legally married to a Muslim and her identity card states her religion 
as Islam.

    CASE 11:

    Date of disappearance: June 30, 2010
    Victim: Married woman with three children under 18
    Source of information: Personal interview with mother; family 
attorney
    Current status: The victim and her children remain missing. Her 
mother has had no personal contact with them and learned about their 
conversion on a YouTube video.
    Summary: On June 30, 2010, the mother was admitted to the hospital. 
Her married daughter, who lived in another city, was planning to come 
and care for her. When she did not show up, the mother began to worry 
and called the husband, who said his wife had left as planned. She 
reported the disappearance to the police who reluctantly registered the 
disappearance of the young mother with three children. With no support 
from the authorities, the mother spent extensive personal resources 
trying to find indications of her family's whereabouts. She learned 
that her daughter had been befriended by a Muslim woman in her 
neighborhood who also vanished the same day, and that her granddaughter 
had a close Muslim male friend at the university. She subsequently 
learned that her granddaughter married this man.

    CASE 12:

    Date of disappearance: April 8, 2011
    Victim: Young unmarried woman living with her father and brothers; 
17 years old.
    Source of information: Personal interview with father; police 
reports.
    Current status: The father has had no communication with his 
daughter since her disappearance.
    Summary: The father is a businessman who owns a cabinet-making 
company. His wife passed away and his daughter cared for the family. 
She was 17 years old. On April 8, 2011, she went to her tutorial class 
and never made it home. A Muslim girl called the father and told him 
that she was not well and would not come home. The father got friends 
together to look for her. Three days after her disappearance he filed a 
police report. The father was able to track the daughter's movements by 
tracing the SIM card in her phone. There has been nothing on YouTube or 
other sites.

    CASE 13:

    Date of Disappearance: August 9, 2010
    Victim: Unmarried young woman, 18 years old.
    Source of Information: Personal interview with brother
    Current Status: There has been no contact with the victim since her 
disappearance.
    Summary: The victim set out for a tutoring class but never arrived. 
In February 2011 she appeared fully veiled on YouTube saying that she 
had converted 5 months prior to leaving home. She said she had been 
able to see how the church does not make sense and is an act of evil. 
There has been no personal communication with her.

    CASE 14:

    Date of disappearance: June 14, 2007
    Victim: Young unmarried girl, 19 years old
    Source of information: Personal interview with mother; family 
lawyer
    Current status: The mother has seen her daughter one time since her 
abduction.
    Summary: The young woman went to meet friends for pizza and never 
came home. Her friends said she was not feeling well and left the 
gathering early with a Muslim girl. The police reluctantly filed a 
report.
    The family has had minimal contact with her and the mother has only 
seen her once since her abduction. The father learned that she was 
forced to marry a Muslim. The mother has heard reports that the 
daughter is being blackmailed with accusations of prostitution and that 
she feels trapped. The family launched an appeal on television stating 
that the family loved her and wanted her back, but there were no 
results.

    CASE 15:
    Date of disappearance: June 4, 2010
    Victim: Single young woman living at home, 21 years old.
    Source of information: Attorney files
    Current Status: Still missing; no communication with family
    Summary: The victim's mother filed a missing persons report two 
days after her daughter disappeared. There has been no news from the 
daughter since her disappearance.

    CASE 16:

    Date of Disappearance: June 20, 2010. Missing persons report filed 
July 31, 2010
    Victim: Married woman, 34 years old
    Source of Information: Attorney files, police report.
    Current Status: Still missing, no communication with family
    Victim's husband reported her missing. There has been no news since 
her disappearance.

    CASE 17:

    Date of disappearance: June 20, 2010
    Victim: Unmarried young woman
    Source of information: Attorney files, police report.
    Current Status: Still missing; no communication with family.

    CASE 18:

    Date of disappearance: October 12, 2010
    Victim: Unmarried young woman; 18 years old.
    Source of information: Attorney files
    Current status: Still missing; no communication with family,
    The young woman was reported missing by her mother.

    CASE 19:

    Date of disappearance: December 9, 2011
    Victim: Married woman with two children; 33 years old.
    Source of information: Website, police reports.
    Current Status: Still missing; no communication.
    Summary: On December 9, 2011, at 8:30 PM, victim left home for a 
hairdresser appointment and to buy her little boy a present for his 
birthday; when she did not return, her family filed a missing persons 
report with the local police station. There was no record of her 
conversion. She has not returned and her family has not heard anything 
about her at the time of this writing.

    CASE 20:

    Date of disappearance: November 24, 2011
    Victim: Unmarried young girl living at home, 15 years old.
    Source of information: Website, police report.
    Summary: The victim disappeared on November 24, 2011. A report was 
filed at the local police station naming her abductor. There were 
witnesses to the abduction. The victim was returned to her home on 
January 11, 2012. The family is not releasing any information and will 
not talk publicly about the experience.

    CASE 21:

    Date of disappearance: December 23, 2011
    Victim: Unmarried girl living at home, 18 years old.
    Source of information: Website, police records
    Current status: Victim is still missing.
    Summary: The victim disappeared on December 23, 2011. She left home 
to meet her private tutor and has not been seen since. Friends report 
that on several occasions prior to her disappearance, she was 
approached by individuals in cars, but that each time she ran away. Her 
family has heard nothing from her since her disappearance.
     Prepared Testimony of Walid Phares, Co-Secretary General, The 
          Transatlantic Legislative Group on Counterterrorism
    Mr. Chairman and distinguished members of the Helsinki Commission 
of the United States Congress, thank you for inviting me to testify 
today before this august body on the highly provocative and compelling 
issue of ongoing violence against Coptic women in Egypt, in the form of 
kidnappings, rape and forced religious conversions.
1.Violence Against Coptic Women in Egypt
    As many experts have already testified before this prestigious 
forum over the past few years, and last year in particular, individual 
acts of violence against Egyptian Coptic women, both individually and 
collectively, have been unrelenting, repetitive, and directed almost 
exclusively at young single women at of marriage age or under.
    This violence, which is described in several reports already 
submitted to your commission, committees in the House and Senate, as 
well as to international legislatures that include the European 
Parliament, House of Lords, and French National Assembly, reveal some 
disturbing trends:

        a. The attacks have been ongoing for more than three decades, 
        with peaks in some years.
        b. The victims are primarily young Christian women.
        c. Egyptian security and judicial authorities have not helped 
        the families of these girls by trying to rescue or recover 
        them.
        d. An overwhelming majority of the kidnappings and violence 
        have been carried out by individuals and groups who claim to be 
        acting on their belief in an ideology, a doctrine, a set of 
        fundamental beliefs known as Salafism or Jihadism which they 
        claim is the strict implementation of shariah laws.
        e. An overwhelming majority of these crimes have been dismissed 
        by government security and justice institutions, and the 
        radical factions have been protecting the perpetrators, 
        assigning blame to the female victims and their families.
        f. Violence against young Christian women in Egypt has 
        continued after the downfall of the previous regime, and 
        formation of the current alternative Government and its 
        institutions.

    These findings prompt the following questions:

        a. Have the attacks been widespread and consistently over time? 
        Is the history of these attacks reflective of the legal and 
        security status of the Coptic Christian community?
        b. Is the violence committed by an organized movement or by 
        individuals who claim to be acting on behalf of an ideological 
        movement?
        c. Does the attitude of government security, judicial, and 
        political institutions reflect cooperation with the attackers, 
        or at least neglect of a segment of Egyptian society?
        d. What are the consequences of the continuous attacks against 
        Coptic females, and thus the Coptic community, despite the 
        regime change and rise of new institutions in Egypt?
        e. What can and should the United States Government, 
        particularly the Administration, to put an end to these violent 
        practices against the women of the Christian Coptic community?

    Answering these questions will equip members of the Commission and 
thus of Congress with the perspective needed to understand the exact 
nature of the crisis and make informed recommendations regarding 
possible new legislation and alternative policies for adoption by the 
Executive Branch.
2. The nature of the attacks
    According to prior research submitted to your commission and other 
Congressional committees and legislatures around the world, targeted 
attacks against Coptic Christian women are not unrelated and isolated 
acts of violence. On the contrary, kidnapping and forcing captive women 
to convert to Islam has been documented for decades, revealing hundreds 
of victims each year. Research and Coptic sources claim that violence 
against Coptic women has been practiced since before the rise of modern 
Egypt. Research also confirms at that this abuse was documented for at 
least the last decade, especially in the past five years. Therefore, 
the first characteristic of the crisis is its longstanding history. 
This means that any solution to the problem must address its historical 
roots and scope of the violence. Christian Coptic women and girls have 
been forced from their homes, streets, and neighborhoods prior to and 
after the Arab Spring, before and after 9/11, and before and after the 
Cold War ended. Accordingly, this phenomenon is part a larger global 
crisis that has stricken the Coptic community under varying governments 
and regimes. This community, as research and previous hearings have 
demonstrated, is facing global pressure from extremist elements in the 
Jihadist and Islamist movements, particularly the Salafists, for years, 
if not for decades. The attacks against Christian Coptic women and the 
Christian Coptic community coincide in time line and are consistent 
with the motives with the acts of violence perpetrated against Coptic 
targets across Egypt at the hands of extremist elements from Al-Gama'a 
al-Islamiyya and the Salafists.
    As stated earlier, the attacks have targeted the female Coptic 
community, particularly younger women who are of the age to marry (and 
in some instances just about) which begs the question about the long 
range motive and the political identity of the network of perpetrators. 
The juxtaposition of well-documented attacks against the Coptic 
community generally, and young women in particular, reveal an 
historical pattern of violence against several segments of the Coptic 
community, including women, youth people, churches and public figures. 
These actions-also per research, archives and reports-are perpetrated 
by the same network of militants, from the Jihadi, Salafist and 
Islamist movements in Egypt.
3. The perpetrators
    While research over the past five years has not revealed a well-
designed structure that officially takes responsibility for the attacks 
against Coptic Christian women, it has shown patterns and statements 
that indicate the existence of a movement that hails from a well-
publicized ideology, namely, Salafist or Islamist fundamentalism, or 
Jihadism. A thorough review of public records in Egypt, online 
resources, and past reports submitted to Congress and other legislative 
bodies around the world, and interviews with the families of the 
kidnapped victims, reveals a clear picture of the group behind the acts 
of violence. In almost all cases, the kidnappers argued that their 
actions were legitimized and inspired by Salafist and jihadist 
principles. One central tenet of those principles is that individuals--
in this case, females--who convert from Christianity to Islam cannot 
revert back to their original religion, must accept their (forced 
marriage). In some cases, families of the victims were asked to pay a 
tribute to recover their daughters.
    The reference to Islamist or jihadist views, applicable to 
Christian Copts in general and women and girls in particular, shows 
that the acts perpetrated against them and their communities are 
ideologically and politically motivated, and carried out by men-in some 
cases with the help of females--are not necessarily formally linked to 
one central organization. But the hundreds of acts of violence have one 
pattern in common: a reference to the legitimacy of the violent action. 
While forbidden by Egyptian law, kidnapping and converting Coptic 
females was defended by the Salafists as an acceptable behavior. The 
supporters of such violence often indicate that the girls or women have 
been open to such conversion or have since accepted it, thus 
legitimizing the original illegal act of kidnapping. The repetition of 
the same arguments and scenarios indicates that the movement behind 
these practices, Salafists, Islamist Fundamentalists, and Jihadists, 
perceives their actions to be acceptable as a matter of policy and 
doctrine, thus inspiring more perpetrators to engage in the practice.
4. Government failure and Collaboration
    In parallel, reports by human rights groups as well as Coptic 
community and liberal Egyptian NGOs, have openly accused local Egyptian 
police and security forces, national security agencies, including the 
defunct state security agency ``amn al dawla,'' of either covering up 
the attacks, or protecting the perpetrators. Human rights and Coptic 
Christian reports and media describe the assistance provided to 
kidnappers by security police is exhibited in the rough and negative 
attitude displayed toward the families of the victims.
    The historical timeline of security collaboration with the 
perpetrators or at a minimum, non-support to the victims and their 
families, also coincides with the timeline of similar aggressive 
behavior against the community as a whole. The behavior of state 
agencies towards the issue of Coptic women and rape, kidnapping and 
forced conversion has been an element of a wider violence committed 
against churches, schools or other actors in the Coptic community.
    Coptic activists and NGOs -including the Washington DC based Coptic 
Solidarity International- have accused Egyptian security services under 
the Mubarak regime, of using Salafists to conduct attacks against 
Coptic targets to maintain the community under the protection of the 
government. Coptic and liberal Egyptian NGOs have argued that the new 
security agencies formed after the collapse of the Mubarak regime 
continue to allow these practices or help the perpetrators.
5. Consequences of attacks against Coptic women
    If the aggression targeting Christian Coptic women continues and 
widens, without a determined and massive intervention by the Egyptian 
Government to put an end to this practice, there will be serious 
consequences on Egyptian Christian women, their communities, and 
Egyptian women in general, leading to a weakening of civil society and 
a dramatic setback to freedom, human rights and democracy in Egypt. The 
chief consequence of unchecked aggressions against Coptic women the 
terror it has instilled in the hearts of Christian women who count for 
at least half of the fifteen or so million Christian Copts of Egypt. 
The hundreds of repetitive attacks against Coptic women send a clear 
signal to millions of young women in Egypt who feel targeted by the 
jihadists and Salafists, compelling them to limit their movement, 
narrow their social circles, and separate them from Muslim communities. 
Violence against Coptic women leads to a de-facto gender apartheid in 
Egypt, where Christian women will be increasingly deterred from finding 
jobs, expressing their opinion, wearing their own preferred outfits and 
circulating in public spaces.
    The effects on Coptic women will also extend to the entire 
Christian community as half of its members are increasingly intimidated 
by acts of violence committed on hundreds of young women. When one 
segment of community is terrorized, it reverberates throughout their 
families and communities, forcing the collective into mental ghettos or 
incentivizing emigration. Rape, abduction and forced conversion are 
among the root causes of a general sentiment among Copts that pushes 
thousands of them to flee the country of their ancestors. The ultimate 
goal of the extremist Salafists of establishment of an Islamist state 
in Egypt is served by the shrinking Coptic community through 
emigration. Coptic NGOS, including Coptic Solidarity International 
claims that Gulf funds and local financial circles sympathetic to 
Salafism and Wahabism in Egypt have been.
    Outside the community, the attacks against Coptic Christian women 
and their results will bring other consequence to bear on secular 
Egyptian women in general, both liberal and conservative. By failing to 
protect its Coptic citizens, the Egyptian Government will be perceived 
as incapable of protecting other segments of the population also 
targeted by the Salafists and the jihadists. Muslim liberal and secular 
women, who already fear the strict implementation and enforcement of 
sharia law, will be under increasing pressures by the most extreme 
elements of the Islamist movement to wear the Hijab and later, the full 
Niqab. The attacks on defenseless Coptic women are a mere prelude to a 
wider campaign to impose its ideological agenda, clearly seen in the 
Salafist movement as early as 2011.
6. The role of the US Government
    The United States Government must use every tool at its disposal to 
stop the persecution of Coptic Christian women and the marginalization 
of the Coptic community, and on a larger scale, the danger of apartheid 
against mainstream women in Egypt, regardless of their religions.
    Over the past five years, and particularly since the downfall of 
President Mubarak, there have been calls for the Administration and 
Congress to use foreign aid to convince the Egyptian government to 
intervene against these violent practices. So far, conditioning foreign 
aid on the respect of human rights in Egypt hasn't been successful in 
changing policies or realities in Egypt. Also, Congressional readiness 
to condition foreign aid to Egypt on respect for women and minorities 
rights hasn't convinced the Administration to adopt this strategy for 
diplomatic reasons.
    We recommend for the Helsinki Commission to adopt the following 
steps as a way to help protect Coptic women and girls in Egypt from 
abuse, and defend their universal rights.

        a.Reaffirm the conditions on global US Foreign Aid to Egypt of 
        a constitutional provision announced by the drafters of the new 
        Egyptian constitution, that the practices of abducting, 
        torturing and forcing conversions on Coptic women or any 
        element of society is a terrorist act unequivocally punishable 
        by law.
        b. Make a Congressional declaration that crimes against Coptic 
        women inspired by extremist ideologies targeting communities 
        will be considered crimes against humanity punishable under 
        international law
        c. Partner with Coptic and civil society NGOs, extending 
        financial support directly to these entities as part of the 
        global US Aid to Egypt.
        d. Ensure that the educational and informational system in 
        Egypt, particularly state supported institutions, isn't used to 
        propagate the ideology or precepts used by the perpetrators of 
        the attacks as a way to legitimize violence and discrimination 
        against Coptic women or encourage acts of violence against them 
        .
7. Current political situation
    The current political situation in Egypt provides context that 
should encourage the US Congress to become proactive in helping the US 
Administration redefine its policy toward Egypt, particularly as 
minorities and women rights are under attack. For with the arrival of 
Muslim Brotherhood presidency in M. Mohammed Morsi at helm of the 
Egyptian republic and with a possible ruling coalition inside the 
disbanded parliament or the next elected assembly, the ideological 
agendas of the Islamist movement at large would constitute a greater 
menace to the liberal segments of civil society and particularly 
against the Coptic community and its women. Kidnappings and forced 
conversions have already occurred under the authoritarian but pro-
American Government of Mr Mubarak. Under an Islamist authoritarian 
Government, these practices are highly likely to continue and increase, 
endangering not only Coptic women but also the rights of Egyptian 
secular women at large.
    It is critical during the transitional period between the Mubarak 
regime and the future political era, that the United States play a 
constructive role that ensures balance between all players in Egypt, 
and particularly in support of the weakest elements of society, namely 
from the bottom up, Christian women, the Coptic community, Egyptian 
secular women, youth and the rest of civil society that is committed to 
pluralist and liberal democracy.

                                 [all]
                                    

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.


         *    *     *

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

         *    *     *

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

         *    *     *


http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
